<html>
<title> - MISCELLANEOUS WATER AND POWER BILLS</title>
<body><pre>[Senate Hearing 110-494]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 110-494

                  MISCELLANEOUS WATER AND POWER BILLS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

             S. 2680                               H.R. 29

             S. 2805                               H.R. 123

             S. 2814                               H.R. 1803



                                     

                               __________

                             APRIL 24, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources

                             -------

                   U.S. GOVERNMENT PRINTING OFFICE
44-380 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001














               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                  TIM JOHNSON, South Dakota, Chairman

BYRON L. DORGAN, North Dakota        BOB CORKER, Tennessee
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
JON TESTER, Montana                  JIM BUNNING, Kentucky

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee


















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     2
Chavarria, Hon. Joseph Michael, Governor, Santa Clara Pueblo, 
  Chairman, Eight Northern Indian Pueblos Council, Espanola, NM..    26
Corker, Hon. Bob, U.S. Senator From Tennessee....................     2
Davies, Milton G., Director, Board of Directors, Fallbrook Public 
  Utilities District, Fallbrook, CA..............................    34
Domenici, Hon. Pete V., U.S. Senator From New Mexico.............     3
Johnson, Hon. Tim, U.S. Senator From South Dakota................     1
Johnson, Robert W. Commissioner, Bureau of Reclamation, 
  Department of the Interior.....................................     4
Ortega, Orlando, Eastern New Mexico Rural Water Authority, 
  Portales, NM...................................................    21
Rudolph, Martha, Director of Environmental Programs, Colorado 
  Department of Public Health and Environment, Denver, CO........    31

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    43

                              Appendix II

Additional material submitted for the record.....................    57

 
                  MISCELLANEOUS WATER AND POWER BILLS

                              ----------                              


                        THURSDAY, APRIL 24, 2008

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Senator Tim 
Johnson presiding.

OPENING STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH 
                             DAKOTA

    Senator Johnson.  I call to order this hearing before the 
Water and Power Subcommittee. It is my pleasure to welcome 
everyone here this afternoon. Today's hearing involves six 
different bills that are pending before the subcommittee.
    These bills cover a broad range of issues. As is typical 
for a hearing on miscellaneous bills we've got several which 
deal with basic water supply. Others promote water conservation 
and address water quality needs.
    I'll briefly summarize these bills for the record.
    One, S. 2680, the Leadville Mine Drainage Tunnel 
Improvement Act sponsored by Senator Salazar.
    Two, S. 2805, the Rio Grande Pueblos Irrigation Works 
Improvement Act sponsored by Senator Bingaman.
    Three, S. 2814, the Eastern New Mexico Rural Water 
Authorization Act sponsored by Senator Bingaman and Senator 
Domenici.
    Four, H.R. 29, authorizing a water supply project for the 
Fallbrook Public Utility District.
    Five, H.R. 123, to authorizing the San Gabriel Basin 
Restoration Fund.
    Six, H.R. 1803, the San Diego Water Storage and Efficiency 
Act.
    These bills are just a sample of the intense demand that 
exists for our constricted partnership with the Federal 
Government that addresses long term water needs. The 
subcommittee will take a closer look at these bills and work 
with the sponsoring members to try and make progress toward 
enactment. I'll turn to Senator Corker, the Ranking Member for 
his opening comments and then proceed to other members of the 
subcommittee if they wish to make a statement.
    Senator Corker.

          STATEMENT OF HON. BOB CORKER, U.S. SENATOR 
                         FROM TENNESSEE

    Senator Corker. Mr. Chairman, thanks for having this 
hearing. I want to thank the witnesses who are coming to 
enlighten us. I'm glad to be here with Senator Bingaman. I 
think Senator Domenici is coming. Because I know he's going to 
be here the entire time, I've left a seat here for him right 
beside you.
    I don't want you to think I don't want to be next to you. I 
always enjoy serving with you and with that I look forward to 
hearing this variety of bill presentations that I know are 
important to many, many members. Thank you.
    Senator Johnson. Senator Bingaman.

 STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW MEXICO

    The Chairman. Thank you very much, Senator Johnson. I 
appreciate you doing this hearing and you and Senator Corker 
both for your leadership on this subcommittee. Let me just make 
a very short statement.
    I'm particularly focused today on two of the bills that you 
listed there, S. 2805 and S. 2814. In the interest of time I'll 
submit a complete statement for the record.
    [The prepared statement of Senator Bingaman follows:]
        Prepared Statement of Hon. Jeff Bingaman, U.S. Senator 
                            From New Mexico
    Thank you Senator Johnson, for convening today's hearing, and 
including as part of the agenda, two bills that I am sponsoring--S. 
2805 and S. 2814. In the interests of time, I'll submit a written 
statement for the record and just make a few brief comments now.
    The witnesses on the second panel include a couple of New Mexicans 
who I'd like to welcome. We have Governor Michael Chavarria of Santa 
Clara Pueblo, and Mayor Orlando Ortega of Portales, New Mexico. 
Accompanying Mayor Ortega, is Mayor Gayla Brumfield of Clovis, New 
Mexico. Thank you all for being here today.
    The Subcommittee will hear testimony today describing the critical 
water needs facing the communities represented by Governor Chavarria, 
Mayor Ortega, and Mayor Brumfield. They will also talk about their 
efforts at the local level to address these issues. What's now needed 
is the active participation of the federal government to achieve 
success in solving the problems they face. Unfortunately, the 
Administration's testimony will not offer any assistance, but instead, 
tells these communities that basically, they are on their own. I think 
this is a short-sighted approach to a critical set of issues and look 
forward to discussing this further during the hearing.
    Thank you again Mr. Chairman for convening today's hearing.

    The Chairman. Let me just say we do have two witnesses 
today from New Mexico who I'm very proud to have here. Governor 
Michael Chavarria, who's Governor of Santa Clara Pueblo is here 
to testify on one of the two bills. Mayor Orlando Ortega of 
Portales, New Mexico is here to testify on the other.
    Mayor Ortega is accompanied by Mayor Brumfield, Gayla 
Brumfield from Clovis, New Mexico. Of course Mayor Ortega is 
from Portales. We thank all of those witnesses for being here.
    I am disappointed as we will hear in the testimony that I 
believe the Administration's position is that they do not 
support Federal Government help with the projects involved 
here. I think that's unfortunate. But I think we'll get good 
testimony and I hope we will have strong support on the 
committee to move ahead with this legislation, both pieces of 
legislation.
    Again, thank you for having today's hearing.
    Senator Johnson. We'll now turn to the first panel of 
witnesses for today's hearing. Representing the Administration 
is Bob Johnson, the Commissioner of Reclamation will speak to 
all the bills on today's agenda. We also have Susan Bodine, the 
Assistant Administrator for Solid Waste and Emergency Response 
at the Environmental Protection Agency. Ms. Bodine is here to 
address the issues involving S. 2680.
    Welcome to both of you. Thank you for making yourself 
available. Before starting I would like to quickly note that 
the subcommittee has received additional written testimony on 
several of the bills before us today. That testimony as well as 
the written submission of all of today's witnesses will be made 
a part of the official hearing record.
    Mr. Johnson, please go ahead and summarize your written.
    Mr. Johnson. Thank you.
    Senator Johnson. Wait a minute.
    Senator Domenici.

   STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Domenici. Mr. Chairman, Senator Bingaman, I first 
wanted to tell you that I came. But I won't be able to stay 
very long. I wanted to make sure that the New Mexico witnesses 
knew that I was involved, but won't be here very long.
    I have an opening statement regarding S. 2814 that I'd like 
to make part of the record.
    [The prepared statement of Senator Domenici follows:]
       Prepared Statement of Hon. Pete V. Domenici, U.S. Senator 
                            From New Mexico
    Mr. Chairman, I want to thank you for holding this hearing. Senator 
Bingaman has a bill before this subcommittee today, S. 2814--of which I 
am proud to be a cosponsor--that intends to address a serious issue we 
are dealing with back in our state.
    Eastern New Mexico faces the growing prospect of insufficient water 
supplies. It also faces competition between agriculture and municipal 
demands for those water supplies that do exist. This is a fact. It is 
not up for debate. What is up for discussion is how these needs will be 
addressed.
    Some of you will remember, in fact some of you were there; this 
Committee had a field hearing on this subject in Clovis last August. In 
that hearing I expressed my concern that the Administration has not 
been very supportive of addressing this issue. Frankly, I do not feel 
that the situation has improved.
    I would like to reiterate several points that I made during that 
hearing.
    Over the last 5 years or so, the State Engineers Office has been a 
strong supporter for the use of Ute Reservoir water to supply the needs 
of communities in the Clovis and Portales region. The Bureau of 
Reclamation, on the other hand, has been a reticent participant in this 
process.
    Had the leadership been engaged, the full feasibility work for this 
project could have been accomplished many years ago. Instead Congress 
has had to push, pull, cajole and wrestle with the agency to get even 
the minimum amount of attention.
    I look forward to hearing from the Administration on these issues 
and hope that we can work together to find financially responsible, 
technically feasible solutions for the water supply challenges of 
Eastern New Mexico.
    I thank all of our witnesses for being here today, especially the 
Honorable Orlando Ortega for coming all the way from Portales. I would 
also like to thank Governor Chavarria for making the trip as well to 
testify before us today.

    Senator Domenici. It's pretty straight forward. Just a 
quick observation regarding the water pipeline that you and I 
have introduced a measure on.
    I hope that the government's witnesses come to the 
conclusion that they've studied it enough. In spite of the fact 
that we don't have a method of paying for it that they at least 
indicate we're ready and that we don't have to spend more time 
studying or evaluating it. If I'm not here, I would hope that 
one of you would ask that question or I would leave it and ask 
it. Thank you very much.
    Senator Johnson. Mr. Johnson, please go ahead and summarize 
your report and testimony. Following that we'll have a brief 
question and answer period for you and Ms. Bodine. Proceed.

    STATEMENT OF ROBERT W. JOHNSON, COMMISSIONER, BUREAU OF 
 RECLAMATION, DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY SUSAN 
  PARKER BODINE, ASSISTANT ADMINISTRATOR FOR SOLID WASTE AND 
      EMERGENCY RESPONSE, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Johnson. Thank you, Mr. Chairman and members of the 
committee. It's a pleasure to be here. I will try to summarize 
our written testimony quickly.
    S. 2680 would direct the Interior Department to implement 
actions of the remedy selected by the Environmental Protection 
Agency for the California Gulch Superfund site. The 
Administration cannot support S. 2680. However I can report to 
the subcommittee that Reclamation and EPA are aggressively 
taking action to address any immediate risk.
    Public safety dictates every action Reclamation and EPA 
take at the Leadville Mine Drainage Tunnel. We have had an 
emergency action plan for the tunnel since 2001. Reclamation is 
making every effort to make a science based determination 
regarding whether there is an elevated public safety risk below 
the drainage tunnel. Reclamation's ongoing risk assessment 
which began in November 2007 is aimed at understanding how 
complex geology and extensive subsurface mine passages affect 
the quantity and quality of drainage inside the tunnel. The 
results of that study are going to be available this June.
    In the meantime our agencies are committed to the 
following. EPA will complete the removal action that is 
underway including the construction of the relief well, pump 
and pipeline to transport water to Reclamation's treatment 
plant. Reclamation will operate and maintain the treatment 
plant, relief wells, pump and pipeline and if necessary based 
on the risk analysis, improve the treatment plant to handle 
increased flows of water as a result of the EPA removal action.
    In addition to these actions Reclamation and EPA are 
evaluating long term solutions and will have a better 
understanding of the long term safety requirements once the 
analysis is completed. We're working to develop a permanent 
solution. We will submit proposed legislation if any 
legislative authority is needed to implement it.
    S. 2805 would authorize agreements with the Rio Grande 
Pueblos to rehabilitate or reconstruct existing irrigation 
infrastructure. The Department supports the goals of this bill. 
Installing proper drainage, replacing ditches with pipes or 
concrete linings and having conveyance facilities capable of 
efficiently supplying water at both high and low flows would 
result in greater efficiency for the Pueblos. However, the bill 
as presently written contains some unclear provisions and 
funding requirements which are outlined in our written 
testimony. For this reason, the Department cannot support S. 
2805.
    S. 2814, the Eastern New Mexico Rural Water Project Act 
would authorize rural water project for several Eastern New 
Mexico municipalities. Reclamation has been working with the 
State of New Mexico and local parties on a number of studies on 
this evolving project over the years. Since 1998 Congress has 
provided $1.76 million for planning and technical assistance, 
of which more than $1.2 million has been transferred directly 
to the city of Clovis for work on the project.
    Reclamation has previously expressed concerns with the 
adequacy of the conceptual design report and posed some 
critical questions outlined in detail in our written testimony 
that need to be considered before construction should proceed. 
Much progress has occurred and Reclamation continues to work 
with the local entities to develop answers to our concerns. The 
Administration is concerned about becoming the primary source 
of funding for these types of project and because of this 
project's high Federal cost of $327 million, the Department 
cannot support S. 2814.
    H.R. 29 would authorize construction of facilities to 
provide water for irrigation, municipal use and military uses 
from the Santa Margarita River in California. Engineering, 
economic and environmental analyses are currently underway for 
this project and are not yet complete. Since 2003, Reclamation 
has been working with the Marine Corps and the district to 
analyze alternatives capable of implementing the Conjunctive 
Use Project.
    It is anticipated that implementation could assist in 
settling the long standing water rights claims of the Marine 
Corps and the district and help reduce the use of imported 
water supplies from the Colorado River and the Bay delta in 
California. However, primarily for fiscal reasons, we cannot 
support H.R. 29 at this time.
    H.R. 1803, the San Diego Water Storage and Efficiency Act 
of 2007 would authorize a feasibility study to design and 
construct a four reservoir intertie system to improve water 
storage opportunities, reliability and water yield in San Diego 
County. The Department supports the goals of this bill and 
would support the bill if amended as described in my written 
statement. Reclamation recommends that this bill be amended to 
provide that before undertaking a full feasibility study and 
appraisal investigation should be complete to determine the 
prudence of a feasibility study. Only if the appraisal 
investigation recommends that the proposed intertie system be 
studied further should the Secretary undertake a full 
feasibility study.
    H.R. 123 would increase the ceiling on funds authorized to 
be appropriated to the San Gabriel Basin Restoration Fund. The 
Administration does not support H.R. 123. Ground water 
contamination was first detected in the San Gabriel Valley in 
1979. As part of this effort to clean up the ground water 
contamination in San Gabriel Basin, Congress established the 
restoration fund in 2001.
    The Administration has not budgeted for the San Gabriel 
Restoration Fund in any fiscal year. The Department believes 
that resources should be allocated to achieving priorities 
within Reclamation's traditional mission area and does not 
support the 61.2 million cost ceiling increase proposed in the 
bill. Reclamation, however, will continue to work with the 
Water Quality Authority and the district when possible to 
advance the goal of ground water clean up in the San Gabriel 
Basin.
    Thank you again for the opportunity to comment on these six 
bills. I would be happy to answer any questions.
    [The prepared statements of Mr. Johnson follow:]
   Prepared Statements of Robert W. Johnson, Commissioner, Bureau of 
                Reclamation, Department of the Interior
                                s. 2680
    Mr. Chairman and Members of the Subcommittee, I am Robert Johnson, 
Commissioner of the Bureau of Reclamation. I am pleased to be here 
today to present the Administration's views on S. 2680, the ``Leadville 
Mine Drainage Tunnel Environmental Improvement Act of 2008.'' We 
recognize the intense public interest in the Leadville Mine Drainage 
Tunnel issues addressed by this bill, and support the goals of this 
bill of ensuring public safety and accomplishing the expeditious and 
efficient cleanup of the California Gulch Superfund site. The 
Administration cannot support S. 2680 at present because we have not 
yet determined what further actions are needed to provide a long-term 
solution.
    That being said, I can report to the Subcommittee that Reclamation 
and EPA are aggressively taking action to address any immediate risk.
    In view of the recent concerns of rising groundwater and mine pool 
levels, EPA and the Bureau of Reclamation, in coordination with the 
State of Colorado, are now conducting removal actions. This work 
commenced in February 2008 and includes two major activities. First, 
EPA installed a pumping system in the Gaw mine shaft and has been 
pumping at a rate of 450 gallons per minute since late February. This 
action may lower water levels in the mine pool. In addition, it appears 
to have diminished seeps and springs that had recently appeared in the 
lower California Gulch. Second, EPA is taking steps to drill a relief 
well into the LDMT to lower the level of water in the LMDT and mine 
pool. EPA plans to have the relief well, pump and pipe to the LMDT 
installed and ready to operate in Summer of 2008.
    Both the Department of the Interior and the U.S. Environmental 
Protection Agency (EPA) have a long history in this area. The Leadville 
Mine Drainage Tunnel (LMDT) is located in central Colorado, and was 
originally constructed by the Bureau of Mines from 1943 to 1952. It was 
intended to de-water portions of the Leadville Mining District to 
facilitate the extraction of lead and zinc ore for the WWII and Korean 
War efforts. Reclamation acquired the LMDT in 1959 with the intention 
of using the tunnel as a source of water for the Fryingpan-Arkansas 
project, though water rights issues precluded using the tunnel effluent 
as a water source. Water that flows out of the tunnel is considered 
part of the natural flow of the river.
    In 1975, EPA issued a National Pollutant Discharge Elimination 
System (NPDES) permit to Reclamation because the LMDT effluent contains 
heavy metals. In 1991 Reclamation completed construction of a water 
treatment facility at the LMDT portal--the plant treats the effluent 
flowing from the LMDT to the standards in the NPDES permit.
    EPA listed the California Gulch Site on the National Priority List 
(NPL) in 1983. The 18-square-mile area was divided into 12 areas 
designated Operable Units (OU). The Leadville Mine Drainage Tunnel 
(LMDT) is located beneath OU6, which covers approximately 3.4 square 
miles in the northeastern quadrant of the Site. The Bureau of 
Reclamation owns the LMDT, which is hydrologically connected to OU6. 
Reclamation does not own or operate any sources of contamination on the 
surface of OU6 (i.e., waste rock or tailings) or any portion of the 
surface itself. The objective of OU6 is to control surface sources of 
contamination. Specifically, the objectives are to control erosion of 
mine waste rock and deposition into local water courses; control 
leaching and migration of metals from mine waste rock into surface 
water; control leaching of metals from mine waste rock into 
groundwater; and prevent direct unacceptable exposures to elevated 
concentrations of contaminants in the soil and waste rock. EPA is the 
lead agency to address hazardous substances at the California Gulch NPL 
Site, including OU6 in particular.
    As part of the implementation of the OU6 remedy, EPA collects 
surface runoff from mine waste piles and discharges that surface runoff 
into the Marion Shaft, where it moves through the mine workings to the 
Leadville Mine Drainage Tunnel. This water is seasonal and totals 
approximately 3 to 5 million gallons a year. However, the volume of 
surface water diverted by EPA to the LMDT is less than 1% of the 550 
million to 750 million gallons of water Reclamation treats annually. 
EPA pays Reclamation for the treatment of that water at the Reclamation 
Treatment Plant. The chemistry of the water draining from the LMDT to 
the Reclamation treatment plant is very different from the chemistry of 
the water found on the surface of OU6. It has proven to be possible, 
however, for the Reclamation plant to treat limited amounts of waters 
from OU6 under agreements with EPA.
    Currently, groundwater levels have continued to fluctuate near the 
LMDT. Reclamation is working to assess the threat level to public 
safety through a detailed risk analysis. Reclamation has already 
increased the rate at which water from the LMDT is pumped, treated, and 
discharged into the Arkansas River. Since February 15, Reclamation has 
established capability to increase water treatment at the treatment 
facility by over 80% and today is able to process water at a rate of 
nearly 2,100 gallons per minute (gpm) from the LMDT (or 4.8 cubic feet 
per second). The natural rate of drainage from the tunnel is 1,487 gpm, 
or 3.4 cfs, which amounts to 2,500 acre feet annually.
    Public safety dictates every action Reclamation takes at the LMDT, 
and Reclamation has had an Emergency Action Plan for the LMDT and water 
treatment facility since 2001. Water level indicators and other warning 
systems near the LMDT are tied into the water treatment plant's auto-
dialer for employees, and an audible warning system was installed in 
2002 to alert the Village at East Fork residents in the event of an 
emergency. The system plays an alert message in Spanish and English.
    Reclamation is making every effort to make a science-based 
determination regarding whether there is an elevated public safety risk 
below the LMDT. Reclamation's ongoing risk assessment, begun in 
November 2007, is aimed at understanding how the complex geology and 
extensive subsurface mine passages affect the quantity and quality of 
drainage water inside. The results are expected in June of this year.
    Interior and EPA, at the highest levels, are committed to the 
following:

  <bullet> EPA will complete the removal action that is underway, 
        including the construction of a relief well, the pump and 
        pipeline to transport water to Reclamation's treatment plant.
  <bullet> Reclamation will operate and maintain the treatment plant, 
        relief wells, pump and pipeline, and if necessary based on the 
        risk analysis, improve the treatment plant to handle increased 
        flows of water as a result of the EPA removal action.

    In addition to these actions, Reclamation and EPA are evaluating 
long-term solutions and will have a better understanding of long-term 
safety requirements once the risk analysis is completed. We are working 
to develop a permanent solution to any safety problem and we will 
submit proposed legislation if any legislative authority is needed to 
implement this solution on a long-term basis.
    The Administration cannot support the specific language in S. 2680 
at present because we do not yet know what additional specific safety 
measures and funding requirements may be needed. Once the EPA relief 
well is completed in June and water can be pumped from the LMDT, any 
immediate risk should be alleviated and more information about the 
needs for ensuring the safety of the tunnel and long-term water 
treatment options can be assessed. It is possible that the particular 
solutions referenced in section 4 of S. 2680, which calls on 
Reclamation to implement portions of the remedy selected by the 
Administrator of the Environmental Protection Agency in 2003, may turn 
out not to be necessary. We look forward to working with the Congress 
and the State of Colorado to find the best outcome for the citizens of 
Leadville.
    This concludes my written remarks. We would be pleased to answer 
any questions from the Subcommittee.
                                s. 2805
    Mr. Chairman and Members of the Subcommittee, I am Robert W. 
Johnson, Commissioner of the Bureau of Reclamation. Thank you for the 
opportunity to appear today to present the Department of the Interior's 
views on S. 2805, a bill to authorize the United States to enter into 
agreements with the Rio Grande Pueblos to repair, rehabilitate, or 
reconstruct existing irrigation infrastructure. While the Department 
supports the goals of this bill, we cannot support this legislation.
    The Rio Grande Pueblo Irrigation Infrastructure Improvement Act 
would provide an assessment of the irrigation infrastructure of 18 
Pueblos in New Mexico and provide grants to repair, rehabilitate, 
reconstruct, or replace existing infrastructure. In 1999 and 2000, 
Reclamation spent $100,000 in cost share with the Bureau of Indian 
Affairs for an appraisal level study and cost estimate for irrigation 
infrastructure work on the 18 Pueblos.
    Diversions of the Rio Grande River and many of its tributaries 
supply the water for irrigation. Irrigated agriculture remains the 
primary source of Pueblo-grown produce for family consumption and local 
sales, while also serving important cultural purposes.
    Many factors now make Pueblo farming more difficult. Often, there 
is not enough flow available for Pueblo ditches to work properly. 
Despite the incorporation of the six Middle Rio Grande Pueblos into the 
Middle Rio Grande Conservancy District's water delivery system, poor 
Pueblo irrigation facilities have, in some cases, hindered the delivery 
of water for efficient production on Pueblo lands.
    Installing proper drainage, replacing inefficient ditches with 
pipes or concrete lined ditches, and having conveyance facilities 
capable of efficiently supplying water at both high and low flows would 
result in greater efficiency for the Pueblo. Work done to date between 
Reclamation and the Pueblos is primarily done through Public Law 93-638 
contracts. These contracts are the preference of many of the Pueblos. 
Work done under this bill would be subject to Public Law 93-638. 
Section 5(a) of this bill describes cooperative agreements and grants 
with the Pueblos. Reclamation is concerned that it lacks the word 
``contracts,'' which could be problematic with issuing Public Law 93-
638 contracts.
    The scope of work that would be covered under the bill could vary 
significantly depending on the definitions for some key words included 
in this bill. Reclamation would request definitions for major 
impoundment structures (Sec.5(b)1), on-farm improvements (Sec.5(b)2), 
drainage facility (Sec 3(4)), and historically irrigated lands 
(Sec.5(b)3). The definitions for each of these could have different 
interpretations and could significantly change the boundaries, costs 
and workload associated with these projects. Section 4 also does not 
describe any cost share requirements for the study, which includes 
creation of the list and work with the Pueblos to gain their consent of 
the list.
    Sections 4(a) and 5(c) direct Reclamation to conduct a study and 
compile a list of projects based on priority and with the consent of 
the Pueblos. The results of the study, priority list and any other 
findings must be reported to Congress within 18 months of the 
enactment. This time frame is not reasonable to conduct an adequate 
feasibility study, prepare cost estimates, comply with the National 
Environmental Policy Act, and perform a value engineering analysis, all 
of which are required by Reclamation. The bill would provide DOI with 
the authority to award grants to the Rio Grande Pueblos to plan, 
construct or repair Pueblo irrigation infrastructure. S. 2805 would 
authorize the Federal government to pay up to 75 percent of project 
construction/repair costs, and to waive the non-Federal cost share 
requirement if the Pueblo demonstrates financial hardship that would 
prevent the Pueblo from cost sharing. S. 2805 authorizes an 
appropriation of $60 million for the proposed projects and $4 million 
for the study.
    The list mentioned in sections 4(a) and 5(c) must have the consent 
of the Pueblos. The legislation's wording does not specify whether all 
Pueblos must approve the entire list or each Pueblo is required to 
approve only its portion of the list. The outcomes could also vary 
depending on whether approval of the list would require unanimous 
consent of all the Pueblos, or only the consent of a majority of the 
Pueblos. Under Public Law 93-638, the Pueblos can request that they 
determine the priorities and overall list of projects to be completed. 
Reclamation would like clarification on the level of consent required 
from the Pueblos, individually and corporately.
    Reclamation agrees that this legislation could help improve the 
efficiency of the Pueblo irrigation systems and could therefore serve 
as a water conservation measure along the Rio Grande. However, as 
described above, the bill as presently written contains many unclear 
provisions and leaves some important factors open to interpretation. 
The Department also can not support the addition of new projects which 
would result in the reduction of funding for other ongoing Reclamation 
projects. This concludes my testimony. I am happy to answer any 
questions.
                                s. 2814
    Mr. Chairman and Members of the Subcommittee, I am Robert W. 
Johnson, and I am Commissioner of the Bureau of Reclamation. I am 
pleased to be here to provide the Department of the Interior's views on 
S. 2814, the Eastern New Mexico Rural Water Project Act. The Department 
cannot support S. 2814.
    Reclamation has been working with the state of New Mexico and local 
parties on developing concepts for the Eastern New Mexico Rural Water 
Project since Congress authorized feasibility studies in 1966. 
Reclamation has participated in a number of studies on this evolving 
project over the years. Since 1998, Congress has provided $1,763,000 
for planning and technical assistance, of which more than $1.2 million 
has been transferred directly to the City of Clovis, acting as the 
fiscal agent for the local communities, for work on the project. The FY 
2008 omnibus appropriation includes $246,000 for the Project.
    The proposed Eastern New Mexico Rural Water Project would provide a 
sustainable water supply for the eastern New Mexico municipalities of 
Clovis, Elida, Grady, Melrose, Portales, and Texico, as well as Curry 
and Roosevelt counties and Cannon Air Force Base. The area currently 
depends entirely on a groundwater source that is diminishing in both 
quantity and quality. The currently envisioned project would supply 
16,400 acre-feet per year. The water would be delivered through a 
pipeline from Ute Reservoir, which was built by the State of New Mexico 
in 1963 as a water supply source for eastern New Mexico, and would cost 
approximately $436 million to construct, with $8.2 million in annual 
operations and maintenance costs.
    In 2004, Reclamation testified on legislation (HR 4623) to 
authorize construction of the Eastern New Mexico Rural Water Supply 
Project. During that hearing, Reclamation cited concerns with the 
adequacy of the Conceptual Design Report to support authorization and 
identified some critical questions that needed to be answered before 
construction should proceed, such as whether all economically viable 
alternatives had been considered, whether design and construction costs 
were consistent with comparable projects, and whether the communities 
that would be sharing project costs had an accurate estimate of how 
much those costs might be. Reclamation also expressed concerns with the 
proposed cost sharing formula, which assumed an 80% federal share for 
construction of the project. The federal cost share in the new 
legislation (S. 2814) is 75%.
    In the intervening years, a Reclamation ``Oversight Committee'' has 
been assisting the Eastern New Mexico Rural Water Authority (Authority) 
and their consultants in developing a more complete and thorough 
feasibility report.
    A ``Preliminary Engineering Report'' prepared for the Authority by 
their consultant that was submitted in December 2006 represents 
significant progress toward a feasibility-level analysis. Reclamation 
is continuing to work with the Authority as they further develop the 
proposed project's design, cost estimates, financing plan, and 
environmental analysis.
    The Authority is working with their consultant to take the design 
and associated cost estimate to the feasibility level. Feasibility-
level cost estimates are based on information and data which is 
sufficient to permit the preparation of preliminary layouts and designs 
used to estimate each kind, type, or class of material, equipment, and 
labor necessary to complete a project. A second consultant has been 
selected by the Authority to work on National Environmental Policy Act 
compliance. A third consultant for the Authority is working on a 
detailed plan for financing the project.
    As stated above, the most recent cost estimate for construction, as 
prepared last year by the Authority's consultant, is $436 million, with 
an estimated annual operation and maintenance cost of $8.2 million. The 
local communities would pay 100% of the operation, maintenance, and 
replacement costs.
    Reclamation is committed to working with its customers, States, 
Tribes, and other stakeholders to find ways to balance and provide for 
the mix of water resource needs in the future. The Administration is 
concerned, however, about becoming the primary source of funds for 
these types of projects. Because of this project's high cost, with a 
federal cost share of $327 million, and because this project would 
compete with ongoing work by Reclamation in New Mexico and across the 
west, the Department cannot support S. 2814. However, we are working 
with the Authority and the State to bring the project to a point where 
a feasibility determination is possible.
    This concludes my statement, and I am happy to answer any questions 
the Subcommittee may have.
                                h.r. 29
    Mr. Chairman and Members of the Subcommittee, I am Robert W. 
Johnson, Commissioner of the Bureau of Reclamation. I am pleased to be 
here today to give the Department's views on H.R. 29, to authorize the 
Secretary of the Interior to construct facilities to provide water for 
irrigation, municipal, domestic, military, and other uses from the 
Santa Margarita River, California.
    Engineering and economic feasibility investigations, and 
environmental analysis that is currently underway for this project, are 
not yet complete. In addition, general stream adjudication for the 
Santa Margarita River is ongoing, and the claims of the Pechanga, 
Cahuilla and Ramona Indian Bands have yet to be determined, leaving 
uncertainty as to ownership of water rights in this river system. Also, 
this project would have to compete for funds with ongoing projects. In 
view of these factors, the Department cannot support H.R. 29.
    H.R. 29 authorizes $60 million of Federal funding for construction 
of this project, as may be adjusted for engineering cost indices, 
conditioned upon the following:

          1. The Fallbrook Public Utility District (District) and the 
        Department of the Navy (Navy) entering into a repayment 
        contract with the United States for its allocation of the 
        construction costs, with interest, as applicable;
          2. The State of California granting permits to Reclamation 
        for the benefit of the Navy and the District to use the water 
        developed by the project;
          3. The District agreeing not to assert any prior 
        appropriative right it may have to water in excess of the 
        quantity deliverable to it under this Act; and
          4. The Secretary of the Interior determining that the project 
        has economic, environmental, and engineering feasibility.

    The project would be located on the lower Santa Margarita River on 
Camp Joseph H. Pendleton Marine Corps Base (Marine Corps), the 
Fallbrook Annex of the Naval Weapons Station (Weapons Station), and 
surrounding lands within the service area of the District. The project, 
as proposed by the Act, would consist of features for the conjunctive 
use of ground and surface water, the yield of which would be allocated 
60 percent to the Navy and 40 percent to the District.
    In 1974, the California State Water Resources Control Board (SWRCB) 
assigned four water rights permits to Reclamation held in trust for the 
Marines and the District. The permits were originally granted to 
construct two dams on the Santa Margarita River as part of a proposed 
settlement of United States v. Fallbrook. Since 2003, Reclamation has 
been working with the Marine Corps and the District to analyze 
alternatives capable of implementing the conjunctive use project under 
a feasibility investigation authority. It is anticipated that 
implementation could assist in settling the long-standing water rights 
claims of the Marine Corps and the District.
    Mr. Chairman, the Department understands the importance of reducing 
the use of imported supplies from the Colorado River and the Bay-Delta 
in the Santa Margarita River basin. However, for the reasons stated 
above we cannot support H.R. 29. This concludes my testimony. I would 
be happy to answer any questions.
                               h.r. 1803
    Mr. Chairman and Members of the Subcommittee, I am Robert W. 
Johnson, Commissioner of the Bureau of Reclamation. I am pleased to be 
here today to present the Department's views regarding H.R. 1803, the 
San Diego Water Storage and Efficiency Act of 2007. The Department 
supports the goals of this bill, and would support the bill if amended 
as described in this statement.
    H.R. 1803 would authorize the Secretary of the Interior to conduct 
a feasibility study to design and construct a four reservoir intertie 
system for the purposes of improving the water storage opportunities, 
water supply reliability, and water yield in San Diego County, 
California. In cooperation and consultation with the City of San Diego 
and the Sweetwater Authority, the investigation would determine whether 
a system of pumps and pipelines interconnecting four non-Federal 
reservoirs (San Vicente Reservoir, El Capitan Reservoir, Loveland 
Reservoir, and Lake Murray) would improve water management 
opportunities. The legislation authorizes an appropriation of $3 
million for the investigation.
    The Bureau of Reclamation recommends that this bill be amended to 
provide that before undertaking a full feasibility study, Reclamation 
should first carry out an appraisal investigation to determine the 
prudence of a feasibility study for the proposed intertie system. Only 
if the appraisal investigation recommends that the proposed intertie 
system be studied further should the Secretary undertake a study, as 
authorized in this bill, to determine the feasibility of the intertie 
system.
    As part of the feasibility authorization in this bill, the Federal 
cost share will not exceed 50 percent of the total study costs. The 
proposed legislation only authorizes a feasibility investigation. The 
outcome of the feasibility investigation would be an important factor 
in whether the Secretary would recommend that Congress enact further 
authorization for construction of the proposed reservoir and intertie 
project.
    The Department is aware of local efforts to study various ways to 
increase local water supplies and reliability in southern California. 
As Watermaster of the Colorado River, the Department would benefit from 
improved efficiency of use of imported water in California. An intertie 
system such as the project proposed might allow San Diego County, 
located at the end of the Colorado River, and State Water Project 
distribution systems, the ability to better manage their imported 
supplies, improve reliability and move water more effectively within 
several reservoirs to receive the benefits of available storage. This 
project, if found to be feasible, could be a valuable tool under the 
California 4.4 Plan to improve and better utilize imported water from 
the Colorado River.
    The Bureau of Reclamation is currently working with the City of San 
Diego and the Sweetwater Authority on other unrelated water recycling 
projects that help with the future needs for water of the region.
    The Department supports the goal of this legislation to authorize a 
new feasibility investigation, and requests that the legislation be 
amended so that the feasibility investigation will only go forward if, 
on the basis of an appraisal investigation, Reclamation determines that 
the proposed intertie system should be studied further.
    Mr. Chairman, this concludes my testimony. Thank you for the 
opportunity to comment on H.R. 1803. I would be happy to answer any 
questions at this time.
                                h.r. 123
    Mr. Chairman and Members of the Subcommittee, I am Robert Johnson, 
Commissioner of the Bureau of Reclamation. I am pleased to be here 
today to give the Department's views on H.R. 123, a proposal to 
increase the ceiling on funds authorized to be appropriated to the San 
Gabriel Basin Restoration Fund. The Administration does not support 
H.R. 123.
    Groundwater contamination was first detected in the San Gabriel 
Valley in 1979. Following this discovery, the U.S. Environmental 
Protection Agency designated major portions of the region's groundwater 
as Superfund sites. Between 1990 and 1997, EPA identified Potentially 
Responsible Parties at the site who then engaged in negotiations with 
local water agencies and began initial design work on an EPA-developed 
basin-wide plan to set cleanup priorities. After reaching a detailed 
agreement with seven local water agencies in March 2002, design work 
was completed and construction work began. Construction of the four 
planned groundwater extraction and treatment facilities was largely 
completed in 2006.
    As part of this effort to clean up the groundwater contamination in 
the San Gabriel Basin and prevent the contamination from spreading into 
the adjacent Central Basin, the San Gabriel Basin Restoration Fund 
(Fund) was established in 2001 by P.L. 106-554. Originally established 
as a Defense Department account and subsequently transferred to the 
Interior Department, this interest-bearing account reimburses the San 
Gabriel Basin Water Quality Authority (WQA) and the Central Basin 
Municipal Water District (District) for designing and constructing 
facilities that help with groundwater cleanup efforts in the Basin. The 
Fund is also authorized to reimburse the WQA and District for operating 
and maintaining these facilities for up to 10 years. A 35 percent non-
Federal share is required for projects. This cost-share can be met by 
credits given to the WQA for expenditures used for water quality 
projects that have already been built in the San Gabriel Basin, in lieu 
of depositing the required 35 percent non-Federal share for these 
projects into the Fund. To date, the entire non-Federal share has been 
met by credits that have been certified by Reclamation.
    In Fiscal Year 2001, Congress appropriated $23 million for deposit 
into the Fund. The Energy and Water Appropriations Act for Fiscal Year 
2002 (P.L. 107-66), transferred administrative responsibility for the 
fund from the Secretary of the Army to the Secretary of the Interior, 
and appropriated an additional $12 million. Appropriations in fiscal 
years 2003-2008 brought the total deposits to the Fund to $71.71 
million. In addition, the Fund has accumulated over $2.8 million in 
interest.
    Reclamation has executed six grant agreements under the Restoration 
Fund authority. One grant agreement is with the Central Basin Municipal 
Water District, covering design, construction, operation, and 
maintenance of their facility, up to the $10 million ceiling 
established by the legislation for this component. The other five 
agreements are with the WQA. Four cover the design and construction of 
specific facilities, and the fifth agreement covers operation and 
maintenance of those four facilities.
    The total estimated cost of the project authorized by the 
legislation is about $204 million. Based on this cost estimate, about 
$69 million would be allocated for the completion of all five 
facilities, and about $135 million would be allocated to fund the 
operation and maintenance of all five facilities for 10 years, as 
authorized.
    The San Gabriel Basin Restoration Fund is and will continue to be 
used for important local projects. Reclamation must allocate its scarce 
budget toward funding already authorized projects within the agency's 
traditional mission of delivering water and power in an environmentally 
responsible and cost-efficient manner, with emphasis on the needs of 
aging infrastructure, the safety of existing facilities and dams, and 
ongoing environmental restoration efforts. The Administration has not 
budgeted for the San Gabriel Basin Restoration Fund in any of the 
preceding fiscal years. The Administration believes that resources 
should be allocated to achieving priorities within Reclamation's 
traditional mission area and does not support the $61.2 million cost 
ceiling increase proposed in H.R. 123. Reclamation, however, will 
continue to work with the WQA and the District when possible to advance 
the goal of groundwater cleanup in the San Gabriel Basin.
    Mr. Chairman, this concludes my testimony. Thank you for the 
opportunity to comment on H.R. 123. I would be happy to answer any 
questions at this time.

    Senator Johnson. I yield to the full chairman of the 
committee.
    The Chairman. Thank you very much, Mr. Chairman. I do have 
a couple of questions about the two bills that relate to our 
circumstance in New Mexico. First, let me ask Mr. Johnson, this 
Rio Grande Pueblo bill which I think you testified on. I think 
the Bureau of Reclamation and the Bureau of Indian Affairs 
first completed an initial assessment of the Pueblo's 
irrigation facilities back in 2000. So this is not a new item.
    I guess the obvious first question is why has nothing been 
done to implement the results of that study since 2000?
    Mr. Johnson. I understand that we have had some interaction 
with the Pueblos but have never been able to find the resources 
to move forward with any of the programs that were identified 
in there.
    The Chairman. I guess I would ask if, I think in your 
testimony on this bill, you indicate that there are still a 
series of technical problems with the bill. Are those clearly 
identified someplace where we could talk back and forth about 
those? See if we could resolve at least some of them because my 
sense is that many of them are fairly ephemeral disagreements.
    I think for example you state the need to define some key 
terms when those terms were actually taken directly from the 
2000 report that Bureau of Reclamation did. So, I mean, we 
ought to be able to find some way to resolve that concern at 
least. Is it possible to get a real, definitive itemization of 
the problems you folks still have with that bill?
    Mr. Johnson. I think it is, Senator. I think we'd be happy 
to work with you to get language that is clear in our minds as 
to the intent of the legislation. I think that can be done.
    You know, I think, ultimately, we still have the concerns 
about the fiscal impacts and costs. But I think the technical 
issues that we've--and the comments that we've made on the 
bill, I think we could certainly work with you on it. I agree 
with you. I think we could probably find solutions to those.
    The Chairman. That would be very helpful. I know that the 
Administration has tried to make grants under this Water 2025 
program in the last several years. Could you tell me how much 
of that, how many of these grants or what percentage of these 
grants have gone to Indian tribes?
    Mr. Johnson. I can't give you a specific figure on that. 
But I can certainly provide one for the record. We have given 
some Water 2025 grants to tribes. I don't think it's a lot. 
It's probably a few. But we can get you that information for 
the record.
    The Chairman. Ok. That would be very helpful if we could 
get that. Let me ask about the other legislation that I'm 
concerned about the Eastern New Mexico Rural Water bill. I'm 
surprised, frankly, that we have had a great deal of 
interaction. I think you acknowledged that in your testimony, 
between the Administration and the local communities involved 
on this legislation.
    I was surprised that your testimony says, ``The 
Administration is concerned about becoming the primary source 
of funds for these types of projects.'' My recollection is that 
16 months ago the President signed into law the Rural Water 
Supply Act of 2006 which contemplates a Federal cost share of 
up to 75 percent on rural water projects. This bill was crafted 
in part from legislation that was proposed by the 
Administration which suggested a 65 percent cost share for 
rural water projects.
    It seems to me that this is a pretty clear change of 
position from what the President signed 16 months ago. Am I 
missing something here?
    Mr. Johnson. You're right about the Rural Water 
legislation. I think it says up to 75 percent. I think our hope 
was that we could find projects that wouldn't require that high 
of a percentage or projects that we could provide technical 
assistance with.
    Then also part of that act had the potential of providing 
loan guarantees to help provide non-Federal dollars for 
financing for rural communities and that sort of thing. So I 
think we saw those as tools in that act that could in fact 
provide some assistance without costing hundreds of millions of 
dollars. I think one of the things that we struggled with is we 
have a number of rural water projects that are already 
authorized. We have a $2 billion backlog. We're really 
struggling finding the funding for the ones that are already 
authorized.
    You know, I think there's a concern about these new ones 
coming along that are again in the hundreds of millions of 
dollars and what our ability is going to be to fund those if 
they get authorized as well. I think it really comes back 
primarily to a fiscal concern.
    The Chairman. So it's really not a concern about becoming 
the primary source of funds for these types of projects. It's 
concern about becoming the primary source of funds for any more 
of these types of projects. Is that it? Is that what you're 
saying?
    Mr. Johnson. I think it's overall. Certainly we have a 
number of projects that are already authorized. We're behind 
the eight ball on them. Quite frankly, we're not funding them 
at real significant levels. We're not keeping up with the 
backlog that we have. Adding more exacerbates that problem.
    We would like to use the Rural Water Supply Act to provide 
assistance to rural communities in planning water supply needs. 
Then maybe, hopefully using some of the other tools that that 
act provides that maybe wouldn't commit such large percentages 
and such large dollars to future funding. So certainly the act 
does provide up to the 75. I don't deny that. I think it's our 
hope that we can use percentages that end up with maybe smaller 
fiscal impacts on our budget.
    The Chairman. Last year Reclamation's Albuquerque area 
office sent a letter to the authority stating that its 
engineering report demonstrated that the project was 
technically viable'' and ``the least costly and most 
sustainable way to meet long term water needs in the project 
area.'' You still agree with that?
    Mr. Johnson. I'm sure if that our project office said that, 
I'm certain that that's correct. I know there has been a lot of 
study that's been done on this project. Yes.
    The Chairman. It is my impression, based on the research 
we've been able to do, that this project has received more 
scrutiny, undergone more analysis, than any other rural water 
project that's ever been authorized by the Congress. Would you 
agree with that?
    Mr. Johnson. I know it's undergone a lot of study, going 
back for a very long period of time. Not knowing the complete 
history I don't know that I would say it's the one that's 
received the most, but I would say it's fair to say it's 
received more than most. I don't know if it's absolutely the 
most.
    The Chairman. I guess the sort of final concern I have is 
if we do further delay, which I believe your testimony is 
urging, further delay this project, the concern you've got 
about the cost is going to only increase. I mean every time 
this is put off another year, the cost goes up. The quicker we 
can go ahead and begin the development and construction of the 
project, I think the more likely we are to get it done at some 
reasonable cost. So I have that concern. Let me stop with that. 
Thank you, Mr. Chairman.
    Senator Johnson. Senator Corker.
    Senator Corker. Mr. Chairman, what I'd like to do with the 
same interest from Senator Domenici is submit a number of 
questions that he had for the record that they can respond 
directly back to us with.
    Senator Johnson. Senator Bingaman and Senator Salazar have 
a number of questions regarding the bills they are sponsoring. 
I will defer to them on those matters. But I do have a general 
question on BOR's Rural Water Program.
    In December 2006 we enacted the Rural Water Supply Act 
which required BOR to determine how to build the criteria by 
December 2007 and feasibility criteria for rural water projects 
by June 2008. What is the status of those actions called for in 
the original legislation?
    Mr. Johnson. We are preparing a set of Federal regulations 
to lay out the criteria under which to administer the Rural 
Water Supply Act. That criteria has been drafted. It's 
undergoing review. Our schedule calls for that to be available 
as an, what we would call an interim final rule in September of 
this year.
    So we've got ongoing work on that. We did provide, I think, 
a short letter report to the Congress a few--a month or so ago 
explaining the status of where we are on that. Another part of 
that is the loan guarantee program and the regulations to deal 
with the loan guarantees that would be associated with 
Reclamation facilities. But also the Rural Water Program. It 
could be connected to the Rural Water Program.
    We've run into a determination that funding--that our 
seeking of appropriations for that loan guarantee program would 
have to be 100 percent of the loan guarantee. So we're in the 
process of reconsidering how we develop that rule and move 
forward with it. So that's the status of the rulemaking 
processes that we're working on under that act.
    Senator Johnson. Your testimony indicates that the 
construction of the Santa Margarita project is contingent on 
the State of California granting permits necessary to use water 
for the project. You also mentioned that Reclamation currently 
holds permits to construct dams to disrupt water supply on the 
Santa Margarita River for the Fallbrook district and Camp 
Pendleton. Can Reclamation use the permits it presently holds 
from the State of California for the project proposed in H.R. 
29?
    If so, is it true that activity under those permits must be 
initiated by the end of this year or the permits may not longer 
be valid?
    Mr. Johnson. Yes. The permits that Reclamation currently 
holds would be used as the water supply for the Santa Margarita 
Project. Those permits do expire at the end of this year. When 
you're not putting water right permits to use there is always 
the risk that we could lose those permits. They could be 
awarded to somebody else if we're not showing action on putting 
those permits to use.
    We certainly would approach the State of California, the 
Water Resources Control Board, to seek renewal of those permits 
before they expire.
    Senator Johnson. You note that the engineering studies and 
the environmental analysis for the Santa Margarita Project had 
not yet been completed. What is the status of those studies at 
a minimum has an appraisal level and has an analysis been 
completed?
    Mr. Johnson. Yes, the feasibility studies are scheduled to 
be completed in June of 2009. The draft feasibility report is 
going to be available late this summer. We did do a pre-
feasibility study. I don't know if we called it an appraisal 
study, but we did a pre-feasibility study that did show that 
the further analysis and that the project did have promise.
    Senator Johnson. Your testimony indicates that the 
Administration opposes reauthorizing the San Gabriel Basin Fund 
because Reclamation's budget is not the appropriate place for 
this funding. That withstanding, which agency provides the 
funding? Is there a Federal responsibility to help clean up the 
ground water contamination in Southern California?
    Mr. Johnson. Mr. Chairman, that's something I'd like to do 
some research on and provide an answer for the record.
    Off the top of my head I'm not sure what Federal 
responsibilities might exist on that project. But we'd 
certainly get back for the record on that.
    Senator Johnson. Yes. Get back to us.
    Senator Salazar.
    Senator Salazar. Thank you very much, Chairman Johnson and 
Ranking Member Corker for holding today's hearing. Let me first 
say on the second panel we will have Martha Rudolph from the 
Colorado Department of Health and Environment. I want to 
welcome her here today to testify on our legislation here.
    Let me also, Commissioner Johnson, thank you for the work 
that you have done at Leadville and with all the other Bureau 
Reclamation facilities that we have in Colorado. I will have a 
number of questions to ask you. Let me also say here at the 
outset that you should know I'm disappointed in the fact that 
at last night we received the official confirmation from the 
Bureau of Reclamation that you were opposed to this legislation 
to deal with what could potentially be a huge human and 
environmental catastrophe for Colorado.
    If the Leadville mine drainage tunnel bursts it not only 
will put into danger the lives of people who live immediately 
below the water treatment plant of the Leadville mine drainage 
tunnel, but also has all the potential of killing a river 
downstream of that point throughout the entire Arkansas River 
Basin. If that were to happen the communities from Leadville, 
through Buena Vista, through Salida, through Pueblo all the way 
to the Kansas line and beyond could in fact be affected by the 
blowout of this tunnel. So want to just at the outset express 
that I am disappointed and hope that what we can do with the 
Bureau of Reclamation is to work with you to see how we might 
be able to modify the legislation in a way that we can get this 
legislation through the Congress. So that we can provide some 
clarity about who has the responsibility in moving forward with 
what is a very dangerous situation in our State.
    Today a collapsed part of the Leadville mine drainage 
tunnel poises a grave and environmental threat to many citizens 
of Colorado. Leadville sits at the headwaters of the Arkansas 
River. Thus the affluent into the river there is a fair amount 
of importance to millions of people. The deterioration of the 
tunnel has received enormous attention throughout Colorado and 
indeed throughout the country over the last several months.
    The tunnel is just over two miles long. It was a tunnel 
constructed during the 1940s and the 1950s by the U.S. 
Department of the Interior's Bureau of Mines, the drain that 
flooded mines and the Leadville mining district in Lake County 
Colorado. In 1959 the Bureau of Reclamation took full custody 
and full responsibility for the LMDT in order to obtain 
additional water rights for the Fryingpan Arkansas project 
under the condition that the Bureau would not spend its own 
funds to maintain or repair the tunnel.
    In the early 1990s, however, litigation compelled the 
Bureau to take responsibility for the quality of the water that 
was discharged from the tunnel. In 1995, a major collapse of a 
segment of the tunnel was detected and since then mine water 
has pooled behind the blockage. Today the EPA estimates that 
close to one billion gallons of water contaminated with toxic 
levels of cadmene, zinc, manganese has collected in that 
tunnel.
    The citizens of Leadville and Lake County and the counties 
and communities downstream of Leadville are rightly worried and 
concerned that the building pressure of the voluminous quantity 
of water will cause the blockage to burst and flood the town 
resulting in a public health and environmental disaster. This 
winter's heavy snowfall has many of us concerned that spring 
snow melt will further balloon the quantity of toxic water and 
exacerbate the risk. I want to thank the Bureau of Reclamation, 
Commissioner Johnson and your staff for the swift and decisive 
action that you have taken up to this point to begin pumping 
and treating water behind the tunnel blockage.
    These operations have provided some measure of relief and 
some piece of mind to the citizens of Leadville. But we must 
not however lose sight that we need a long term solution to 
this problem. We are not out of the woods in terms of the 
danger that is created because of the blockage.
    My bill focuses on making sure the long term solution for 
the tunnel moves forward as expeditiously as possible. My bill 
gives the Secretary of the Interior and the Bureau of 
Reclamation clear authority and responsibility to maintain the 
LMDT in a manner that protects human health and the 
environment. For many years the Bureau has maintained that it 
is not responsible for changed conditions within the LMDT, 
specifically the legislation directs the Bureau to participate 
in the long term remedy that has already been approved by the 
EPA, the Colorado Department of Public Health and Environment 
and has been vetted over many years through many public 
meetings.
    The bill also authorizes the necessary funds for 
implementation of a long term remedy. The long term solution 
for the LMDT specified under the fully approved and vetted EPA 
Superfund record of decision is much more extensive than the 
pumping and water treatment activity that is currently now 
underway. It will involve construction of a bulkhead in the 
tunnel to isolate the contaminated pool, backfilling the 
tunnel, as well as several other actions.
    The bill also directs the Secretary of the Interior in 
cooperation with the State and EPA to conduct a study to 
determine whether any blockages in the tunnel have affected or 
are affecting water quality and aquatic life in the Arkansas 
River. We must ensure that the problems with the blockage do 
not impact the water quality of the Arkansas River which is a 
life blood of so many that rely on that river. The study that 
we propose in the legislation will help us improve our 
understanding of the conditions of the headwaters near the 
tunnel.
    Above all, my bill directs the Bureau and the Environmental 
Protection Agency to come to a consensus on implementing a long 
term remedy that I believe we all agree is necessary to 
safeguard the LMDT from becoming an environmental and public 
health disaster. A permanent solution to the problems with the 
LMDT has long been stymied by jurisdictional and liability 
questions related to EPA's remedies selected in the California 
Gulch Superfund site record of decision for the area that we 
commonly refer to as Operational Unit Nine. Specifically 
Reclamation's legal ability under CERCLA or as the owner of the 
tunnel and EPA's ability to spend Superfund remedial action 
funds on Operational Unit Six appear to be in dispute.
    Since I introduced my legislation we've had dialog about 
how we might be able to resolve the dispute. It is my view that 
our legislation would end the dispute and sometimes the finger 
pointing that occurs between one agency and the other about who 
has what responsibility for the LMDT. I am hopeful, Mr. 
Chairman, that we will be able to move forward with this 
legislation.
    I have a number of questions that I wanted to ask. But I 
know that I'm already in overtime. So I'll wait for the next 
round.
    Senator Johnson. Does the chairman of the committee have 
follow up questions for this round?
    The Chairman. I do not, Mr. Chairman. I've got questions 
for the second panel, but not for this panel.
    Senator Johnson. Commissioner Johnson and Ms. Bodine, you 
are excused.
    Senator Salazar. Excuse me, Mr. Chairman. I was not done if 
I could have additional questions on the second round.
    Senator Johnson. The second round. You are now invited to 
ask your questions.
    Senator Salazar. Thank you, Chairman Johnson. So let me 
just say, Commissioner Johnson and you are the Honorable Susan 
Bodine. So it's an administrator. I was trying to look up your 
title.
    Here is the reality as I see it with respect to this 
tunnel. The Bureau of Reclamation bought the tunnel because of 
the fact that there were water rights associated with the 
tunnel. It was part of the Bureau of Reclamation's efforts to 
try to enhance its capacity to deal with water rights on the 
Arkansas River. That predated the passage of CERCLA. Once 
CERCLA was passed we had the Bureau of Reclamation that had 
bought this tunnel that had a water right associated with it, 
but there's always been some question in the mind of the Bureau 
of Reclamation as to who has the ultimate CERCLA 
responsibility.
    It would be no question in most cases under CERCLA law that 
the owner of the drainage tunnel would have full 
responsibility. You buy it. You own it.
    The liability under CERCLA comes with it regardless of 
whether you were the one that created the condition for the 
pollution that you're trying to govern under CERCLA. It seems 
to me that's basic CERCLA law. So what we are tying to do in 
our legislation, Commissioner Johnson and Ms. Bodine, is to try 
to make sure that we avoid the ambiguity that we sense has 
existed between the Bureau of Reclamation and EPA. In my mind 
it is clear here that the Bureau of Reclamation, as the owner 
of this tunnel that now contains these billion gallons of toxic 
water, has the responsibility for dealing with the remedy.
    My question to you, Commissioner Johnson and Ms. Bodine, is 
whether or not you see you see the clarity of responsibility in 
the same way that I see it.
    Mr. Johnson. I think I would start by saying that I think 
EPA and Reclamation have been working very closely on this 
issue. We are speaking with one executive branch voice. I would 
say that we are moving forward to implement whatever provisions 
are required to ensure the public safety and to also address 
the issues associated with the Superfund site.
    That's something that we're doing together and we are going 
to sort out the details of that over time. As we need 
legislation, as Reclamation needs legislation, if we need 
legislation we're going to come back to the Congress with the 
request for that. But that will not slow up our activities and 
our actions to make sure that we're dealing with the public 
safety and Superfund site issues.
    Senator Salazar. So it would be correct then, Commissioner 
Johnson to say that with respect to the long term goal of 
stabilizing the tunnel, installing the permanent plug, drilling 
the well, constructing the pipeline, putting the water from the 
pipeline into the Water Treatment Plant and treating that water 
through the Water Treatment Plant, the Bureau of Reclamation is 
in fact committed to taking those actions on. Is that correct?
    Mr. Johnson. I think I said that we were going to move 
forward expeditiously to deal with the issues. EPA is already 
pumping water out of the GAW shaft that's--and in fact EPA has 
actually stepped up and begun implementing a number of actions 
immediately. They're removing water from the GAW shaft. I think 
they're very close to issuing a contract to put the first well 
in.
    Senator Salazar. Ms. Bodine.
    Ms. Bodine. Yes, in terms of putting in the relief well and 
pump and a pipeline to the Reclamation Treatment Plant, yes, we 
are moving ahead with that and expect to have that construction 
work completed this summer. That will then begin to pump water 
out of the drainage tunnel, lowering the water levels.
    So that has to happen, irrespective of if ultimately the 
plug is needed for safety purposes or not. That well has to go 
in. The water levels have to go down. So we're comfortable with 
doing that work which is going to alleviate the pressure and 
has to happen and then looking at the results of Reclamation's 
study on the risks associated with the tunnel.
    We're comfortable with that because that does not 
constitute any delay at all. The relief well will go in. The 
pumping will happen, all that. The water levels have to be 
lowered and all that will take time. So there isn't any delay 
in any action while Reclamation completes its study of the 
risks and then we can look together and see what else has to 
happen to address the safety risks.
    Part of the confusion over this, the project, in Operating 
Unit Six is that our record of decision doesn't mention safety 
or even risk of blowout at all. The remedial action objectives, 
the objectives of the project are to control the migration of 
contamination from surface waste rock piles and to control that 
runoff that had been going to service water and ground water. 
The purpose of the plug in the record of decision is just----
    Senator Salazar. If I may just interrupt you. The reality 
of it is that the Bureau of Reclamation here bought the Bureau 
of Mines bought this tunnel.
    Ms. Bodine. Yes.
    Senator Salazar. They bought it during a time of national 
need. The Bureau of Reclamation came in and stepped into the 
position of the Bureau of Mines later on because of the 
interest of the Bureau of Reclamation in the water rights 
associated with the Leadville Mine Drainage Tunnel. They did 
not at the time recognize that they were also stepping into, 
potentially, what was a huge liability with respect to CERCLA.
    Indeed, I think, as has happened since then, the Bureau of 
Reclamation found out that we weren't really dealing with two 
distinct water sources. The water within the tunnel is 
considered to be tributary to the Arkansas River. So in effect 
the Bureau of Reclamation ended up with the water right that 
really had no value in it whatsoever.
    But we are dealing now with an issue of billion gallons of 
toxic water behind this tunnel and trying to figure out how we 
can move forward together with one voice as a Federal executive 
government, EPA and Bureau of Reclamation to make sure that we 
have the right remedy to fix the problems at the tunnel. There 
is in fact, you may not want to admit it on the record, but 
there is in fact a major problem in terms of how the Bureau of 
Reclamation and EPA have historically tried to figure out the 
responsibility with respect to this drainage tunnel. It hasn't 
been until very recently when we've had the major outcry and 
the media focus that has been placed on the Leadville mine 
drainage tunnel that we've seen the kind of working 
relationship.
    I will not go through the entire timeline that we've--that 
I'm sure you know as well as I do. But the final record of 
decision from EPA that dealt with Operational Unit Six was 
published in September 2003. That's 5 years ago. In November, 
many meetings since then.
    October 2007, the U.S. Bureau of Reclamation, Commissioner 
Johnson, this is October 2007. That wasn't that long ago, a few 
months ago. A few months ago the Bureau of Reclamation says the 
U.S. Bureau of Reclamation says it doesn't have the authority 
to treat the water pump from the mine tunnel.
    November 2007, a month later, the EPA Regional 
Administrator, ok, writes to the Bureau of Reclamation 
expressing concern ``of a potentially catastrophic release of 
water from the tunnel.'' That's November 2007. In January 2008, 
the Bureau of Reclamation Regional Director writes back asking 
for the rationale behind EPA's concern about a catastrophic 
release.'' These are all recent. I could keep going. There's 
lots of other examples I could use.
    But part of the problem, Ms. Bodine and Commissioner 
Johnson, that we have here is that we don't have a legal 
framework that creates the delineation of responsibility that 
then allows the two agencies essentially to speak with one 
voice as you deal with both the media and the long term 
problem. I mean, we're dealing with an issue here that's going 
to be a multi-decade issue that's going to involve 
responsibilities that are immediate now. You're taking those 
actions as you drill the relief well, when you construct the 
pipeline and you expand the usage of the Water Treatment Plant 
to its capacity and all those actions that you're taking place 
now.
    But if you look at it 5 years from now, 10 years from now, 
where's that responsibility going to be for water treatment. It 
seems to me that the legislation that we crafted would give you 
that legal framework. I would hope, Commissioner Johnson, that 
you might take another look at that legislation along with EPA 
to see whether we can get President Bush as the President of 
our country and this Administration to take another look at 
this legislation and hopefully come on board and support it.
    Mr. Chairman, I have a number of other questions, but I 
don't want to keep us here too long. So what I will do is I 
will submit my other questions for the record.
    I appreciate your indulgence in giving me this additional 
time.
    Senator Johnson. Commissioner Johnson and Ms. Bodine, you 
are excused.
    Mr. Johnson. Thank you.
    Senator Johnson. Since there are no more questions. Let's 
have our second set of witnesses take a seat. On the second 
panel we have Mayor Orlando Ortega of Portales, New Mexico. 
Governor Michael Chavarria of Santa Clara Pueblo, representing 
the Eight Northern Indian Pueblos Council in New Mexico. Three, 
Martha Rudolph with the Colorado Department of Public Health 
and Environment and Milt Davies, with the Fallbrook Public 
Utilities District in California. Welcome to each of you.
    Mayor Ortega, please start by summarizing your testimony. 
We'll then proceed with our other witnesses. After all of you 
have completed your statements we'll proceed with questions 
from members of the subcommittee.
    Mayor Ortega.

  STATEMENT OF ORLANDO ORTEGA, EASTERN NEW MEXICO RURAL WATER 
                    AUTHORITY, PORTALES, NM

    Mr. Ortega. Chairman Johnson, Senator Bingaman, Senator 
Domenici and members of the committee, my name is Orlando 
Ortega and I am the Mayor of Portales, New Mexico. I serve as 
the Vice Chairman of the Eastern New Mexico Rural Water 
Authority. I will be presenting the testimony on behalf of the 
authority with regard to Senate bill 2814. A bill to authorize 
the Bureau of Reclamation to assist in the construction of the 
Eastern New Mexico Rural Water System, commonly referred to as 
the Ute Water Pipeline Project.
    Joining me today is the newly elected Mayor of the city of 
Clovis, New Mexico, Mayor Gayla Brumfield, behind me. The city 
of Clovis is the largest population among the cities in the 
authority and serves as the fiscal agent for the project. The 
authority was created in 2001 for the purposes of building and 
operating the Ute Water Pipeline Project to serve the 
communities of Clovis, Portales, Melrose, Texico, Grady, Elida 
and throughout Curry and Roosevelt Counties in Eastern New 
Mexico.
    I would like to express our deep appreciation to Senators 
Bingaman and Senator Domenici for sponsoring Senate bill 2814 
and championing efforts to establish a sustainable supply of 
water to preserve the socioeconomic future of Eastern New 
Mexico. A sustainable supply of water is critical to the future 
of our region which supports a number of industries including 
dairy, large scale food production and processing, ethanol 
refining, a critical military presence at Cannon Air Force Base 
and colleges and universities among others. Providing a 
sustainable water supply for Eastern New Mexico is our most 
significant challenge. Our communities rely solely on water 
reserves located in the Ogallala Aquifer.
    Over the last 40 years numerous studies have clearly 
demonstrated that this aquifer is being depleted and that the 
Ute Water Pipeline Project is the most efficient, cost 
effective and dependable solution for these water challenges. 
Anticipating the potential water needs in Eastern New Mexico 
and in the interest of maximizing New Mexico's use of water 
from the Canadian River Stream System, the New Mexico 
Interstate Stream Commission completed construction of the Ute 
Dam and Reservoir in 1962 at a present day cost of over $140 
million. Significant progress has been made on this project.
    Working together the New Mexico legislature and Governor 
Bill Richardson have invested millions of dollars in the Water 
Trust Fund which seeks to provide funding for water projects 
across New Mexico. Since 2002 the State of New Mexico has 
provided direct funding to the Eastern New Mexico Rural Water 
System Project in excess of $12 million which includes $4.5 
million that was appropriated by the New Mexico Water Trust 
Board just yesterday indicating continued strong support by the 
New Mexico State Legislature and Governor.
    If the authority is prepared to undertake the local 
financing operations and maintenance of the proposed project 
over the years the individual communities have contributed 
financial resources and in kind resources to the project. 
Clovis, Portales, Texico and Melrose have increased water and 
waste water rates in order to generate new revenue for the 
project. The city of Clovis has enacted a gross receipts tax 
increment and has dedicated revenue to the project. These 
actions are solid evidence of a high level of commitment from 
the local governments to provide a portion of the non-Federal 
funding of the project.
    We have been studying the efficacy of the Ute Water 
Pipeline Project for a number of years. With over 30 volumes of 
technical memoranda on the project that examines ground water 
conditions, population growth and water demand, conservation 
and re-use, existing water systems, evaluation of alternatives, 
environmental issues, Ute Reservoir operations, water treatment 
needs, power service and wind power potential, cost estimating 
in hydraulic optimization. In short, our plans for the Ute 
Water Pipeline Project have been very thorough and 
comprehensive.
    Just last year the United States Bureau of Reclamation 
commented in a letter to the authority that the project is the 
least costly and most sustainable way to meet long term water 
needs in the area. They also agreed with our design consultants 
preliminary design level of completeness, cost estimates and 
that no special environmental issues have been identified. 
Momentum to build this project is very high. We are extremely 
hopeful that this legislation will become law this year in what 
will be the final chapter of a most outstanding and 
distinguished career of our senior Senator, Pete Domenici.
    We are at a critical point in the development of the 
project and appear before you today to urge Congress to 
expeditiously pass Senate bill 2814, which would authorize the 
financing, planning, design and construction of the Ute 
Pipeline Project. We cannot emphasize strongly enough how 
important this project is for our member entities and for the 
citizens and businesses of Eastern New Mexico.
    Thank you again for the opportunity to present our request 
at this important hearing.
    [The prepared statement of Mr. Ortega follows:]
 Prepared Statement of Orlando Ortega, Eastern New Mexico Rural Water 
                        Authority, Portales, NM
                                s. 2814
    Eight cities and counties on the eastern side of New Mexico make up 
the Eastern NM Rural Water Authority (ENMRWA), including: Clovis, Curry 
County, Elida, Grady, Melrose, Portales, Roosevelt County and Texico.
    Presently, municipal and commercial water supply to the region is 
provided entirely by groundwater from the Ogallala formation of the 
High Plains Aquifer.
    Groundwater levels in the region are declining at an average rate 
of between 2.6 and 4 ft/yr and water well production is dropping at an 
alarming rate. For example, in the Clovis area, hard evidence supports 
that in 2008 it takes 53 wells to provide 9500 gallons per minute of 
production compared to 28 wells providing 10,500 gallons per minute in 
2000.
    ENMRWA members are saddled with ongoing expensive and unsustainable 
development of existing groundwater resources while actively pursuing 
conservation and wastewater reuse projects. The member communities have 
collectively incurred costs of approximately $22 million since 2005 in 
purchasing groundwater water rights, converting existing wells and 
completing new wells.
    The Eastern New Mexico Water Supply Project, Feasibility Report, 
May 1972 (rev. August by the Bureau of Reclamation stated:

  <bullet> ``There is a definite need for the Eastern New Mexico Water 
        Supply Project. . .''
  <bullet> ``Although the investigations presented herein are in 
        sufficient detail to establish engineering feasibility and 
        economic justification of the project, additional 
        investigations will be required prior to construction to insure 
        that the final plan provides the most economical and desirable 
        project in the interest of the state, the public, and the water 
        users.''
  <bullet> ``It is recommended that: 1. The Eastern New Mexico Water 
        Supply Project be authorized to be constructed. . .''
  <bullet> The project envisioned at the time the 1972 Feasibility 
        Report was prepared was larger and more complex in size and 
        scope than that currently proposed.

    The NE New Mexico Regional Water Plan (June 2006) specifically 
identifies the ENMRWS as a priority strategy for long term sustainable 
water supply to the region.
    There is no viable or more cost effective alternative to a Ute 
pipeline project. Other than the surface water from Ute Reservoir 
available to New Mexico through the Canadian River Compact, there is 
not a sustainable water supply available to the citizens of eastern New 
Mexico.
    A brackish water supply project using aquifers located below the 
Ogallala is not viable economically nor is it sustainable. The only 
potential alternative for making the fresh groundwater supply 
sustainable is rapid, large-scale buyout and retirement of irrigated 
agriculture at massive cost and an undesirable (some say catastrophic) 
socio-economic impact.
    A sustainable supply of municipal and industrial water is critical 
to the socio-economic future of eastern New Mexico and is in the 
national interest. The area supports large scale food production 
(peanuts, cheese, milk and milk products), an expanding ethanol 
industry, a regional education complex (Eastern NM University), 
extensive railway commerce, a critical military presence at Cannon AFB, 
and regional large scale wind power development.
    The City of Clovis' Comprehensive Plan (2007) identifies the 
development of a long-term sustainable water supply for the region as 
its #1 Infrastructure Goal, with five main components:

  <bullet> Implement the ENMRWS as quickly as possible.
  <bullet> Protect the quality of existing water supplies in Ute 
        Reservoir and the Ogallala aquifer.
  <bullet> Implement an effective water conservation program.
  <bullet> Implement an effective wastewater reuse program.
  <bullet> Continue to identify, evaluate and plan for new long-range 
        water sources.

    Stringent conservation and reuse programs, coupled with retirement 
of much agricultural pumping could prolong the present groundwater 
supply in the Ogallala, but probably for only a decade or two based on 
simulations made with several groundwater models.
    Failure to use the supply of New Mexico water available in Ute 
Reservoir for municipal and industrial purposes could lead to it being 
lost to NM users under provisions of the Canadian River Compact.
    A large body of work has been completed over the past two years by 
the ENMRWA consultant team in close coordination with Reclamation, the 
NM Environment Department, the Office of the State Engineer, the NM 
Interstate Stream Commission and member communities. Engineering work 
completed, in progress, or programmed for the near term includes:

  <bullet> Executive Summary
  <bullet> Planning Memoranda

    --ENMRWA Member Existing Water System Facilities
    --Fresh and Brackish Groundwater Resource Assessment
    --Conservation and Reuse Assessment
    --Member Needs for Project
    --Conceptual Cost Estimating Guide
    --Dynamic Simulation Hydraulic Modeling
    --Treatability Testing and Water Treatment Plant Alternatives 
            Evaluation
    --Alternatives Evaluation Summary
    --Alternative Pipeline Route Analysis
    --Wind Energy Feasibility Study
    --Environmental Issues
    --Benefit Cost Comparison
    --Reservoir Operations
    --Financial Analysis

  <bullet> Best Technical Alternative (BTA) Preliminary Engineering 
        (10%) Technical Memoranda

    --Raw and Finished Water Pipelines Process/Mechanical
    --Raw and Finished Water Pump Stations Process/Mechanical
    --Water Treatment Plant Process/Mechanical
    --Structural Preliminary Engineering
    --Architectural
    --Civil/Site Preliminary Engineering
    --Building Mechanical/Plumbing
    --Electrical Preliminary Engineering
    --Instrumentation and Controls
    --Corrosion Protection
    --Cost Opinion

  <bullet> Best Technical Alternative Preliminary Engineering Drawings 
        (10% design)
  <bullet> Surveying and Mapping

    --Survey Control Map
    --Land Ownership Maps
    --Utility Mapping
    --Geophysical Test Sites Map
    --Survey Report
    --Topographic, planimetric and digital orthophoto mapping

  <bullet> Geohazard and Geotechnical

    --Geologic Hazards Report
    --Schematic Level Geotechnical Investigation Report

  <bullet> Schematic Level Design (30%)

    --Pipeline Design Criteria Technical Memorandum (TM)
    --Pipeline Hydraulics TM
    --Draft and Final Pipeline Alignment Selection TM
    --Pipelines Plan and Profile Schematic Design
    --Pressure Control, Metering, and Member Interconnections
    --Updated Cost Opinion
    --Pipeline Standard Details
    --Pipeline Master Specifications
    --Pump Stations
    --Water Treatment Plant

      <bullet> Process Schematic Design TM's
      <bullet> Engineering Disciplines Schematic Design TM's
      <bullet> Cost Opinion

  <bullet> SCADA System

    Environmental Assessment (EA) activities began in mid-2007, with 
approval of a scope of work for the NEPA consultant. Scoping, the first 
step in the NEPA process, was initiated in September 2007. Three public 
meetings were held in Logan, Clovis and Portales from September 18 
through 20, 2007. The public provided feedback on the project and asked 
questions about the process. Meetings were held with area experts in 
hydrology, cultural resources, and socioeconomic resources to elicit 
information. Agency meetings have been ongoing since September 2007. A 
meeting was held in Santa Fe with State Historic Preservation Officer 
(SHPO) representatives to commence early communication about the 
project. Coordination with New Mexico Department of Transportation, 
U.S. Fish and Wildlife Service, U.S. Army Corps of Engineers, and other 
agencies is ongoing. Reclamation is preparing to initiate contracts 
necessary to complete U.S. Fish and Wildlife Service Coordination Act 
requirements. A report summarizing scoping activities is now available 
on the project website.
    Three ``methods of analysis'' technical memos for hydrology, 
cultural resources, and socioeconomics have been prepared and approved 
by Reclamation. Work is continuing on the first two chapters of the EA; 
Purpose and Need (Chapter 1) and Alternatives (Chapter 2). Compilation 
of current and project water supply, demand, conservation, and 
background information, as well as a summary of required project 
permits, is included in Chapter 1. A meeting among Reclamation, NMISC, 
and ENMRWA to discuss the alternatives and options available to meet 
the purpose and need for the project is scheduled for April 28. In 
addition, information collection for resource studies is underway. 
Detailed field studies will commence in the spring, following 
finalization of the pipeline alignment. At this time, a public review 
for the EA is anticipated by September 2008, and an EA/FONSI is 
anticipated by February 2009.
    The consultant team has proposed and members of the ENMRWA have 
adopted a conceptual Finance Plan for the project utilizing federal, 
state and local funding. Federal funding (75%) is assumed over a 10 
year period with State contributions (15%) over six years. Local cash 
contributions (10%) will begin in FY 2009 at approximately $1,000,000 
per year with debt issuance in FY 2015 and FY 2017. Water rates will be 
phased in and adjusted up to the initial water rate that will be 
sufficient to pay all operation, maintenance, renewal and replacement, 
and debt service costs of the system. The ENMRWA will need to issue 
bonds in order to provide the local portion of the non-Federal match. 
These bonds will be issued by the ENMRWA and are expected to be fixed 
rate utility revenue bonds payable from the net revenue of the water 
supply system. The bonds will be issued in two installments to be 
amortized over 25 years at an estimated interest rate of 5.25%. The 
draft finance plan proposes an initial pre-construction (FY 2009) 
wholesale water rate of $0.19 per 1000 gallons of water reserved on the 
system. This will be followed by a construction period wholesale water 
rate of $0.28 per 1000 gallons reserved. An initial fully adjusted 
water rate of $2.05 per 1000 gallons is proposed with the system in 
operation.
    Most of the ENMRWA members have enacted one or more programs to 
begin to generate capital for the local cost share of the project such 
as water rate increases and gross receipts increments.
    The resources for the efforts described above have been provided by 
NM's Congressional Delegation, the State of New Mexico through the 
Water Trust Board, and ENMRWA member agencies. At the end of the day, 
all of the recent study efforts and those going back over the past 44 
years conclude that the Ute Pipeline project is the solution.
    The layout and capacity of the presently proposed BTA water supply 
project has been optimized in the latest engineering work by design 
consultants to be the most hydraulically efficient, cost effective 
project possible. The latest engineering work validates the work of at 
least three previous studies done by various agencies and consultants--
each of which recommended a project with a configuration and route 
similar to that now proposed.
    The current cost estimate is $436 million (2006$) and the project 
is expected to incur an $8 to 9 million annual operation and 
maintenance (O&M) cost. O&M will be entirely borne by the users and 
these costs are included in the projected wholesale water rates.
    To date, the State of New Mexico has provided significant 
investment in the project having authorized or appropriated 
approximately $11 million to advance the planning and design of the 
project and to prepare associated environmental investigations and 
documentation (NEPA). This does not include the major investment the 
State made in the 1950's and 1960's (approximately $140 million in 
2008$) to construct Ute Dam creating the water supply storage 
reservoir. Out of hundreds of projects submitting applications for 
funding through the NM Water Trust Board since its inception, the 
ENMRWS has consistently ranked in the very top tier of projects.
    The recent steep escalation in construction costs indicates that 
postponing the project may lead to greatly increased costs--escalation 
of construction costs is outpacing general economic inflation by 2-3% 
per year.
    Unlike many other water projects in New Mexico and the southwest, 
the proposed ENMRWS project has no known or anticipated significant 
environmental issues, no associated Native American settlement, and no 
water rights disputes. The water in Ute Reservoir is owned by the State 
and administered by the NM Interstate Stream Commission (ISC). The ISC 
and the members of the Ute Reservoir Water Commission, which includes 
the eight ENMRWA members, have a relatively straightforward water 
purchase agreement in effect.
    On behalf of the eight member entities of the ENMRWA and our 
citizens and businesses we sincerely appreciate your consideration of 
this critical project and for holding this hearing. Collectively, we 
have made major investments in this project in time, energy, resources 
and funds with the full recognition that the cost and consequences of 
inaction will be much greater down the road without it.

    Senator Johnson. Mr. Chavarria.

  STATEMENT OF HON. JOSEPH MICHAEL CHAVARRIA, GOVERNOR, SANTA 
CLARA PUEBLO, CHAIRMAN, EIGHT NORTHERN INDIAN PUEBLOS COUNCIL, 
                          ESPANOLA, NM

    Mr. Chavarria. Un Bi Agin Di, Un Sengi Thee', with due and 
proper respect and good afternoon. Greetings to all of you, in 
my Tewa language. Good afternoon, Chairman Johnson, Ranking 
member Corker and members of the committee. Out of respect I 
come before you to testify in support of Senate bill 2805 
titled Rio Grande Pueblos Irrigation Infrastructure Improvement 
Act.
    My name is Joseph Michael Chavarria. I am the Governor of 
Santa Clara Pueblo in the great State of New Mexico. We are 
located 25 miles northwest of the city of Santa Fe.
    I also serve as Chairman of the Eight Northern Indian 
Pueblos Council and also represent 1/19th of the all new 
Pueblos Council in New Mexico. Before I proceed, Chairman, may 
I say a few words in my Tewa language?
    [Prayer in Tewa language]
    In my prayer I have asked the Creator to look down upon us 
today to give us the strength and courage and wisdom that are 
needed to give each and every one of us the insight to examine 
how Senate bill 2805 will positively impact the Pueblos located 
along the Rio Grande River from Taos to Silva.
    Thank you for scheduling this hearing pertaining today to 
learn more about the critical irrigation infrastructure needs 
of the Indian Pueblos in New Mexico. I also want to thank our 
Senator, Jeff Bingaman, who of course, serves as Chairman of 
the Energy and Natural Resources Committee for introducing this 
important bill and to commend Senator Domenici and the rest of 
our delegation in New Mexico for the great support they have 
shown to the Pueblos over the years.
    As Chairman of the All Indian Pueblos Council the Honorable 
Joe A. Garcia wanted to be here today to testify in support of 
this bill for the All Indian Pueblos Council. However he was 
unable to do so. He asked me to convey his best wishes and 
concerns of the Pueblos for him. In my capacity as Chairman of 
the Eight Northern Indian Pueblos Council I will try to speak 
generally for all the Pueblos that could benefit from the 
enactment of this legislation. I hope I do justice for both the 
Northern and Southern Pueblos in New Mexico.
    This bill is vitally important to the health, welfare and 
cultural survival of the Pueblos in the Rio Grande River 
Drainage Basin. Since time immemorial all of the Pueblos 
located along the Rio Grande River and its tributaries have 
utilized irrigation structures to irrigate the many thousands 
of agricultural acres located within aboriginal and current 
land holdings. Agriculture has played a significant role by 
providing the sustenance needed to survive and continue to be 
an important part of our traditional and cultural activities 
within our communities.
    The cultural activities of the Pueblos are linked to the 
water and to the growing of certain crops that we use in our 
practices throughout the year. Today because of the importance 
of our traditional way of life, the Pueblo communities continue 
to farm our land even though our irrigation systems have fallen 
into disrepair due to age, deterioration and lack of adequate 
fundings to ensure proper maintenance. But the many funding 
cuts experienced within the Department of the Interior through 
the Bureau of Indian Affairs the Pueblos have struggled to 
maintain our current irrigation infrastructure.
    At least since 1995 which is when Santa Clara Pueblo 
started consistently tracking the BIA line item with very few 
exceptions for a few pre-existing contractual obligations or 
mandates, zero dollars have been appropriated to the BIA 
irrigation program. To assist the Pueblos in maintaining our 
irrigation structures and extremely limited dollars have been 
allocated to New Mexico from BIA for irrigation engineering 
work. Currently many of the Pueblos have to utilize funds from 
other agencies or in other ways in order to address emergency 
repairs on the many hundreds of miles of degraded irrigation 
systems. This has resulted in a band aid approach at the best.
    This legislation introduced by Senator Bingaman will 
greatly benefit the Pueblos along the Rio Grande River. It will 
direct the Secretary of the Interior through the Bureau of 
Reclamation to assist Pueblo irrigation infrastructures within 
a set timeframe. Then authorizes the provisions of grants or 
cooperative agreements to the Pueblos to repair, rehabilitate 
or reconstruct existing, deteriorating irrigation 
infrastructure. Participation by any of the affected Pueblos is 
optional.
    For those Pueblos that want to participate this legislation 
provides a means for the Bureau of Reclamation to work with the 
Pueblos to look comprehensively at the problems, establish 
priorities for the actual projects within a set time line and 
provide the necessary authorization of funding so that 
appropriations can be sought to finally get the job done. The 
bill also provides a mechanism to allow for partnering with 
other Federal and State agencies to maximize limited dollars. 
While there is a cost share element to the bill, which is 
unfortunate, given the Department of the Interior's trust 
responsibility I am pleased to see that the in kind 
contributions of the Pueblos can be recognized as cost share. 
There is an ability to waive that cost share requirement if any 
of the Pueblos have financial hardship.
    I have also submitted for the record a written testimony 
which includes additional and more detailed information 
regarding the need for this legislation, a document in the form 
of a resolution from the All Indian Pueblos Council asking for 
this legislation back in 2000. Also a survey of all the Pueblos 
conducted in 2000 identify the damaged irrigation systems and 
outlining infrastructure problems the Pueblos have experienced 
through the severe funding cuts to the BIA. Postponing 
resolution of this irrigation infrastructure problems will only 
result in additional deterioration which will only increase the 
cost of rehabilitation at a later date.
    Thank you, Senator Bingaman, who has been a champion of 
many Native American issues, for introducing this bill. 
Chairman Johnson and members of the committee, it is an honor 
to testify before you on this very important legislation which 
will benefit the Pueblos located along the Rio Grande River in 
New Mexico. We ask for your support.
    Ku' Da' Wo' Haa'. Thank you very much. I now stand for any 
questions the Chairman or the members may have at this time. 
Thank you.
    [The prepared statement of Mr. Chavarria follows:]
 Prepared Statement of Hon. Joseph Michael Chavarria, Governor, Santa 
    Clara Pueblo, Chairman, Eight Northern Indian Pueblos Council, 
                              Espanola, NM
                                s. 2805
    Un Bi Agin Di, Un Sengi Thee': With due and proper respect and good 
afternoon. Greetings to all of you in my Tewa language.
    Chairman Johnson, Ranking Member Corker, and distinguished members 
of the Senate Committee on Energy and Natural Resources Subcommittee on 
Water and Power, I am pleased to testify in support of S. 2805, the Rio 
Grande Pueblos Irrigation Infrastructure Improvement Act.
    I would first like to thank Chairman Johnson for scheduling this 
hearing and thank the members of the Committee for attending today to 
learn more about the critical irrigation infrastructure needs of the 
Indian Pueblos in New Mexico. I also want to thank our Senator, Jeff 
Bingaman, who is, of course, the Chairman of the Energy and Natural 
Resources Committee, for introducing this important bill and to commend 
Senator Domenici and the rest of our delegation in New Mexico for the 
great support they have shown for the Pueblos over the years.
    The Honorable Joe A. Garcia, who serves not only as the President 
of the National Congress of American Indians but is also the Chairman 
of the All Indian Pueblo Council in New Mexico, wanted to testify about 
the importance of this bill to all of the Pueblos in the Rio Grande 
drainage basin but he was unable to do so today. He asked me to convey 
his best wishes and the concerns of the Pueblos for him.
    My name is Joseph Michael Chavarria. I am Governor of Santa Clara 
Pueblo. We are located approximately 25 miles to the northwest of the 
City of Santa Fe in the Land of Enchantment in the Great State of New 
Mexico. My people are blessed to live along the mainstem of the Rio 
Grande. Santa Clara Pueblo also receives its water from two tributaries 
that feed into the Rio Grande, the Santa Clara Creek and the Santa Cruz 
River. As Governor of Santa Clara, I represent 1/19th of the All Indian 
Pueblo Council in New Mexico. However, I am here today in my capacity 
as the Chairman of the Eight Northern Indian Pueblos Council. In 1961, 
the Eight Northern Indian Pueblos Council was established as a 
collaborative effort of the Pueblos of Ohkay Owingeh, Nambe, Picuris, 
Pojoaque, San Ildefonso, Santa Clara, Taos, and Tesuque. Since then, 
the Council's monthly meetings have become an ongoing forum where 
Pueblo leaders from the Northern Pueblos discuss common issues.
    In my capacity as the Chairman for the Eight Northern Indian 
Pueblos Council, I will try to speak generally for all the Pueblos that 
can benefit from enactment of this legislation and I hope I do justice 
for both the Northern Pueblos and the Southern Pueblos. I must note 
there are some distinctive twists on the irrigation infrastructure 
issues for those six Southern Pueblos, Cochiti, Santo Domingo, San 
Felipe, Santa Ana, Sandia, and Isleta, that are part of the Middle Rio 
Grande Conservancy District and have to interact with the Conservancy 
District, which the legislation recognizes. However, the basic need for 
rehabilitation of our existing deteriorating irrigation infrastructure 
is similar for all of the Pueblos, from Taos Pueblo all the way south 
to Isleta Pueblo, and it is that issue I will address today. If I use 
examples from Santa Clara Pueblo to illustrate the problem, it is 
simply because I am the most familiar with my home, but similar 
problems exist throughout all of the Pueblos. This bill is vitally 
important to the health, welfare, and cultural survival of the Pueblos 
in the Rio Grande drainage basin.
    There are actually nineteen Indian Pueblos in New Mexico, but there 
are eighteen Pueblos which farm in the Rio Grande drainage basin and 
are therefore included in this bill. The drainage basin includes the 
Rio Grande and all of the tributaries that feed into the Rio Grande. 
Since time immemorial, all of the so-called Rio Grande Pueblos have 
utilized irrigation structures to irrigate the many thousands of 
agricultural acres within our aboriginal and current landholdings. Our 
ancestors at Santa Clara Pueblo first used farming techniques that 
others refer to as dry-land farming when our ancestors lived in the 
mesa tops before they moved closer to the rivers (in the 1300s, long 
before the Europeans arrived) but we have always had to grow certain 
crops that are necessary for our religious practices. The culture and 
traditional way of life of all of the Pueblos is linked to the water 
and to the growing of certain crops to share within our community and 
that we use in various practices throughout the year. Agriculture has 
played a significant role by providing the sustenance needed to survive 
and continues to be an integral component of our traditional and 
cultural activities within our communities. Today, because of the 
importance of our traditional way of life, the Pueblo communities 
continue to farm our lands even though our irrigation systems have 
fallen into disrepair due to age, deterioration, and lack of adequate 
funds to ensure proper maintenance. We know there are over 900 miles of 
ditches belonging to the 18 Rio Grande Pueblos.
    The level of disrepair is shocking. At Santa Clara Pueblo, we have 
a pull gate to divert water off of our main irrigation conveyance 
system that is so deteriorated that we have to cover up the gate 
opening with sand bags so that the water is not wasted. It is not rare 
to find diversion structures and conveyance ditches that are unsafe or 
barely operable on all of the Pueblos. Some of the Pueblos have 
diversion structures made only of rock and brush or bermed-up materials 
that wash out during thunderstorms every single year. Those of us with 
concrete ditches are not in better shape, however. At many of the 
Pueblos, our concrete ditches are so deteriorated and structurally 
deficient that they no longer divert water efficiently or dependably. 
In fact, at Santa Clara Pueblo and for many of the Pueblos along the 
mainstem Rio Grande, the turnouts that we have to divert water onto our 
fields are now far above the actual water flow because of the way the 
river has incised over the years. Because of the poor state of our 
systems, we and other Pueblos often find that our fields that we've 
used for many generations now end up being either too high or too low 
so that some historic fields are too easily flooded and others cannot 
get water at all.
    This is very upsetting to the Pueblos on many fronts. At many 
Pueblos, we simply cannot get the water conveyed onto those historic 
fields reliably or efficiently anymore because of the sad state of our 
irrigation system, not because we don't need or want to use those 
fields. It is also upsetting to us when it takes too much water to get 
the job done. Water supplies are very limited in New Mexico. What is a 
``creek'' here in Washington D.C. would be a mighty river in New 
Mexico. Pueblo people understand the importance of water conservation. 
You will not see lush green lawns at the homes of Pueblo people. Water 
is precious to the Pueblos and, culturally, as native people, we hold 
water to the highest degree of reverence. It is holy to us.
    The poor condition of the Pueblo irrigation facilities is not the 
result of lack of care or interest on the part of the Pueblo users. 
Pueblo people have traditional cleaning of their ditches every year. 
This is a very important activity for the Pueblos. The deterioration of 
our infrastructure has resulted from a lack of adequate funding through 
the Bureau of Indian Affairs to ensure adequate irrigation operation 
and maintenance.
    The Pueblos actually brought this up as a key issue with Secretary 
Bruce Babbitt during a national consultation with tribes regarding 
Indian water rights in the late 1990s. In 1998, Secretary Babbitt 
directed that an assessment be made of the status of those irrigation 
water systems along the Rio Grande and its tributaries that are used by 
eighteen of the Indian Pueblos in New Mexico. That assessment was 
completed by the Commissioner of Reclamation and the Assistant 
Secretary for Indian Affairs in 2000 and confirms the problems I've 
described here.
    Has BIA funding improved since that study was issued in 2000? No, 
it has actually gotten worse. Except for situations involving pre-
existing contractual obligations or existing Congressional mandates, 
there has been no Bureau of Indian Affairs dollars for irrigation 
operation and maintenance at all since 2000. Occasionally, BIA could 
reprogram a few dollars here and there but it has been done in a 
shoestring approach, unreliable and unknown from year to year, which 
does not allow for any real planning or methodical rehabilitation work. 
The Pueblos have done what we could with Tribal funds to deal with 
emergencies and to search out limited funds from other agencies but 
that has resulted in a band-aid approach at best.
    Again, I can offer an example from Santa Clara Pueblo to illustrate 
the point. Our Pueblo is one of the few self-governance compacting 
Tribes in New Mexico and we remain one of the few self-governance 
Tribes in the nation. Self-governance means we assume responsibility 
for carrying out various programs instead of the BIA, such as 
irrigation, but based only upon our share of BIA funding allocated to 
assist the Tribes in our area. As a self-governance compacting Tribe, 
Santa Clara Pueblo does not have access to more resources than do other 
Tribes or Pueblos; we only take responsibility for our share of the 
funding that is appropriated to the BIA. Thus, we have actually 
searched the BIA budget for funding for our irrigation system for a 
long time, but our search has largely produced no results.
    In fact, BIA funding for irrigation systems has always been minimal 
and is only getting worse over time. The Irrigation Maintenance line 
item in the BIA budget for our region and our agency has been zero 
dollars ($0) every year since we first looked at this budget item in 
1995 and remains zero dollars continuing through today. So, in an 
attempt to do emergency repairs for our irrigation system, Santa Clara 
Pueblo has taken responsibility since 2002 for our share of the BIA's 
Irrigation Engineering/Supervision program line item. However, that 
irrigation line item is also dwindling over time. 2002 marked our high 
point when we received approximately $9,600 of year-end money. After 
that, for four years, from 2003 to 2006, we received approximately 
$8,000 per year through our self-governance compacting process but then 
the funds fell to an all-time low of just $547 in 2007. In 2008, BIA 
operation and maintenance funding for irrigation was again zero dollars 
so our portion was zero also, and our portion of the BIA's Irrigation/
Engineering program line item rose to the paltry sum of $858. There are 
45 miles of ditches within Santa Clara Pueblo. Think about that: $858 
to address long-standing rehabilitation needs for 45 miles of ditches 
within my Pueblo. We have done what we can to reallocate funding within 
our compact process to allow for emergency repairs and maintenance of 
our irrigation system but you can imagine just how little we can do 
with the kind of funding that has been available.
    That is why S. 2805 is so important to the Rio Grande Pueblos. It 
will direct the Secretary of the Interior, through the Bureau of 
Reclamation, to work with the 18 Pueblos to assess Pueblo irrigation 
infrastructure within a set timeline and then authorizes the provision 
of grants or cooperative agreements to the Pueblos to repair, 
rehabilitate, or reconstruct existing deteriorated irrigation 
infrastructure. Participation by any of the affected Pueblos is 
optional. For those Pueblos that want to participate, this legislation 
provides a means for the Bureau of Reclamation to work with the Pueblos 
to look comprehensively at the problems, establish priorities for 
actual projects within a set timeline, and provide the necessary 
authorization of funding (a total of $10 million dollars, with part 
allocated to the study and the rest allocated to actual projects) so 
that appropriations can be sought to finally get the job done. It also 
provides mechanisms to allow for partnering with other federal or state 
agencies to maximize limited dollars. While there is a cost-share 
element to the bill, which is unfortunate given the Department of 
Interior's trust responsibility, I am pleased to see that in-kind 
services of the Pueblos can be recognized as cost-share and there is an 
ability to waive the cost-share requirement if any of the Pueblos has 
financial hardship. We hope the assessment portion of this process will 
not take too long since some initial work was already done for the 2000 
report but we are encouraged by the fact that bill specifies timelines 
for completion. This work is long overdue.
    There are many benefits that can be achieved by enacting this bill 
into law, including improved safety, increased water use efficiency and 
agricultural productivity as well as the preservation of the culture 
for the Pueblos and the opportunity for our community to continue an 
important way of life which we have maintained for many generations. 
The Pueblos understand that we have many neighbors now on the river and 
that all have to do their part for better water management. Neglecting 
this problem or postponing the issues for another day will only result 
in further deterioration, increasing the cost of rehabilitation at a 
later date.
    We thank Senator Bingaman for introducing this bill. This is an 
issue that has long been supported by the All Indian Pueblo Council. I 
am including with this testimony a copy of a resolution* of the All 
Indian Pueblo Council from the year 2000 in which the All Indian Pueblo 
Council urged our Congressional delegation to support the authorization 
and funding of a rehabilitation program to repair the irrigation 
systems of the Pueblos of New Mexico. Chairman and members of the 
Committee, it is an honor to testify before you on this important 
legislation which will benefit the Pueblos located along the Rio Grande 
and its tributaries in New Mexico.
---------------------------------------------------------------------------
    * Resolution and document entitled ``Pueblo Irrigation Facilities 
Rehabilitation Report'' have been retained in subcommittee files.
---------------------------------------------------------------------------
    Ku' Da' Wo' Haa': Thank you very much. We ask for your support for 
this important legislation.

    Senator Johnson. Thank you.
    Ms. Rudolph.

    STATEMENT OF MARTHA RUDOLPH, DIRECTOR OF ENVIRONMENTAL 
PROGRAMS, COLORADO DEPARTMENT OF PUBLIC HEALTH AND ENVIRONMENT, 
                           DENVER, CO

    Ms. Rudolph. Thank you, Mr. Chairman and members of the 
subcommittee. My name is Martha Rudolph. I am the Director of 
Environmental Programs for the Colorado Department of Public 
Health and Environment. I would like to thank you today for the 
opportunity to present Colorado's views on S. 2680, the 
Leadville Mine Drainage Tunnel Environmental Improvement Act of 
2008.
    I am here today to express Colorado's firm support for this 
bill. This bill provides the clear authority and direction to 
the Secretary of the Interior and through the Bureau of 
Reclamation to take action necessary to reduce the current 
level of the mine pool associated with the Leadville mine 
drainage tunnel. But more importantly to maintain the mine pool 
at a safe water level and to operate and maintain the tunnel in 
a manner to protect the public health and the environment and 
also to participate in the implementation of the California 
Gulch Superfund site selected remedy.
    As you heard before this tunnel was constructed in the late 
1940s and early 1950s as part of the war effort to support 
mining in support of the war effort. The tunnel was used to 
drain water from the mine workings in the Leadville Mining 
District. In 1959, the Bureau of Reclamation acquired ownership 
of this tunnel, hoping to acquire water rights associated with 
the tunnel. With that acquisition, we believe, the Bureau of 
Reclamation also took over the requirements to maintain that 
tunnel
    In 1979, the Bureau of Reclamation began treatment of the 
discharge at the mouth of the tunnel pursuant to requirements 
under the Clean Water Act, largely after a suit was brought by 
the Sierra Club. The tunnel unfortunately has fallen into 
disrepair, largely, we believe, to poor maintenance. Many 
collapses began in the 1960s and have continued through today.
    The most recent collapse has resulted in a significant 
increase in the mine pool that feeds into the tunnel, the 
highest ever seen raising ground water levels to historic 
proportions and resulting in many new seeps and springs in the 
California Gulch area. Because of this elevated mine pool, EPA 
wrote to the Bureau of Reclamation last fall expressing its 
concerns that the tunnel would experience a catastrophic blow 
out.
    The Lake County Commissioners declared a state of emergency 
and Governor Ritter sent letters to both President Bush and 
Secretary Kempthorne urging them to take action to treat the 
water behind the collapse to reduce this mine pool. Action is 
now being taken to reduce this mine pool and we are grateful 
for that. But we are very disappointed that the Administration 
is not supporting this bill because we think it is necessary to 
preserve and to maintain and to enhance this tunnel.
    Colorado also supports the Bureau's participation in the 
remedy for the California Gulch Superfund site. The upper 
reaches of the tunnel are under several waste piles that are 
part of the Superfund site that contaminate surface water 
runoff, particularly in the spring. Both EPA and Colorado have 
identified as the remedy to deal with this contaminated surface 
runoff the pumping of this water into the Leadville mine 
drainage tunnel through a mine shaft and to treat this water at 
the facility owned and operated by the Bureau of Reclamation.
    S. 2680 will accomplish several things that are very 
important to address issues related to the Leadville mine 
drainage tunnel. It will require the Bureau of Reclamation to 
take immediate action to reduce the water level in the mine 
pool associated with this tunnel. But again, more importantly, 
to maintain the water level at a safe level in the future and 
to operate and maintain the tunnel in a manner to protect 
public health and the environment, a responsibility that 
Colorado believes the Bureau of Reclamation already has.
    It will require the Bureau of Reclamation to participate in 
the remedy for the California Gulch OU 6. It will require the 
Bureau of Reclamation to study the tunnel to determine whether 
and how any blockages in the tunnel has or are affecting the 
water quality and the aquatic life in the Arkansas River 
watershed. It will, importantly, provide the necessary funding 
to accomplish these goals.
    We believe this bill addresses an important issue to the 
people of Colorado. Its passage is critical to the long term 
protection of the local residents in Lake County and to the 
long term protection of the Arkansas River ecosystem. Thank you 
for the opportunity to testify today. I would be happy to 
answer any questions you may have.
    [The prepared statement of Ms. Rudolph follows:]
    Prepared Statement of Martha Rudolph, Director of Environmental 
Programs, Colorado Department of Public Health and Environment, Denver, 
                                   CO
    Mr. Chairman and members of the Subcommittee, I would like to thank 
you today for the opportunity to present Colorado's views on S. 2680, 
the Leadville Mine Drainage Tunnel Environmental Improvement Act of 
2008. I am here today to express Colorado's support for this bill. This 
bill provides the clear authority and direction to the Secretary of the 
Interior, through the Bureau of Reclamation to take action necessary to 
reduce the current level of the mine pool associated with the Leadville 
Mine Drainage Tunnel (LMDT), to maintain the mine pool at a safe water 
level, and to participate in the implementation of the California Gulch 
Superfund Site selected remedy. We believe this bill addresses an 
important issue to the people of Colorado, and its passage is critical 
to the long-term protection of local residents in Lake County and to 
the long-term protection of the Arkansas River ecosystem.
    To understand the significance of this bill to the people of 
Colorado, some background information is required. The LMDT is located 
in Lake County, just outside the City of Leadville. Located at an 
elevation of 10,152 feet, Leadville is the highest incorporated city in 
the United States. It is currently home to 3000 people. Leadville's 
history centers around mining. So much so that, during World War II, 
miners in Leadville were given exemptions from the draft in order to 
support the war effort by producing strategic metals.
    To facilitate the mining of these strategic metals, the U.S. Bureau 
of Mines began construction of the LMDT in 1943 to provide continuous 
drainage of the mines in the Leadville Mining District. The LMDT was 
completed in 1952 to a length of approximately 12,000 feet. In 1959 the 
Bureau of Mines declared the LMDT excess real property, and the Bureau 
of Reclamation acquired ownership of the LMDT to augment its potential 
sources of water supply for the Fryingpan-Arkansas project. Following 
the passage of the Clean Water Act in 1972, the EPA issued the first 
National Pollutant Discharge Elimination System (NPDES) permit for the 
LMDT in 1975. After several years of attempting to meet the limitations 
in this permit, the Bureau of Reclamation eventually constructed a 
water treatment plant at the mouth of the LMDT and began to treat the 
drainage in 1979.
    In the early 1980s, another mine drainage tunnel, the Yak Tunnel, 
had what was called a ``surge event'' discharging enough tainted water 
to turn the Arkansas River red for 20 miles. This caught the attention 
of the EPA's Superfund Program, and in 1983 the site was added to the 
National Priorities List. The listed elements of the Superfund site 
were the Yak Tunnel, mine waste piles in California Gulch and its 
tributaries, the waters in California Gulch that empty into the 
Arkansas River, and 11 miles of the Arkansas River directly below the 
confluence with California Gulch. The EPA specifically excluded the 
Leadville Mine Drainage Tunnel from the Superfund site based on the 
Bureau of Reclamation's then existing responsibilities to treat the 
LMDT discharge under the Clean Water Act.
    Some confusion about whether the LMDT is part of the Superfund site 
has arisen because one of the selected remedies for an area overlying 
the LMDT sought the use of the LMDT and would require the Bureau of 
Reclamation to treat contaminated surface water from the Stray Horse 
Gulch area of the Superfund site. The Stray Horse Gulch area of the 
site (called Operable Unit 6) has many mine waste piles contributing 
contaminated surface runoff to California Gulch. The EPA and Colorado 
identified different remedies to handle this surface runoff, and 
ultimately selected the remedy that would collect contaminated water 
from the area and direct it down a mine shaft connected to the LMDT. In 
order to implement this remedy, the Bureau of Reclamation's cooperation 
was needed to treat this contaminated water at its existing plant.
    In an effort to minimize the additional impact on the Bureau of 
Reclamation caused by treating this additional contaminated surface 
water, and for other practical considerations, EPA incorporated the 
following design aspects into the remedy:

  <bullet> Construction of a bulkhead in the LMDT to isolate the 
        contaminated mine water naturally draining into the LMDT from 
        clean alluvial groundwater;
  <bullet> Installation of wells behind the bulkhead and construction 
        of a pipeline to convey the contaminated water to the Bureau of 
        Reclamation's treatment plant;
  <bullet> Backfilling the LMDT's lower portions to prevent clean 
        ground water from entering and flowing to the treatment plant, 
        and to protect against collapse and failure (since the Bureau 
        of Reclamation currently treats water that is significantly 
        diluted by clean groundwater, this would decrease the volume of 
        water to be treated and therefore decrease the Bureau of 
        Reclamation's overall treatment costs); and,
  <bullet> Routing contaminated surface water from the Stray Horse 
        Gulch area during spring runoff into the mine workings 
        connected to the LMDT.

    Ultimately this remedy would treat contaminated mine pool water 
including spring run-off (thereby protecting the Arkansas River), 
reduce the amount of water treated by the Bureau of Reclamation 
(thereby decreasing its operating costs), and provide protection 
against structural failure of the LMDT.
    Unfortunately, despite many attempts by Colorado and EPA to 
convince the Bureau of Reclamation to participate in this proposed 
remedy for Operable Unit 6, the Bureau contends that it lacks the 
statutory authority or mandate to treat this additional contaminated 
surface water from the Stray Horse Gulch area. This long-standing 
position of the Bureau of Reclamation has stymied Colorado's and EPA's 
efforts to implement the selected remedy for Operable Unit 6. S. 2680 
is needed to provide the Bureau of Reclamation with the clear 
authority, mandate and funding to take responsibility for the LMDT, and 
to participate in the selected remedy for Operable Unit 6.
    This Congressional action is more critical now than ever before. 
Since the Bureau of Reclamation assumed ownership of the LMDT in 1959, 
there have been many concerns regarding tunnel safety and potential 
environmental threats. Due to a lack of maintenance, the condition of 
the LMDT has deteriorated over time. There have been many collapses 
within the LMDT beginning in the 1960's. Most recently, the mine pool 
that feeds into the LMDT has increased to a level never before seen, 
resulting in many new seeps and springs in the area, likely due to a 
recent collapse within the LMDT. In November, 2007 the EPA sent a 
letter expressing its concerns regarding the potential for a 
catastrophic blowout of the LMDT to the Bureau of Reclamation, and on 
February 13, 2008 the Lake County Commissioners declared a state of 
emergency. Colorado Governor Bill Ritter sent a letter to President 
Bush asking him to request Secretary Kempthorne to direct the Bureau of 
Reclamation to treat the water accumulating behind the blockage in the 
LMDT at its water treatment plant to help reduce the build up of water 
draining into the LMDT. Governor Ritter made the same request directly 
to Secretary Kempthorne.
    Fortunately, to address the immediate concerns of the high levels 
of the mine pool and the pressure within the LMDT, EPA has begun 
pumping water from the Gaw shaft located near the LMDT, and EPA is 
poised to commence drilling directly into the LMDT to pump water from 
the upper reaches of the LMDT and to transfer the water through a 
pipeline to the Bureau of Reclamation's treatment facility where the 
Bureau has agreed to treat this water before it is discharged into the 
Arkansas. While this action responds to the immediate concerns of a 
LMDT blowout, it will not address the long-term need for LMDT 
maintenance and a commitment to reduce the mine pool and to treat 
contaminated mine and surface water discharging from the LMDT in 
perpetuity. S. 2680 would provide the Bureau of Reclamation with the 
necessary funding and the requisite statutory authority to make that 
long-term commitment.
    Thank you for the opportunity to testify before this Subcommittee 
today. I would be happy to answer any questions you might have.

    Senator Johnson. Thank you.
    Mr. Davies.

 STATEMENT OF MILTON G. DAVIES, DIRECTOR, BOARD OF DIRECTORS, 
       FALLBROOK PUBLIC UTILITIES DISTRICT, FALLBROOK, CA

    Mr. Davies. Thank you, Mr. Chairman, members of the 
committee. I appreciate the opportunity to come here and 
summarize the benefits of H.R. 29 today. One of the two primary 
objectives of the project presented to you today is the 
resolution of 80 years of water rights disputes and litigation 
on the Santa Margarita River. Over 60 years of which have been 
with the Federal Government.
    Second this project will provide an environmentally sound 
and financially feasible water resource development for where 
it is most needed in coastal Southern California. The 
availability of supplemental water source from the Santa 
Margarita River has become increasingly important to the 
district's capability to meet all the water demands at a 
reasonable price. A long term safe yield for this project will 
provide 100 percent of Camp Pendleton's water supply and 20 to 
40 percent of the district's total needs.
    1954 Public Law 83547, the Santa Margarita Project Act 
authorized the Bureau to construct a dam on the Santa Margarita 
River at a cost of $22 million. That's approximately 330 
million in today's dollars. With a yield of 14 to 16,000 acre 
fee the Conjunctive Use Project that this bill authorizes 
replaces that project and produces the same amount or possibly 
a little bit more water at a lower cost. The four major 
components of this project are, one, enhance to recharge system 
and enhance ground water recovery system, advance water 
treatment facilities and finally distribution facilities that 
have been enhanced.
    We have two independent ground water models that predict an 
average annual project yield of 16,000 acre feet a year. The 
current Camp Pendleton demand and the use of the ground water 
for the base is less than 8,000 acre feet of water per year. So 
the project results in 8,000 acre feet of new water for 
Southern California reducing the demand on Northern California 
water and the Colorado River.
    The current project cost is estimated between $120 and $150 
million--which gives us a higher yield than the 1954 project. 
Camp Pendleton's share of the project cost would primarily come 
from already approved MILCON funds for the facilities that will 
be needed by Camp Pendleton regardless of whether the 
Conjunctive Use Project proceeds.
    These facilities, if used by the Conjunctive Use Project 
will provide a credit against the total project cost in Camp 
Pendleton's favor. I believe I heard Commissioner Johnson say 
that his only objection to this project was the fact that the 
fiscal element. Of the six bills before you today, I believe 
H.R. 29 is the only one that will repay itself over the term of 
the project.
    The benefits of this is it will finally settle the Federal 
case of 1950 case of the U.S. vs. Fallbrook. Some of the 
environmental benefits that we hope to achieve with this is. It 
will preserve the entire riparian length of the Santa Margarita 
River from the city of Temecula to the Pacific Ocean and public 
ownership.
    No. 2, it will provide 1,400 hundred acres of mitigation 
lands for this and future military construction projects on 
Camp Pendleton.
    Third, it will provide operating the ground water basins on 
Camp Pendleton to preserve critical habitat for the largest 
population of Lease Bell's Vireos in the United States.
    No. 4, permitting periodic high flows of the Santa 
Margarita River to flow unimpeded across Camp Pendleton will 
scour the lower river valley opening and flushing the estuary 
and providing nourishing sands to the beaches of Oceanside and 
Camp Pendleton.
    Over time the project will improve the ground water quality 
on Camp Pendleton, assist in removing the estuary from the 
listing of impaired waters and preserve the endangered nesting 
habitat of the Least Tern on the estuary bar.
    Finally the Fallbrook portion of the Santa Margarita River 
including the Sandia and Rainbow Creek tributaries will provide 
an extensive network of hiking and riding trails as well as 
educational and open space benefits.
    In summary, the need for this project, the project 
facilities will provide supplemental local water sources. This 
has become particularly important due to the dwindling imported 
water supplies in Southern California. In addition the 
economics and metrics of this project are as good or better 
than future imported water costs.
    I am confident that the current effort underway by the 
Bureau of Reclamation to update the economic and environmental 
aspects of the feasibility study will show the cost benefit 
ratio to be extremely positive and that the extra study time 
that has been required to achieve a superior solution will 
prove to be very beneficial to all the stakeholders. Gentlemen, 
we've had this before the House on three separate Congresses. 
It has passed all three times without any controversy, this 
bill.
    We need this now. As mentioned by Commissioner Johnson, the 
State is holding our permits for this, the Bureau is. I think 
they want to see some positive movement on this so we don't 
lose those permits. Thank you very much for letting me testify 
today.
    [The prepared statement of Mr. Davies follows:]
 Prepared Statement of Milton G. Davies, Director, Board of Directors, 
           Fallbrook Public Utilities District, Fallbrook, CA
                                h.r. 29
    Mr. Chairman, I am Milton Davies, Chairman of the Board of 
Directors of the Fallbrook Public Utility District (FPUD). The people 
of Fallbrook appreciate this opportunity to discuss the need for the 
Santa Margarita River Conjunctive Use Project. It appears there really 
may be a light at the end of the tunnel for this project after 80 years 
of water rights litigation, studies, hearings, re-restudies and much 
frustration. The spirit of cooperation between the Bureau of 
Reclamation, the Navy Department, local Marine Corps officials and the 
District has never been better. The time to move forward on this 
project is not only ripe, but has reached the point of absolute 
necessity. Exhibit A* is a vicinity map showing the general location of 
this project. Exhibit B depicts the proposed Conjunctive Use Project.
---------------------------------------------------------------------------
    * Exhibits have been retained in subcommittee files.
---------------------------------------------------------------------------
Project History
    This process started in 1930 when the state of California issued 
the first water appropriation permit on the Santa Margarita River to 
the Fallbrook Irrigation District (later to become FPUD) for a dam on 
the River.
    In 1926, the Vail Ranch, a large land grant occupying almost the 
whole Temecula Valley was sued by the Rancho Santa Margarita (later to 
become Camp Pendleton), over water rights to the Santa Margarita River. 
The Fallbrook Irrigation District was unsuccessful in trying to resolve 
the dispute amicably. This litigation was settled in 1940 with a 
stipulated judgment dividing the water resources between the litigants 
but setting the stage for the present, unresolved dispute since it 
failed to account for the 1930 appropriative permit issued to 
Fallbrook. (include 2.5 cfs direct diversion at the sump)
    Since 1941 numerous attempts have been made to develop a ``physical 
solution'' to the water rights issues between Camp Pendleton and FPUD. 
From the 1940's through the 1980's these included a 2 dam project and a 
1 dam project on the river. There were many studies, starts and stops 
during those 4 decades but no project was completed. High costs, and 
environmental concerns were the main deterrents to completing any dam 
project.
    In 1990, a two-party agreement was signed by FPUD and Camp 
Pendleton which recognized that if upstream dischargers put recycled 
water into the Santa Margarita River, then these two parties would 
benefit from the water supply out of those discharges and that they 
would enter into a joint project to operate the groundwater basin and 
treatment facilities. This was the birth of the Conjunctive Use 
Project. At that point it was necessary to pursue feasibility and 
environmental work. The Conjunctive Use Study was prepared in 1994 as a 
follow-up to the two-party agreement. This study was the basis for the 
project that is being proposed today.
    One of the two primary objectives of the project presented to you 
today is the resolution of eighty years of water rights disputes and 
litigation on the Santa Margarita River, over 60 years of which involve 
the federal government. Secondly, this project will provide for an 
environmentally sound, financially feasible, water resource development 
where it is most needed, in coastal Southern California.
    The availability of a supplemental local water source from the 
Santa Margarita River has become increasingly important to the 
District's capability to meet all water demands at a reasonable price. 
The long-term safe yield from this project will provide 100% of the 
needs of Camp Pendleton and 20 to 40% of the District's total needs.
Project Description
    The proposed Santa Margarita Conjunctive Use Project provides for 
enhanced recharge and recovery through aggressive groundwater 
management strategies on Camp Pendleton to provide a water supply for 
both Camp Pendleton and Fallbrook to resolve a long-standing water 
rights dispute between the United States and Fallbrook. In 1954, P.L. 
83-547, the Santa Margarita Project Act, authorized the Bureau of 
Reclamation to construct a dam on the Santa Margarita River at a cost 
of $22 million (approximately $333 million in 2008 $) with a yield of 
14-16,000 acre-feet. The Conjunctive Use Project that this bill 
authorizes replaces that project and produces the same amount or 
possibly more water at a lower cost.
    The project, as proposed, is financially feasible, environmentally 
beneficial and will result in the conservation and preservation of the 
entire Santa Margarita River riparian zone from Temecula to the Pacific 
Ocean, while at the same time providing 16,000 acre-feet per year (AF/
yr) of vitally needed local supply in coastal Southern California.
Project Facilities
    The project facilities include:

  <bullet> Enhanced Recharge.--Groundwater recharge is enhanced by the 
        construction of a new collapsible diversion weir and 46 acres 
        of new recharge ponds. The enhanced recharge potential is 
        14,000 AF/yr in addition to the naturally occurring recharge. 
        The collapsible weir will divert low flows and permit flood 
        flows to pass, flushing the lower river and estuary as well as 
        providing beach sand replenishment.
  <bullet> Enhanced Groundwater Recovery.--Groundwater recovery is 
        enhanced by the construction of up to five new wells, 
        predictive monitoring, monitoring, and a collection system to 
        provide a total of 18,000 AF/yr of extraction capability.
  <bullet> Advanced Water Treatment.--Treatment will be provided to 
        exceed all requirements of the Safe Drinking Water Act. The 
        construction of membrane filtration, disinfection, and brine 
        disposal facilities at the Rattlesnake Canyon site on Camp 
        Pendleton will allow treatment of 20 million gallons per day.
  <bullet> Distribution Facilities.--Project water will be distributed 
        to the existing Camp Pendleton and Fallbrook distribution 
        systems through construction of two pump stations and 
        approximately nine miles of transmission pipeline. This 
        pipeline will also provide Camp Pendleton with a critically 
        needed connection to San Diego County Water Authority's 
        imported water delivery system in case of emergency, thus 
        ensuring uninterrupted water service at one of our country's 
        most important military establishments.
Project Yield
    Two independent groundwater models predict an average annual 
project yield of 16,000 acre-feet (AF/yr). The current Camp Pendleton 
demand and use of the groundwater system is less than 8,000 AF/yr so 
the project results in 8,000 AF/yr of new water, reducing demand on 
diversions from imported supplies from Northern California and the 
Colorado River.
Project Cost
    The current project cost estimate is $120-$150 million resulting in 
a higher project yield than the 1954 project, then estimated at $22 
million, an amount that equates to approximately $333 million today. 
Camp Pendleton's share of the project cost will primarily come from 
already approved MILCON funds for facilities that will be needed by 
Camp Pendleton regardless of whether the Conjunctive Use Project 
proceeds. These facilities, if used by the Conjunctive Use Project will 
provide a credit against the total project cost in Camp Pendleton's 
favor.
Current Project Status
    The Conjunctive Use Project is in the forth year of management by 
the Bureau of Reclamation's Southern California office in Temecula, 
California (located in the upper Santa Margarita River basin). Project 
funding currently comes from several Federal sources, including Camp 
Pendleton, Military Construction, and Reclamation Planning , as well as 
local funds contributed by FPUD. At the direction of Congress, the 
Bureau is conducting this feasibility analysis.
    The major current activity is the Bureau's in-house feasibility 
assessment as well as management of the EIS/EIR outside contract. This 
work involves the Bureau's project team completing the preliminary 
design of the necessary facilities and alternatives in order to 
complete a jointly managed EIR/EIS/FA. The Bureau and Camp Pendleton 
are joint Federal leads and FPUD is the state lead agency on the 
environmental documentation. An agreement has been reached to codify 
this effort to produce an environmental ROD/NOD and completion of the 
Feasibility Assessment.
    Reclamation staff is conducting these planning operations and 
administering the EIR/EIS contract by outside contract funded by Camp 
Pendleton and FPUD. This effort is overseen and directed by an 
Executive Management Team comprised of Reclamation, Camp Pendleton, and 
FPUD.
Project Benefits
    The Santa Margarita Project is somewhat unique among water 
resources projects in that the benefits are vast and project 
liabilities are almost non-existent. The project has failed to proceed 
over the preceding eighty years because of institutional, political, 
and legal disagreements among and between the basin's stakeholders. At 
this point, these issues are largely resolved and the success of H.R. 
29 will provide for the final settlement of the case of U.S. v. 
Fallbrook, . In identifying project benefits, this settlement should 
not be overlooked--it is the action from which all other project-
related benefits flow.
    Other benefits include:

  <bullet> Water Supply.--The project develops a new supply of 8,000 
        AF/yr from local resources in San Diego at a cost that is 
        competitive with today's cost for imported water. San Diego, 
        like much of coastal Southern California, is largely dependent 
        upon water imported great distances from the Colorado River and 
        Northern California. The recent drought in the Colorado River 
        Upper Basin and the emergence of the Quantification Settlement 
        Agreement, along with the recent cutback in Delta deliveries 
        due to endangered species protection, have demonstrated the 
        limits and risks attendant to this imported supply.
    In addition to the new component of supply, the total project yield 
        of 16,000 AF/yr will receive advanced water treatment prior to 
        distribution. Water quality in the Camp Pendleton distribution 
        system will be dramatically improved and the operational costs 
        related to water hardness will be eliminated.
  <bullet> Project Cost.--The current preliminary studies indicate this 
        new supply can be developed for roughly one-third to one-half 
        the cost of the project Congress authorized in 1954 (P.L. 547, 
        Chapter 593) for the same project yield, making it one of the 
        most cost-effective new water supply projects that you will be 
        asked to consider.
  <bullet> Environmental Benefits.--The proposed project has no 
        opposition from environmental interests and is generally 
        supported by them because, aside from localized, construction-
        related impacts, the project is environmentally beneficial. 
        These benefits include:

          1. Preserving the entire riparian length of the Santa 
        Margarita River from Temecula to the ocean in public ownership.
          2. Providing 1400 acres of mitigation lands for this and 
        future military construction projects on Camp Pendleton.
          3. Operating the groundwater basins on Camp Pendleton to 
        preserve critical habitat for the largest population of Least 
        Bell's Vireos in the United States.
          4. Permitting periodic high storm flows of the Santa 
        Margarita River to flow unimpeded across Camp Pendleton, 
        scouring the lower river valley, opening and flushing the 
        estuary, and nourishing the beaches.
          5. Over time, the project will improve groundwater quality on 
        Camp Pendleton, assist in removing the estuary from the listing 
        of impaired waters, and preserve the endangered nesting habitat 
        for the Least Tern on the estuary bar.
          6. The Fallbrook portion of the Santa Margarita River, 
        including the Sandia and Rainbow Creek tributaries, will 
        provide an extensive network of hiking and riding trails, as 
        well as education and open-space benefits.

    In summary, the need for the Project facilities to provide a 
supplemental local water source has become particularly important due 
to dwindling imported water supplies. In addition, the economics of the 
Project are as good, or better, than future imported water costs.
    I am confident that the current effort underway by the Bureau of 
Reclamation to update the economic and environmental aspects of the 
feasibility study will show the benefit-cost ratio to be extremely 
positive and that the extra study time that has been required to 
achieve a superior solution will prove to be very beneficial to the 
stakeholders.
    I urge your speedy favorable action on HR 29 so that final planning 
and design can begin on this project that is so vital to the well being 
of our District and the Marine Corps.
    Thank you very much for this opportunity to appear before you today 
and offer this testimony in support of H.R. 29.

    Senator Johnson. Thank you. I yield to the chairman of the 
full committee.
    The Chairman. Thank you very much, Mr. Chairman. Let me 
just ask, Mayor Ortega a few questions and then Governor 
Chavarria also. Mayor Ortega, let me just give my impression. 
Maybe you could just comment on it.
    My impression is that the construction of this pipeline 
project is really, absolutely essential to the communities that 
are going to benefit from it. That you have a depleting, 
vanishing water supply in Eastern New Mexico which is not 
getting any better. Unless this is done, unless we get on with 
this project, there really is no alternative way to provide 
water for those communities. Am I right about that?
    Mr. Ortega. Mr. Chairman, Senator Bingaman, you're 
absolutely right. Our situation is permanent depletion. 
Recharge is very, very minimal. We have looked at it and 
recharge is about half an inch per year in the Ogalalah, in 
that area. We're depleting it about two to four feet per year 
on average.
    The Chairman. In this legislation that we've introduced, 
Senator Domenici and I have introduced, we call for a 75 
percent Federal share and 25 percent State and local cost 
share. Then we call for the State and local government to cover 
100 percent of the operation and maintenance from then on. If 
we're able to enact legislation with these provisions in tact 
are the participating communities going to be able to cover 
their share of this cost?
    Mr. Ortega. Mr. Chairman, Senator Bingaman, we've been 
working, each community has been working with financial 
consultants that know and understand our communities finances. 
With that we've already put measures in place that have started 
to generate funds that will go toward our portion. We feel very 
confident that our communities can afford this project.
    The Chairman. Now am I also right that if the Federal 
Government does not agree in this project as they have in many 
other Western rural water projects to go ahead and be a sizable 
and takeover a responsibility for a sizable portion of this 
project then what would be the result there if--is the project 
just a non-viable? Is it unachievable if the Federal Government 
backs away from any responsibility here?
    Mr. Ortega. Mr. Chairman, Senator Bingaman, I tell you that 
without a sustainable supply of water, we would suffer 
tremendously. Not only economically, but we would begin to lose 
population. We have already experienced some events where 
industry has looked in our area of the State for coming in and 
doing business with us, but we haven't been able to meet their 
water demands or water requests. As time goes on, you know, our 
future looks very bleak.
    The Chairman. Let me just ask on one other question. I 
think the Bureau of Reclamation testimony is that they think 
more studies are needed. What's your perspective, as Mayor of 
Portales?
    I noticed that the first study by the Bureau of Reclamation 
was done, completed in 1966. That was the first year I was in 
law school. I wondered if you think that we need a few more 
studies before we decide what to do here?
    Mr. Ortega. Mr. Chairman, Senator Bingaman, no, I don't 
think so. I think we've studied this thing to death, quite 
honestly. As was mentioned by the Bureau of Reclamation, 
Commissioner Johnson, he mentioned the conceptual design. He 
also mentioned that there were critical questions about that.
    We are way beyond the conceptual design. In fact we 
completed a 10-percent and are in the process of completing a 
30-percent design on this project. You know, again we feel that 
this project, for some reason, has been looked at and has been 
just asked so much of. We feel that we are ready to move 
forward with construction of this project.
    The Chairman. Thank you very much. Let me ask, Governor 
Chavarria about the bill which he's here testifying on today. 
First I take it from your testimony that you believe part of 
the Federal trust responsibility includes helping the Pueblo 
with maintaining this irrigation infrastructure that we're 
talking about here. Is that an accurate interpretation of what 
you said?
    Mr. Chavarria. Yes, that's correct, Chairman, Senator.
    The Chairman. The other thing--my impression is that 
theoretically at least there are two Federal sources of funds 
that you can look to, you the Pueblo or the eight Pueblos that 
you're here representing can look to. One would be the Bureau 
of Reclamation and that's what our bill contemplates, but also 
the BIA is available to provide funds. Now, why do you conclude 
that the BIA assistance is not adequate?
    Mr. Chavarria. I have information from the South Government 
Office here in Washington that clearly shows since 2000 those 
Federal fundings have been dwindling. An example is 2000 we had 
zero dollars. 2001 was zero dollars again. 2002 actually went 
up to $9,619. Recently in 2008 we actually got $858 through our 
self governance compact to help irrigation infrastructure needs 
within Santa Clara Pueblo.
    The other Eight Northern Pueblos have also probably got 
that same limited amount of funding. So it is a trust 
responsibility through the Department of the Interior, BIA, to 
assist the Pueblos in that responsibility of taking care of the 
infrastructure needs.
    The Chairman. So you don't believe that the $858 that you 
got for the current year is enough----
    Mr. Chavarria. I think----
    The Chairman [continuing]. To maintain this infrastructure?
    Mr. Chavarria. We could probably only do about a foot.
    The Chairman. I see.
    Mr. Chavarria. It's very limited, sir.
    The Chairman. Alright. I would tend to agree with that. I 
hope very much we can succeed with enacting this legislation. I 
think that I asked the head of the Bureau of Reclamation what 
portion of the Water 2025 grants had gone to Indian Pueblos. Do 
you happen to know the extent to which any of the Eight 
Northern Pueblos have received grants under that?
    Mr. Chavarria. I am not knowledgeable on that, sir. Myself 
and former Governor Viarrial spoke about this before the 
testimony and we haven't received any information from the 
Santa Clara Pueblo.
    The Chairman. We'll try to run that down and ask them what 
grants they've made to the Eight Northern Pueblos because I 
think that would be good information for us to have on the 
record.
    Mr. Chavarria. Thank you.
    The Chairman. Let me thank Governor Chavarria and Mayor 
Ortega and also Mayor Brumfield for being here and testifying 
on this. I think this is very useful testimony for us and 
again, Mr. Chairman, thank you for giving us so much time to 
consider these bills in this hearing.
    Senator Johnson. Senator Salazar.
    Senator Salazar. Thank you very much, Chairman Johnson. In 
a letter* dated November 8, 2007, from the United States 
Environmental Protection Agency, EPA Region Eight stated the 
following and I quote, ``we are concerned that an uncontrolled, 
potentially catastrophic release of water to the Arkansas River 
from the LMDT is likely at some point, not only endangering 
human life, people living at the East Fork trailer park and BOR 
employees. The sudden release of water, rock, sediment and 
heavy metals to the Arkansas River would be an environmental 
disaster.'' Mr. Chairman, I would ask unanimous consent that 
this letter be included as part of the record.
---------------------------------------------------------------------------
    * EPA letter, EPA Superfund Record of Decision, and the Third Five-
Year Review Report have been retained in subcommittee files.
---------------------------------------------------------------------------
    Senator Johnson. Ok.
    Senator Salazar. Mr. Chairman, I'd also ask unanimous 
consent that the EPA Superfund record of decision* of March 15, 
2003 also be included in the record. That is September 25, 
2003.
    Senator Johnson. Ok.
    Senator Salazar. I would ask for unanimous consent that the 
third, 5-year review report* on California Gulch dated 
September 28, 2007, also be included as part of the record.
    Senator Johnson. Ok.
    Senator Salazar. I have a question, Ms. Rudolph. First of 
all, thank you for coming from Colorado all the way to 
Washington, DC., to testify in connection with this bill. My 
question to you is simply this, would this legislation improve, 
from your point of view, the understanding of the respective 
obligations of the Bureau of Reclamation with respect to the 
Leadville mine drainage tunnel and the responsibilities of EPA?
    Ms. Rudolph. I believe it would. I believe it's necessary 
for that purpose so that we will have a clear understanding of 
the responsibilities. Who needs to do what with regard to the 
tunnel and with regard to the OU Six facility.
    Senator Salazar. Thank you, Ms. Rudolph. Thank you to all 
the witnesses and thank you, Mr. Chairman.
    Senator Johnson. Mr. Davies, BOR does not support H.R. 29, 
in part because the engineering, economic and environmental 
studies have not yet been completed. Your testimony indicates 
that the project is financially feasible and environmentally 
beneficial and that the current estimated cost of the project 
is at the $120 million to $150 million range. Do you believe 
that the project is ready to proceed based on the studies that 
have been completed and how certain are you of the accuracy of 
the cost estimates?
    Mr. Davies. Mr. Chairman, we've been studying this for 4 
years now and of course the feasibility study has not yet been 
completed. But the preliminary analysis and design is 
indicating that we'll be able to come in within budget. Our 
portion is $60 million of that and the Bureau was going to 
complete that and we're assured that that will be an excellent 
joint project for both the military and the district.
    Senator Johnson. I have no additional questions. Thank you 
to all the witnesses for your participation today. For the 
information of Senators and their staffs questions for the 
record are due by close of business tomorrow. With that this 
hearing is adjourned.
    [Whereupon, at 3:53 p.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

  Responses of the Environmental Protection Agency to Questions From 
                            Senator Salazar
                                s. 2680
    I appreciate the swift and decisive action that EPA and Reclamation 
have taken to begin pumping and treating water behind the LMDT 
blockage. These operations have provided some measure of relief and 
peace of mind to the citizens of Leadville and the communities 
downstream of the LMDT. We must not, however, lose sight of the need 
for a long-term solution to the problem.
    A permanent solution to the problems with the LMDT has long been 
stymied by jurisdictional and liability questions related to EPA's 
remedy selected in the California Gulch Superfund Site Record of 
Decision for Operational Unit (OU) 6.
    Regrettably, the Administration's testimony today suggests that 
many of those questions remain unanswered.
    Question 1. Have the agencies reached any agreement with respect to 
the federal government's responsibility for a long-term solution to the 
LMDT?
    Answer. U.S. Bureau of Reclamation (Reclamation) and the 
Environmental Protection Agency (EPA) will have a better understanding 
of long-term actions needed for the LMDT now that the draft risk 
assessment conducted by Reclamation is complete and EPA has an 
opportunity to review and comment on the document during the public 
comment period this summer. The agencies have also been working to pump 
and treat some of the water to reduce water levels inside the LMDT this 
year, and Reclamation recently submitted changes to Congress that would 
amend existing law to better fit the existing conditions.
    EPA is taking action to address immediate risk. EPA will complete 
two removal actions that are underway, including the construction of a 
relief well, pump and pipeline to transport water from the Leadville 
Mine Discharge Tunnel and mine pool to Reclamation's treatment plant. 
Reclamation will operate and maintain the treatment plant, relief 
wells, pump and pipeline, and will determine future actions based on 
the risk assessment.
    In addition, EPA also installed a pumping system in the nearby Gaw 
mine shaft and has been pumping at a rate of 450 gallons per minute 
since late February. This action may lower water levels in the mine 
pool and it appears to have diminished seeps and springs that had 
recently appeared in the lower California Gulch.
    Question 2. What is EPA's position with respect to the Bureau's 
legal liability under CERCLA (as an owner of the LMDT) for the remedy 
selected in the OU6 ROD?
    Answer. The LMDT is owned by Reclamation as is the LMDT treatment 
plant. Pursuant to CERCLA Section 120 and E.O. 12580, Federal agencies 
have authority to address releases or threatened releases of hazardous 
substances from sites which are not on the National Priorities List, 
and removal actions other than emergencies, where either the release is 
on or the sole source of the release is from a facility subject to that 
agency's jurisdiction, custody or control. Section 9(i) of the 
Executive Order provides that the Administrator of EPA can ``pay for 
removal actions for releases or threatened releases from 
facilities...under the jurisdiction, custody or control of Executive 
departments and agencies but must be reimbursed to the Hazardous 
Substances Superfund by such Executive department or agency.''
    Question 3. Did the Bureau of Reclamation concur in the remedy 
selected for OU6? Was Bureau concurrence necessary?
    Answer. Concurrence from Reclamation was not required to select the 
remedy and complete the OU6 ROD. Although Reclamation submitted 
comments, they did not provide concurrence on the OU6 ROD.
    Question 4. Has EPA determined what is needed for a long-term 
solution for LMDT? What is it?
    Answer. Reclamation and EPA will have a better understanding of 
what actions may be needed for the LMDT now that the draft risk 
assessment conducted by Reclamation is complete and is being reviewed 
by EPA and others in July.
    Question 5. Did EPA perform an analysis of the risk of a sudden 
discharge of water from the LMDT?
    Answer. No. Based on experience with other mine drainage tunnels 
throughout the Rocky Mountain region, EPA believes that there is a 
potential for tunnel failure. The Reclamation risk assessment will 
provide a more thorough evaluation of this risk.
    Question 6. What is the status from your point of view of EPA's 
negotiations with the Bureau with respect to this issue?
    Answer. EPA and the Bureau continue to discuss appropriate steps to 
address the situation at this site, and both agencies are coordinating 
closely to ensure continued protection of human health and safety. 
State and local stakeholders will also have an important responsibility 
in devising future actions that may be part of the safety solution. The 
safety of the Leadville community is our top priority.
    Question 7. Does EPA intend to reopen the ROD for OU6 or otherwise 
to modify its proposed remedy for treating contaminated water entering 
the LMDT?
    Answer. Not at this time.
    Question 8. Would this legislation, in your opinion, address BOR's 
concerns regarding its legal liability and responsibility for the 
remedy, as it relates to LMDT? Would it provide the necessary funding 
to implement the remedy and treat the water in perpetuity?
    Answer. No. The Administration does not support the legislation as 
drafted for the reasons provided in the Commissioner's testimony 
submitted to the Subcommittee.
    Question 9. What is your current estimate of the cost of a long-
term solution for LMDT/OU6? Is the $40 million authorized in the 
legislation sufficient?
    Answer. Reclamation and EPA will have a better understanding of 
actions that may be needed for the LMDT once we review Reclamation's 
draft risk assessment this summer. We are not in a position to discuss 
proposed funding levels.
    Question 10. The legislation does not specifically mention drilling 
at the Canterbury Tunnel (either vertical or horizontal whichever is 
more cost effective over the long-term) or fluming in Evans Gulch to 
prevent large volumes of surface water from entering the mine pool. 
Does EPA believe these options would be important to permanently 
resolving the mine pool problem?
    Answer. EPA does not believe these items are necessary for the 
solution for the LMDT.
                                 ______
                                 
     Responses of Orlando Ortega to Questions From Senator Domenici
                                s. 2814
    Question 1. Do you think that the bill should move forward, even if 
the full design has not yet been completed?
    Answer. Yes, federal authorization is a critical milestone in the 
development of the project and time is of the essence. Planning and 
design is far advanced on this project relative to other similarly 
authorized regional rural water supply projects around the country. The 
current cost estimate, based on a Preliminary Engineering Report and 
10% level design, includes a 20% contingency factor or approximately 
$70 million. Both S.2814 and HR. 5710 recognize the likelihood of a 
multi-year construction period and accordingly include a clause to 
index future funding levels to construction costs. This is recognized 
and accounted for at the state and local levels as well. The 30% level 
design and environmental efforts are well underway and thus far 
indicate no unusual technical or environmental `fatal flaws''.
    Question 2. Please describe the willingness of the State to secure 
the funding necessary to fund their share of the project.
    Answer. The State of New Mexico is strongly in support of the 
project on several levels. The state made a considerable investment 
around 1960 in the construction of Ute Dam to create the reservoir 
intended to store New Mexico's share of Canadian River water for 
exactly the type of use envisioned by this project. In today's dollars 
that investment is likely worth around $140 million. Additionally, we 
have in hand over 45 letters of support from the Governor's office on 
down. On April 23rd, as we were traveling to Washington, DC to provide 
testimony to your committee, the NM Water Trust Board took action to 
appropriate $4,525,828 toward the continued development of the project. 
This brings the State's investment in the project to a little over $12 
million since 2002.
    Question 3. Are all the communities involved in the Project 
supporting the bill?
    Answer. Absolutely. Please understand that the eight member 
agencies of the Eastern NM Rural Water Authority are facing a very 
uncertain future without this project. All of the realistic 
alternatives to this project evaluated for providing a long term 
sustainable water supply to the eastern NM region--including `status 
quo' groundwater development--are more expensive and not sustainable. 
There is strong recognition that no viable alternatives exist. The 
member agencies support the bill and its financial consequences 
including the local commitment to operate and maintain the 
infrastructure facilities once constructed over the long term at 
approximately $8-9 million annually.
                                 ______
                                 
      Response of Martha Rudolph to Question From Senator Johnson
                                s. 2680
    Your testimony indicates that the LMDT is not part of the Superfund 
site, but that the EPA/Colorado remedy for Operable Unit 6 still 
requires Reclamation to participate in its implementation.
    Question 1. Is Reclamation's participation required under the 
Superfund law or because, as you reference, it makes practical sense 
and will ultimately decrease its operating costs?
    Answer. The remedy for Operable Unit 6 (OU 6) of the California 
Gulch Superfund site addresses the control of contaminated surface 
water runoff from mine waste piles in an area known as Stray Horse 
Gulch. Originally, EPA and the Colorado Department of Public Health and 
Environment (``CDPHE'') had preferred a remedy that called for the 
consolidation and capping of these waste piles. This remedy would have 
controlled the source of contamination by eliminating the contact 
between mine waste and surface water. This remedy would have been more 
expensive than the current remedy, but it would have dealt with the 
problem in the most permanent fashion and would have required little 
continuing operation and maintenance. However, this remedy was not 
selected due to local opposition that was based on protection of 
historic resources.
    As an alternative, the EPA and CDPHE selected the current remedy. 
Instead of controlling the source of contamination, this remedy 
recognizes that the surface water will become contaminated, and treats 
the contaminated water. The most cost effective way to provide that 
treatment would be to utilize Reclamation's existing treatment plant, 
rather than to construct a new treatment plant for that purpose. During 
the development of this remedy concept it became apparent that by 
constructing the bulkhead within the LMDT we could also address the 
historic issue of potential blowouts of the LMDT, and substantially 
decrease Reclamation's water treatment volumes and costs. EPA and CDPHE 
believed that by lowering Reclamation's overall treatment costs, and by 
significantly reducing or eliminating the risk of a blowout of the 
LMDT, for which, as the owner of the LMDT, Reclamation would be 
responsible, Reclamation would be more inclined to participate in the 
remedy.
    Although EPA and CDPHE believe that this remedy provides sufficient 
benefit to Reclamation to warrant its participation, and it makes 
practical sense to use an existing treatment plant instead of 
constructing and operating a second plant, Reclamation has never 
expressed any willingness to participate in this remedy, and 
Reclamation is not legally required to participate in the OU6 remedy 
under Superfund law. Reclamation has also taken the position that its 
statutory authority does not allow it to participate in the remedy.
                                 ______
                                 
    Responses of Milton G. Davies to Questions From Senator Johnson
                                h.r. 29
    The BOR does not support H.R. 29, in part, because the engineering, 
economic, and environmental studies have not yet been completed. Your 
testimony indicates that the project is financially feasible and 
environmentally beneficial, and that the current estimated cost of the 
project is in the $120 million to $150 million range.
    Question 1. Do you believe that the project is ready to proceed 
based on the studies that have been completed, and how certain are you 
of the accuracy of the cost estimate? What other studies do you see 
that are needed before proceeding to construction of the project?
    Answer. H.R. 29 anticipated this issue being raised by the Bureau 
and specifically predicates authorization upon a finding by the Bureau 
that the project is feasible (H.R. 29-Sec. 2(b)4. Preliminary design, a 
feasibility study and an EIS/EIR are all currently being conducted by 
the Bureau of Reclamation. The preliminary Draft EIS/EIR is expected 
this Fall and the feasibility study (based on the preliminary design) 
is expected be completed in Spring 2009. Final design would still need 
to be done prior to beginning construction. We are confident of the 
current estimated cost estimate of $120-150 million in 2008 $$. This is 
based on the Bureau's preliminary design work which is nearly complete 
and has not identified any large unforeseen expenditures.
    Question 2. Reclamation's testimony notes that construction of the 
project is contingent on the State granting a permit to use water.
    What is your view on the status of a water use permit for the 
project? Does a permit already exist that can be used for the project?
    Answer. Fallbrook P.U.D. and Camp Pendleton have 3 existing permits 
from the California State Water Resources Control Board (SWRCB) 
authorizing diversion of water from the Santa Margarita River to 
surface storage. These permits expire on 12/31/08. We are working with 
staff from the SWRCB to extend the expiration date and amend these 
permits to allow diversion to underground storage on Camp Pendleton as 
well as allow direct diversions from the River to our planned treatment 
plant during high flow conditions. Based on discussions with SWRCB 
staff we are optimistic that the permits will be extended and modified.
    Question 3. Your testimony states that ``Camp Pendleton's share of 
the project cost will primarily come from already approved MILCON 
funds. . . . ''
    If such funds have already been approved, is it possible that they 
could be provided up-front to avoid having to appropriate new funds for 
the Navy's share?
    Answer. Yes, that is the intent of the parties. Funds in excess of 
$64 million for the inflatable dam, percolation ponds and Camp 
Pendleton's share of the Advanced Water Treatment Plant have already 
been appropriated. These portions of the joint project with Fallbrook 
PUD are necessary for Camp Pendleton even if the joint project does not 
proceed. They will be built and then Camp Pendleton will receive credit 
towards their share of the $120-150 million joint project if it 
proceeds.
                                 ______
                                 
     Responses of Hon. Joseph Michael Chavarria to Questions From 
                            Senator Domenici
                                s. 2805
    Question 1. In the 2000 BIA/BOR report, several agencies were 
identified as possible federal partners that could assist with the 
Pueblo irrigation and infrastructure rehabilitation work. These 
agencies included the BIA, the National Resources Conservation Service 
(NRCS), and the Corps of Engineers.
    Have any of these agencies assisted you with this work?
    Answer. As described more fully in my written statement, BIA 
irrigation funding has been virtually nonexistent for decades, which is 
why S. 2805 is desperately needed. As I stated in my testimony, 
occasionally BIA has been able to offer limited assistance for 
emergencies for various Pueblos but it has been done in a shoestring 
approach, unreliable and unknown from year to year, which does not 
allow for any methodical rehabilitation work. I would defer to the so-
called Six Middle Rio Grande Pueblos to describe their relationship 
with the BIA regarding rehabilitation of structures that are part of 
the Middle Rio Grande Conservancy District. To the extent that Santa 
Clara Pueblo has received any BIA irrigation engineering funding, it 
has only been our fair share of the dwindling pot of BIA irrigation 
money through our Self-Governance compacting, and it has been less than 
one thousand dollars ($1,000) annually in recent years, as described 
more fully in my written statement.
    With respect to the Corps, it is my understanding that existing 
authorities for the Corps generally cover studies about the feasibility 
of irrigation repairs but separate Congressional authorization is still 
needed for actual construction or rehabilitation work. Santa Clara 
Pueblo, along with Ohkay Owingeh, and San Ildefonso Pueblo, are 
partners with the Corps in a General Investigation Watershed 
Feasibility Study for the Espanola Valley, an effort which Senator 
Domenici and the rest of our New Mexico Congressional delegation have 
championed. Through that study, the Corps is investigating the 
feasibility of implementing measures for environmental restoration, and 
to improve flood control and water quality along the three Pueblos' 
reach of the Rio Grande and related tributaries. That study also 
includes investigation of irrigation improvements for Santa Clara 
Pueblo. The study is supposed to be completed within the next year or 
two which will determine the feasibility and costs of various 
irrigation improvements. However, it may be many years before funding 
may be available if and when appropriations are requested for the 
actual final design and construction of specific irrigation 
improvements for Santa Clara Pueblo's needs. It is important to note 
that these sorts of irrigation improvement feasibility studies that the 
Corps can perform under existing authorities could easily be blended 
into the implementation of actual rehabilitation work through S. 2805.
    As for the NRCS, it is my understanding that many of the Pueblos 
have had small rehabilitation projects throughout the years through the 
programs that NRCS runs. At Santa Clara Pueblo, we have used NRCS funds 
from the EQUIP program for pipe and open channel work on a part of our 
irrigation system.
    Although Santa Clara Pueblo has not been the recipient of such 
funds, it is my understanding that, on occasion, the Bureau of 
Reclamation, through limited authorities for its Native American 
Affairs Program, has made limited funds available to some Pueblos to 
assist with irrigation rehabilitation, but, again, only on a small 
project basis. Although the Senator's question asks only about federal 
partners, S. 2805 recognizes that there may be opportunities to partner 
with the State of New Mexico. Santa Clara Pueblo sought and received 
direct appropriations from the State to assist with design and planning 
for irrigation improvements because such improvements are so 
desperately needed at our Pueblo. Although the State provided some 
funding for planning, it will take years to obtain sufficient 
construction funds, and, of course, a $2 million project today could 
cost $4 million by the time it is funded given inflation and other 
escalating costs. Again, it is important to note that any of these 
initial planning efforts could easily be blended into the 
implementation of S. 2805, and would not duplicate efforts.
    Question 2. Please describe the Pueblo resources that have been 
used to improve and rehabilitate your existing irrigation works.
    Answer. For this question, I can only answer on behalf of Santa 
Clara Pueblo. For our work with the Corps and NRCS, we have had cost-
share obligations to meet. Thus, our limited resources are dedicated to 
that effort. In addition, Tribal equipment and labor crews are used for 
preventative maintenance. However, because our irrigation system 
overall is in disrepair, and because BIA irrigation funding does not 
even cover the cost of diesel for our equipment anymore, our limited 
resources usually must go to annual emergency patchwork on our 
irrigation system. We consider this to be, at best, a band-aid approach 
to rehabilitation, which is why Santa Clara Pueblo strongly supports 
the enactment of S. 2805.
    I hope these answers are helpful in garnering understanding of the 
critical irrigation infrastructure improvement needs of the New Mexico 
Indian Pueblos. Please let me know if I can be of further assistance.
                                 ______
                                 
       Responses of Bob Johnson to Questions From Senator Johnson
    Question 1. Rural Water General Question.--In December 2006, we 
enacted the Rural Water Supply Act which required BOR to determine 
eligibility criteria by December 2007, and feasibility criteria for 
rural water projects by June 2008.
    What is the status of those actions called for in the legislation?
    Answer. Title I of the Rural Water Supply Act of 2006, P.L. 109-451 
(Act), enacted on December 22, 2006, authorizes Reclamation to 
establish a rural water program and requires us to develop three sets 
of criteria to implement the program. Section 103 of the Act requires 
the development of programmatic eligibility and prioritization criteria 
within one year after the date of enactment; Section 105 requires the 
promulgation of criteria for the completion of appraisal investigations 
within one year of the date of enactment; and Section 106 requires the 
promulgation of criteria for the completion of feasibility studies 
within 18 months of the date of enactment. The Act requires Reclamation 
follow the formal rulemaking process as required in the Administrative 
Procedures Act in developing the criteria for the Rural Water Program. 
In order to expedite the rulemakings in an efficient manner, 
Reclamation is completing one comprehensive rulemaking process, instead 
of doing three separate rulemakings to address each of these three 
requirements. We believe this is a more timely and efficient option 
than the alternative. However, because of the specific procedural 
requirements associated with completing a rulemaking--which includes a 
90-day review by the Office of Management and Budget and a 60-day 
public comment period--Reclamation published the comprehensive criteria 
in the Federal Register as an Interim Final Rule on November 17, 2008. 
Reclamation is currently reviewing public comments for the interim 
final rule.
    Question 2. H.R. 29 (Santa Margarita Bill).--Your testimony 
indicates that construction of the Santa Margarita project is 
contingent on the State of California granting the permits necessary to 
use water for the project. You also mention that Reclamation currently 
holds permits to construct dams to develop a water supply on the Santa 
Margarita River for the Fallbrook District and Camp Pendleton.
    Can Reclamation use the permits it presently holds from the State 
of California for the Project proposed in H.R. 29? If so, is it true 
that activity under those permits must be initiated by the end of this 
year or the permits may not longer be valid?
    Answer. Reclamation presently holds three water rights permits 
issued by the California State Water Resources Control Board (SWRCB). 
Reclamation, in cooperation with Camp Pendleton and the Fallbrook 
Public Utility District, is presently preparing the documentation for 
requesting an extension of time for putting the waters to beneficial 
use. Reclamation will file the request and documentation for an 
extension of time to exercise the permits with the SWRCB prior to the 
end of 2008. The river is fully allocated at this time, and if the 
request is not granted, Reclamation understands that the permits could 
eventually expire.
    As previously stated in our testimony, Reclamation does not support 
this proposed project.
    Question 3. H.R. 29 (Santa Margarita Bill).--You note that the 
engineering studies and environmental analysis for the Santa Margarita 
project have not yet been completed.
    What is the status of those studies? At a minimum, has an appraisal 
level analysis been completed?
    Answer. An appraisal level analysis of the Santa Margarita River 
Conjunctive Use Project was completed in January 2005. The feasibility 
analysis is well underway and is scheduled for completion in early 
2009. Reclamation has entered into a contract with The Environmental 
Company (TEC) for the environmental compliance analysis and document. 
We anticipate that the Draft Environmental Impact Statement/
Environmental Impact Report (EIS/EIR) will be publicly distributed in 
April 2009.
    Question 4. (Santa Margarita).--Testimony on the 2nd panel 
indicated that ``Camp Pendleton's share of the project cost will 
primarily come from already approved MILCON funds . . .''
    Has Reclamation had discussion with the Navy regarding its 
participation and, if so, is it possible that the Navy could pay its 
share up-front as opposed to receiving a repayment contract?
    Answer. Yes, Reclamation has had discussions with the Navy 
concerning the possibility of the Navy paying its share of construction 
costs up-front, and it is Reclamation's understanding that the Navy's 
intention to pay construction costs up-front is contingent upon the 
availability of Military Construction funds.
    Question 5. H.R. 123 (San Gabriel Basin Fund).--Your testimony 
indicates that the Administration opposes reauthorizing the San Gabriel 
Basin Fund because Reclamation's budget is not the appropriate place 
for this funding.
    Notwithstanding which agency provides the funding, is there a 
Federal responsibility to help clean-up the groundwater contamination 
in Southern California?
    Answer. The Federal government believes there is a shared public 
interest in seeing groundwater basins in southern California cleaned so 
that water from these basins could be used as a source of potable 
water. However, it is difficult to assert that there is a Federal 
responsibility to help clean up the groundwater contamination 
throughout all of southern California, because the situation in each 
basin is unique. In the San Gabriel Basin, the local water agencies 
have argued that the Federal government does have responsibility for 
the groundwater clean up, basing this argument on the belief that a 
great deal of the contamination (including all of the perchlorate 
contamination) was a result of the activities of defense contractors. 
This was the premise behind the establishment of the San Gabriel Basin 
Restoration Fund and the subsequent appropriations into the fund. It is 
important to note that the establishment of the fund does not mean that 
the Federal government, including the Department of the Defense, has a 
legal responsibility for the clean up when a contractor has polluted in 
violation of applicable laws.
    Question 6. S. 2680 (Leadville).--Testimony by the State of 
Colorado asserts that Reclamation's participation in the EPA/Colorado 
remedy for OU6 will ``reduce the amount of water treated by the Bureau 
of Reclamation (thereby decreasing its operating costs)''.
    Do you agree with the State of Colorado assessment? If not, has 
Reclamation estimated the additional costs that it will incur by 
participating in the remedy for OU6? What is the magnitude of 
additional cost that Reclamation believes it will incur? What other 
recommendations does Reclamation have for a long-term remedy for the 
clean-up of OU6?
    Answer. The Record of Decision for OU6 that was prepared by the 
Environmental Protection Agency (EPA) with concurrence from the State 
of Colorado, evaluated several remedy alternatives to address the 
issues associated with OU6. The selected remedy includes the relief 
well and pipeline that were recently constructed by EPA to address any 
immediate threat from the rise in groundwater and abundant snowpack. 
Reclamation will treat the water delivered from the relief well - up to 
the available, existing capacity of the treatment plant. Reclamation 
believes it is prudent to evaluate the effects of these recent 
activities before fully implementing any additional selected remedy 
actions. Based on the results, it may be necessary to re-evaluate the 
remedy for OU6. We also believe it may be beneficial to revisit capping 
the remaining tailings piles to prevent or minimize future contaminated 
runoff. Reclamation expects to incur additional costs of up to 
$$1,143,000 per year due to treatment of the additional volumes of 
water from implementation of the recent actions. Reclamation is 
evaluating the potential for reduced long-term operation and treatment 
costs that may result from continued analysis of the facility seeking 
improved industrial process and water treatment technologies. 
Reclamation is evaluating with EPA, new hydrologic and water quality 
data obtained since construction and pumping of the relief well, to 
determine additional actions that may result in future reduction of 
water volumes that require treatment.
      Responses of Bob Johnson to Questions From Senator Bingaman
    Question 1. S. 2805.--The Bureau of Reclamation and Bureau of 
Indian Affairs first completed an initial assessment of the Pueblos' 
irrigation facilities back in 2000. That report identified a 
substantial number of infrastructure related problems which all result 
in the need to divert more water than is necessary to support the 
agricultural needs of the Pueblos.
    Given the substantial water supply and environmental issues in the 
Rio Grande basin in New Mexico, many of which involve Reclamation, 
doesn't it make sense to facilitate the most efficient use of water 
possible? If so, why was no action taken by the Department after its 
2000 Report?
    Answer. Reclamation and BIA completed an initial assessment of the 
Pueblos' irrigation facilities in 1999, and subsequently issued a 
summary report in 2000. We agree that with competing demands for water 
in the Rio Grande River Basin, it makes sense to promote water use 
efficiency. After the Report was completed, it was presented to the All 
Indian Pueblo Council. Since then, Reclamation has worked with many of 
the interested Pueblos to implement those actions described in the 
report it could carry out, subject to funding and authority 
limitations, and in some cases taking into account the need to defer 
certain work pending the outcome of water rights negotiations involving 
some of the Pueblos. To date, at least $1.5 million has been expended 
by Reclamation to carry out this work, with the largest amount coming 
through its Native American Affairs program.
    Question 2. S. 2805.--Your testimony on S. 2805 raises several 
technical issues with the bill. Specifically, you ask for definitions 
to several terms, including ``on-farm improvements''; ``drainage 
facility''; and ``historically irrigated lands''. These terms were 
taken directly from your 2000 Report.
    Please provide definitions for those terms as you intended them in 
the 2000 report.
    Answer. The 2000 report was a condensed version of a larger report 
written in 1999 that included these terms. In this context definitions 
for ``on-farm improvements'', ``drainage facility'', and ``historically 
irrigated land'' identified in the 1999 report and preserved in the 
2000 report are:

          On-farm improvements: As currently envisioned, the Project 
        will provide for efficient delivery of water to farms, but not 
        on-farm improvements. Examples of on-farm improvements include 
        fencing, creation of borders, installation of sprinkler or drip 
        irrigation systems, provision of tractors and other farm 
        machinery, provision of seed or plants, and planting of 
        windbreaks. The only exceptions to on-farm improvements which 
        might be included in the Project scope of work are these water 
        conserving items: land leveling, land smoothing, and 
        installation of water measuring devices . . .  These measures 
        improve the efficiency of the system as a whole by conserving 
        water and thereby maximizing the water available to other 
        users.'' Thus, any ditch which provides delivery of water to 
        the farm would not be considered an on-farm improvement and 
        would be eligible for improvement under the proposed project. 
        This would take away confusion in classifying ditches as main 
        canals, laterals, farm ditches, etc. for purposes of the 
        proposed project.
          Drainage Facility: A drainage facility is a drainage ditch 
        which includes either an open ditch drain or subsurface 
        perforated pipe systems or any other structure which acts to 
        lower the groundwater table in areas where the water table is 
        too high to allow for productive farming. It was envisioned 
        that all drainage facilities be included in the scope of work 
        for the proposed project.
          Historically Irrigated Lands: This includes pueblo lands 
        which have been irrigated through a network of ditches from a 
        major water source, such as the Rio Grande, Rio Jemez, Rio 
        Chama, Rio Pueblo de Taos, Rio San Jose, etc. It includes such 
        lands even if there are supplemental wells to supply these 
        areas, provided that the wells are supplemental to the major 
        water source. It does not include lands which were irrigated 
        through dryland farming techniques, i.e., rainfall. It does not 
        include lands sporadically irrigated through the diversion of 
        arroyo flows which only carry water during storm events. It 
        does not include upland areas for which wells are used to 
        provide a water source. It includes lands for which there is a 
        valid water right, such as the prior and paramount lands and 
        the newly reclaimed lands of the six Middle Rio Grande Pueblos 
        (see the Act of March 13, 1928), because these lands are 
        capable of being serviced by existing ditches. It was 
        envisioned in the Act of March 13, 1928 that these lands would 
        be irrigated through the participation of the six Middle Rio 
        Grande Pueblos in the Middle Rio Grande Conservancy District.

    Question 3. S. 1805.--Over the last 4 years, through its Water 2025 
program, Reclamation has provided grants to water users in the West to 
implement water conservation projects.
    What portion of the Water 2025 grants have gone to Indian tribes? 
If the percentage is low, why do you think that is the case?
    Answer. Since 2004, Water 2025 has awarded $3030 million to fund 
137 Challenge Grant projects. Navajo, tribal entities in New Mexico 
received 3 of these grants totaling $725,000. While this is a 
relatively small percentage of the total number of Water 2025 grants 
that have been awarded, it represents 75 percent of all the proposals 
received from the tribal entities; this is a much higher percentage 
than the approval rate for non-tribal proposals. It is likely that 
Tribes and Pueblos have focused on activities other than those funded 
by the Water 2025 program, such as rural water projects It is also 
important to note that many projects, while not awarded directly to 
tribes, have provided substantial benefits to tribes, tribal fisheries 
or tribal lands. Specifically, ten projects totaling $33 million have 
benefited tribes.
    Question 4a. S. 1805.--Pursuant to its trust responsibility, the 
Department is authorized to provide assistance to Indian tribes to 
maintain its irrigation infrastructure.
    How much funding did the Department provide to tribes from 2002-
2008 for Indian irrigation operation and maintenance? How much did it 
request in its budget?
    Answer. In general, operation and maintenance (O&M) for Indian 
irrigation systems is paid for through the collection of irrigation 
assessments from project beneficiaries by BIA. The regulations 
governing these annual assessments are at 25 CFR Part 171. Annual 
assessments are adjusted to reflect increases in O&M costs. These 
assessments are published in yearly notices, see, e.g., ``Rate 
Adjustment for Indian Irrigation Projects,'' 73 Fed. Reg. 32043 (June 
5, 2008). In addition to revenues generated from project beneficiaries, 
there is also a line item in the BIA's budget for Irrigation Operations 
and Maintenance. For 2002-2008, the total amount of funding requested 
for this item was $75,241,000, and the total amount appropriated was 
$76,593,000. A chart showing annual funding levels is provided at the 
end of this response. This line item primarily funds payments for BIA 
irrigation projects and tribal irrigation systems that are mandated by 
court orders and statutes. When discretionary funds are available, they 
are used principally for water storage and irrigation service-related 
contracts.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In addition to the BIA funding, there are some project-specific 
authorizations providing for different payment mechanisms for Indian 
operation and maintenance costs. For example, the Ute Mountain Ute 
Tribe is required to pay in advance a portion of the OM&R costs 
associated with the Towaoc Highline Canal, operated by the Bureau of 
Reclamation. As part of the 1988 Colorado Ute Water Rights Settlement 
Act, the Secretary may bear all or part of the O&M in the event the 
Tribe demonstrates that it is unable to satisfy these costs from gross 
revenues. The total budgeted by Reclamation for these costs from 2002-
2008 was $1,150,000, and the amount obligated was $1,780,009.
    Question 4b. How much funding did the Department provide to the 
Middle Rio Grande Conservancy District during 2002-2008 to operate and 
maintain irrigation infrastructure for the benefit of the Middle Rio 
Grande Pueblos? How much was requested in the budget for this activity?
    Answer. Funding for operation and maintenance of the irrigation 
systems benefiting the Middle Rio Grande Pueblos is provided through 
BIA. Reclamation has provided no funds to the Middle Rio Grande 
Conservancy District for operation and maintenance of the irrigation 
system for the Middle Rio Grande Pueblos.
    The following table shows the amounts obligated by the BIA for O&M 
purposes for the Middle Rio Grande Pueblos for the years 2002 to 2005. 
These funds were paid out of the BIA Natural Resources Management--
Irrigation Operations and Maintenance line item discussed above. The 
Act of February 14, 1927 (44 Stat. 1098) provided for the designation 
of an engineer to represent the Department in the development of Indian 
irrigation infrastructure. The position of a Designated Engineer has 
been retained and funded subsequently to assist the Department and the 
Pueblos.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    For years 2006-2008, funding of over one million dollars per year 
was obligated by the BIA to support the Pueblos' operation, 
maintenance, and betterment needs. The payment of this funding to MRGCD 
must be based on work completed by MRGCD and verified by the BIA, and 
that process is underway.
    Question 5. S. 1805.--What obligations does the United States have 
to help Indian tribes maintain irrigation infrastructure based on its 
trust responsibility?
    Answer. Although developing or rehabilitating irrigation 
infrastructure has often been a component of Indian water right 
settlements, generally the goal of providing tribal water 
infrastructure has been pursued under existing discretionary programs 
such as those of the Bureau of Indian Affairs and the Indian Health 
Service. The Bureau of Reclamation, through its Native American Affairs 
Program, has endeavored to assist tribes in maintaining irrigation 
infrastructure through its technical assistance program, although it 
has no general mandate to improve or maintain Indian irrigation 
systems.
    Such infrastructure development is a discretionary function, 
dependant on Administration policy and Congressional authorization and 
funding. In the absence of Congressional directives assigning specific 
fiduciary duties or providing additional Federal funding, the statutes 
and regulations that establish the framework for the BIA's role in 
maintaining irrigation infrastructure confirm that the BIA does not 
have a trust obligation to operate and maintain irrigation projects. 
See, e.g., Grey v. United States, 21 Cl. Ct. 285 (1990), aff'd, 935 
F.2d 281 (Fed. Cir. 1991), cert. denied, 502 U.S. 1057 (1992). See also 
25 CFR Part 171 (regulations governing Indian Irrigation and 
Maintenance and requiring BIA to collect annual operation and 
maintenance assessments to cover annual costs for each irrigation 
facility covered by the regulations).
      Responses of Bob Johnson to Questions From Senator Domenici
    Question 1a. S. 2814, Eastern New Mexico Rural Water System.--
Please describe the process underway to establish eligibility criteria 
for the loan guarantee program that passed during the last session of 
Congress. In addition, please describe the findings by OMB regarding 
the implementation of the loan guarantee program issued on April 3, 
2008, and how this will impact the establishment of eligibility 
criteria.
    Answer. Loan guarantees provided to water districts to improve 
Federally-owned assets are financing improvements to Federal assets, 
and not subject to the Federal Credit Reform Act. Consequently, such 
guarantees would be classified as Federal borrowing authority as 
described by OMB Circular A-11, Appendix B, and would require 
appropriations up-front for the full amount of the Government's 
potential liability. The underlying loan guarantee program (authorized 
in Title II of P.L. 109-451) authorizes Reclamation to offer loan 
guarantees, subject to the availability of appropriations.
    Question 1b. Please describe the level of funding the BOR would be 
willing to request to support the Eastern New Mexico Rural Water 
System.
    Answer. This project has not yet been determined to be feasible. 
The appropriate level of funding can only be assessed after the 
determination of the project's feasibility.
    Question 1c. Please describe other mechanisms the BOR might employ 
to help develop regional rural water projects in the future.
    Answer. Title I of the Rural Water Supply Act of 2006 (Act) 
authorizes the establishment of a rural water supply program in the 
Bureau of Reclamation. The Act provides that Reclamation can plan the 
design and construction, through the conduct of appraisal 
investigations and feasibility studies, or rural water supply projects 
in Reclamation States. When the program is fully implemented, we will 
work closely with rural communities to identify regional approaches to 
meet rural water needs. This will encourage partnerships between rural 
communities and take advantage of economies of scale to address water 
supply needs. The program is focused on allowing Reclamation to 
collaborate with rural communities early in the project development 
process, during the planning stages, so that we can help formulate an 
approach that is efficient, cost-effective, and which brings together 
dispersed rural communities. The program embraces a wide array of 
approaches to solving water supply issues, ranging from the more 
traditional approach of pipelines and pump stations, to newer 
technology such as locally centered desalination facilities to treat 
brackish groundwater, or through other, perhaps market-based, 
mechanisms, that will help rural communities address their water supply 
needs. Through this program, Reclamation will also explore 
opportunities to combine resources with programs run by other agencies 
that take a different approach to rural water supply issues. For 
example, a group of rural communities may be able to build on 
assistance they receive from programs focused on individual, municipal 
rural water supply systems, by participating in this program, to create 
a region-wide rural water system.
    Question 2a. S. 2805, Rio Grande Pueblos.--Please describe the 
findings from the BOR/BIA Pueblo Irrigation Facilities Rehabilitation 
Report that was issued in 2000.
    Answer. The 2000 report indentified a need for rehabilitation and 
repair of Pueblo Indian irrigation infrastructure. Inspection of 
existing infrastructure shows that many key facilities such as 
diversion structures and main conveyance ditches are barely operable. 
Rehabilitating Pueblo irrigation facilities would result in increased 
efficiency and less water usage per acre. This would make more water 
available to help prevent water conflicts which might arise through 
increased urbanization and Endangered Species Act requirements.
    Question 2b. Please describe the current authorities used by the 
Pueblos to seek financial assistance in operating and maintaining their 
existing irrigation and drainage facilities.
    Answer. Under the Snyder Act (25 U.S.C. 13), the BIA is authorized 
to expend appropriated funds for the benefit, care, and assistance of 
Indians throughout the United States. This legislation specifically 
mentions Indian irrigation systems. The Bureau of Reclamation, through 
its Native American Affairs Program, has endeavored to assist tribes in 
maintaining irrigation infrastructure through its technical assistance 
program, although it has no general mandate to improve or maintain 
Indian irrigation systems. The Acts of March 13, 1928 (45 Stat. 312-
13), August 27, 1935 (49 Stat. 887) and June 20, 1938 (52 Stat. 778) 
provide that operation, maintenance and betterment (OM&B) services are 
to be provided by the Middle Rio Grande Conservancy District at no cost 
to the Pueblos for the Pueblos' prior and paramount lands. These 
statutes also authorize the Secretary to enter into an agreement with 
the District to provide OM&B services for the newly reclaimed lands at 
a per acre cost not to exceed that charged for non-Indian lands in the 
District.
    Question 2c. In 2000, the BOR/BIA estimated the cost of a 
feasibility study for the Project to be $3 million, and the estimated 
time to complete the study at 18 months. Are these estimates still 
valid?
    Answer. No, the estimates that were developed in 2000 are no longer 
valid. In 2004, the BOR/BIA report was updated and new estimates were 
given for the feasibility study. As introduced, S. 2805 includes $4 
million for the feasibility study and the estimated time to complete 
the study has been revised to 24 months.
    Question 3a. S. 2680, Leadville Mine Drainage Act.--It appears that 
the volumes, pressures and levels of contamination associated with the 
water in the Leadville Mine Drainage Tunnel do not, in the opinion of 
USBR, represent an imminent threat to the town of Leadville and 
surrounding areas.
    Why, in this particular case, is the Bureau of Reclamation the 
agency to which some people are looking for these types of assessments? 
Would not the Environmental Protection Agency or an agency like the 
Department of the Interior more familiar with mining be a better source 
of information?
    Answer. Reclamation is a Bureau within the Department of the 
Interior. This type of risk assessment is focused on tunnel, rock, and 
soil engineering issues. Reclamation is recognized within the 
Department of the Interior, the Federal Government, and worldwide as a 
leader in these types of risk assessment methodologies. Our methods 
have been and are being adopted within the Federal government and 
globally by private and government agencies. Our risk assessment 
process is based on years of experience with a variety of structures 
and input from other agencies, such as the Corps of Engineers, research 
professionals, and consultants who are leaders in their disciplines.
    Reclamation has a full staff of experts in geotechnical 
engineering, rock mechanics, and mining engineering qualified to assess 
the level of risk. Reclamation has analyzed, designed, and overseen the 
construction of hundreds of miles of tunnels for dams and other water 
supply projects.
    Question 3b. Since we do have you here today, and not one of these 
other federal entities, does the USBR have an opinion as to what levels 
of pressure, volume, contamination or combination thereof would, in 
fact, represent an imminent threat?
    Answer. The risk assessment conducted by Reclamation evaluated 
whether or not the existing tunnel conditions create an imminent threat 
to public health and safety or the environment. The assessment 
concluded that there was no imminent public safety or environmental 
threat posed by the condition of the tunnel, and the document was 
provided to the Committee in June. If any threat did arise, Reclamation 
would take action to mitigate that risk and protect the public.
    Question 3c. What is the nature of the area we are talking about? 
Is it residential at this point, or is there some anticipation of it 
becoming residential?
    Answer. Adjacent to the tunnel portal and Reclamation's water 
treatment plant is a trailer park called the Village at East Fork which 
has approximately 80 mobile or modular home sites. Additionally, a 
proposed 87 acre, mixed-use subdivision with up to 281 units called the 
``Gateway Village'' is being planned for the area just north of the 
treatment plant and tunnel portal, and above the tunnel alignment. The 
subdivision proposal has recently been presented to and initially 
approved by the Lake County Planning and Zoning Commission, as well as 
the Lake County Board of County Commissioners.
    Question 3d. I ask this because the Bureau of Reclamation has been 
involved with this tunnel since 1959, and we're just now starting to 
hear about this issue. Why now is it becoming such an urgent matter in 
the eyes of some who are involved?
    Answer. The concern is over a rise in the elevation of water behind 
a potential blockage within the Leadville Mine Drainage Tunnel. 
Reclamation conducted a risk analysis in 2005 to examine hillside 
stability in the vicinity of the mine portal and concluded then that 
the likelihood of a failure due to increased water levels was low. We 
conducted the most recent risk assessment to evaluate the conclusions 
of the previous analysis and address the current concern for a 
potential sudden failure of a plug of caved material in the tunnel. To 
the best of Reclamation's knowledge, no other Federal agency or other 
party has conducted a risk assessment for the likelihood of a sudden 
release of water due to failure of a blockage within the tunnel.
    Question 3e. It is my understanding that the bureau of Reclamation 
has arranged for a 3rd party risk assessment to be conducted and the 
results of that inquiry will likely be made available in June of this 
year. If that inquiry were to find that there is, in fact, an imminent 
threat to Leadville and the surrounding areas, who would be required to 
pay for the remediation of that problem?
    Answer. Reclamation had the draft risk assessment independently 
reviewed by a three person team consisting of a representative from the 
US Geological Survey and experts in mining engineering from private 
industry. The assessment was then released as a draft final report at 
the end of June, 2008. If Reclamation found evidence of an imminent 
threat to the residents of the Village of East Fork, Reclamation would 
have immediately initiated steps to reduce the level of threat. 
Fortunately, the completed final risk assessment has shown that there 
is not imminent threat to Leadville and the surrounding areas. Since 
Reclamation holds title to the LMDT, any public safety concerns 
associated specifically with the tunnel (as opposed to the surrounding 
Superfund site) are Reclamation's responsibility. Reclamation is 
continuing to take a proactive approach to addressing safety issues 
associated with the LMDT, including work with other Federal agencies, 
the State of Colorado, and other affected stakeholders to stakeholders 
to devise solutions that will ensure the continued safe operation of 
the LMDT.
    Question 3f. Parts of the Leadville Mining District have been 
designated as Superfund sites. How do the activities undertaken by the 
Bureau of Reclamation in this area interface with the responsibilities 
of the Environmental Protection Agency for clean-up?
    Answer. Reclamation has and will continue to work collaboratively 
and cooperatively with the EPA and the State of Colorado on 
appropriate, efficient, and effective actions to address the issues 
associated with the Site. The EPA is the remedial action lead for the 
California Gulch National Priorities List Site, including Operable 
Units (OUs) 6 and 12. The LMDT, which is owned and operated by 
Reclamation, is addressed by the OU6 remedy. Reclamation has agreed to 
operate and maintain the treatment plant, relief wells, pump and 
pipeline, and treat the water delivered as the result of EPA's short-
term actions up to the available, existing capacity of the treatment 
plant. EPA issued a Record of Decision for OU6 in 2003 which includes 
the following remedy activities:

  <bullet> Installation of a bulkhead in the LMDT upstream of the 
        Pendery Fault to further confine and segregate the contaminated 
        groundwater,
  <bullet> Backfilling a section of the LMDT downstream of the Pendery 
        Fault with select materials,
  <bullet> Construction of an aboveground gravity pipeline to deliver 
        surface and ground water to Reclamation's treatment plant,
  <bullet> Infrastructure improvements to the treatment plant (with 
        additional operation and maintenance costs) to permit the 
        treatment of waters of greater volume and varying chemistry 
        than have historically been received by the plant, and
  <bullet> Installation of one or more new wells upstream of the 
        Pendery Fault to convey contaminated groundwater to 
        Reclamation`s treatment plant via a gravity pipeline.
       Responses of Bob Johnson to Questions From Senator Salazar
    Commissioner, as you know, the Lake County Board of Commissioners 
is very concerned that a blockage in the LMDT is preventing mine pool 
water (contaminated water present in the mine workings in and around 
Stray Horse Gulch) from flowing through the LMDT to the Bureau's 
treatment plant and that the increasing hydraulic pressure from the 
LMDT mine pool poses a significant threat to the residents of Lake 
County living near the LMDT portal if a catastrophic blowout were to 
occur.
    I understand and appreciate that the Bureau, in cooperation with 
the State of Colorado, Lake County, and the EPA, has taken steps to 
address the immediate risk of such a catastrophic discharge of 
contaminated water from the tunnel.
    Question 1. What is the Bureau's position and what are the Bureau's 
plans with respect to the long-term goal of stabilizing the tunnel, 
installing a permanent plug in the LMDT, and treating--in perpetuity--
the contaminated water flowing into and out of the LMDT?
    Answer. Reclamation has completed a risk assessment of the tunnel's 
condition and believes at this time that there is not an imminent 
threat of a catastrophic release from the tunnel. Reclamation is now 
evaluating with EPA, new hydrologic and water quality data obtained 
since the recent installation and pumping of the relief well, to 
determine potential additional actions that may be appropriate for the 
long-term management of the LMDT and treatment of discharges.
    Question 2. I have previously asked for a commitment by the Bureau 
to treat the mine discharge water in perpetuity and for assurance that 
the Bureau's treatment plant has sufficient capacity to treat that 
water. You have given those commitments to me personally.
    Will you please reaffirm the Bureau's commitments in that regard 
for the full committee today?
    Answer. Reclamation has agreed to operate and maintain the 
treatment plant, relief wells, pump and pipeline, and treat the water 
delivered as the result of EPA's short-term actions up to the 
available, existing capacity of the treatment plant, beyond the amount 
historically discharged from the tunnel. Reclamation has submitted 
legislative language to the Congress via a letter to the Committee in 
2008 to permanently provide this authority.
    Question 3. Under current law, does the Bureau have the necessary 
authority and funding to put in place a long-term solution for the 
LMDT?
    Answer. P.L. 102-575 (1992) authorized Reclamation to build the 
treatment plant but specified that the plant ``shall be constructed to 
treat the quantity and quality of effluent historically discharged'' 
from the tunnel. Reclamation is, however, treating water beyond this 
historical amount. For this reason, Reclamation has already submitted 
legislative language to the Congress to permanently provide the 
authority to treat this additional water.
    Question 4. My legislation (S. 2680) is intended to provide the 
Bureau with the necessary Congressional authority and funding to 
implement the remedy for OU6.
     Do you agree that it would accomplish those purposes? If not, why 
not?
    Answer. Yes, S. 2680 would provide Reclamation with authority to 
implement the OU6 Record of Decision. However, in view of the findings 
from Reclamation's recently completed LMDT Risk Assessment, as well as 
progress from EPA actions undertaken this year, the Administration does 
not believe that enactment of S. 2680 would be an appropriate use of 
Reclamation's limited resources. The EPA relief well is completed and 
water is being pumped from the LMDT, and water levels in the Leadville 
area are declining. There is no imminent public safety or environmental 
hazard posed by the current condition of the LMDT. The Department has 
proposed legislative language to Congress regarding the authorities 
needed to treat additional mine pool water, and we will continue to 
work with EPA, the State of Colorado and Lake County to find the best 
long-term outcome for the citizens of Leadville.
    Question 5. In your testimony, you say the Bureau does not know 
what kind of a long-term solution is needed, and that you want to wait 
for the risk assessment due in June. But the remedy selected by EPA in 
2003 includes:

  <bullet> construction of a permanent bulkhead in the LMDT; and
  <bullet> dewatering of the mine pool and delivery of the pumped water 
        to BOR's treatment plant via a buried pipeline

    When is BOR going to step up to the plate and take responsibility 
for repairing and maintaining the structural integrity of the LMDT, to 
prevent tunnel failure?
    Answer. Reclamation believes the LMDT is in no danger of an 
imminent tunnel failure.
    Question 6. Does BOR dispute that it is necessary to install a 
permanent plug?
    Answer. Reclamation is now evaluating with EPA, new hydrologic and 
water quality data obtained since the recent installation and pumping 
of the new relief well, to determine potential additional actions that 
may be appropriate for the long-term stability and management of the 
LMDT.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

            Statement of Gayla Brumfield, Mayor, Clovis, NM
    Chairman Johnson, Senator Bingaman, Senator Domenici and Members of 
the Committee, my name is Gayla Brumfield and I am Mayor of the City of 
Clovis, New Mexico. The City of Clovis with a population of 32,667 is a 
member of the Eastern New Mexico Rural Water Authority and serves as 
the fiscal agent for the project.
    I want to thank Senators Bingaman and Domenici for introducing 
Senate Bill 2814 and leading the effort in Congress to help meet 
eastern New Mexico's future water needs by authorizing the federal 
government to build a pipeline that will carry water to several 
communities in Curry and Roosevelt counties. This legislation is vital 
to the future of Clovis and eastern New Mexico.
    The Eastern NM Rural Water System (ENMRWS) is critical to our 
ongoing efforts to strengthen and diversify our economic base in the 
region. In addition to being a state leader in agricultural production, 
Clovis and Curry County are host to a number of growing industries, 
including ethanol refining, food processing and railway commerce. We 
are proud to be the home of Cannon Air Force Base, which plays a vital 
role in protecting our nation's interests at home and abroad.
    Groundwater resources currently supply municipal water in eastern 
New Mexico, and long-term water supply availability and sustainability 
are concerns for many communities. These concerns stem from the fact 
that our groundwater source, the Ogallala aquifer, is rapidly 
approaching its limited supply of available water. The ENMRWS will 
address our future water shortage issues by providing a much-needed 
mechanism for sustainable surface water delivery to Curry and Roosevelt 
counties.
    We have been able to attract a great deal of new business to our 
area, though some companies have recently expressed concerns about the 
sustainability and availability of our water supply. It is becoming 
evident that bold steps will be required on the water issue to ensure 
our region's standing as a potential site for business relocation and 
growth. The ENMRWS is the type of bold step that is needed. While the 
cost of its construction will be considerable, its projected delivery 
of potable surface water to Curry and Roosevelt counties will 
undoubtedly provide the resources necessary for our region to remain 
economically viable and prosperous. All of the alternatives available 
to us are more expensive than the ENMRWS and are not sustainable.
    The Clovis community always unites to support programs that are 
vital to the well-being and future of the area. The Ute Water Pipeline 
Project represents the best alternative for providing a sustainable 
water supply well into the next century.
    After 40+ years of research, planning and design, we are now ready 
to take the next big step towards making the Project a reality. If we 
fail to act, the result could mean significant losses to our existing 
economic base and lost opportunities for future economic development.
    Senate Bill 2814 represents the important next step toward 
addressing the overarching issue of water in the arid West and we look 
forward to working with Congress and the United States Bureau of 
Reclamation to secure its passage.
    Thank you again for the opportunity to present our request at this 
important hearing.
                                 ______
                                 
 Statement of Greg Nordbak, Chairman, San Gabriel Basin Water Quality 
                         Authority, on H.R. 123
    Mister Chairman, Committee members, and staff, my name is Greg 
Nordbak, and I am the Chairman of the Board of Directors of the San 
Gabriel Basin Water Quality Authority. We very much appreciate you 
holding this hearing on H.R. 123, which would authorize additional 
federal funding for the San Gabriel Basin Restoration Fund.
    The San Gabriel Basin Water Quality Authority was created and 
authorized by the California State Legislature in 1993 to address the 
critical need for coordinated groundwater cleanup programs in the San 
Gabriel Basin after harmful amounts of contaminants were detected in 
the region's groundwater. The Water Quality Authority is committed to 
protecting public health and safety by prioritizing, facilitating, and 
coordinating groundwater cleanup and supply programs with local water 
suppliers and the U.S. EPA, while minimizing local financial and 
economic impacts, including impacts on consumers who rely on local 
groundwater supplies from the San Gabriel Groundwater Basin.
    The San Gabriel Basin underlies 167 square miles of the San Gabriel 
Valley. The San Gabriel Basin holds hundreds of thousands of acre-feet 
of local, renewable, public drinking water supplies. In fact, the San 
Gabriel Basin is capable of providing a reliable, local drinking water 
supply for the more than one million people who reside and work in the 
San Gabriel Valley--as long as we are able to implement effective 
groundwater cleanup to remove the contaminants.
    In December of 2000, thanks to the leadership of Senator Feinstein, 
Representative Dreier, Representative Napolitano and the other members 
of the San Gabriel Valley Congressional Delegation, Congress enacted 
the San Gabriel Basin Water Quality Initiative. Senator Feinstein and 
her colleagues moved to establish the Restoration Fund as a means of 
expediting the remediation of groundwater contamination caused by 
industrial solvents and rocket fuel contaminants such as perchlorate. 
The Restoration Fund, which is administered cooperatively by the Water 
Quality Authority and the Bureau of Reclamation, uses Federal and non-
Federal monies contributed to the San Gabriel Restoration Fund to 
design, construct, and operate facilities to contain and treat the 
spreading groundwater contamination in the San Gabriel and Central 
Groundwater Basins.
    The Water Quality Authority has benefited tremendously from the 
Restoration Fund by enabling us to continue the collaborative approach 
of merging cleanup with water supply and allowing us to leverage 
Federal dollars and local funding to bring all parties to the table and 
work in a manner that addresses multiple issues at the same time. The 
Restoration Fund has provided an incentive for the Responsible Parties 
in the San Gabriel Basin to participate in the cleanup and to reach 
funding agreements with affected water suppliers. It has also allowed 
the Water Quality Authority and the affected water suppliers to fund 
projects even before Responsible Parties could be identified or when 
Responsible Parties are no longer viable, cannot be located, or are 
recalcitrant. Without this Federal funding the likelihood for 
additional well closures would be great, leaving only the option of 
turning to costly and already overburdened imported water supplies.
    Since the Restoration Fund was made available to the Water Quality 
Authority, we have received $74.5 million through the Bureau of 
Reclamation's construction account. The Water Quality Authority has 
allocated the use of these funds to 35 projects throughout the Basin, 
27 of which have been completed, with another 8 currently under 
construction. To date these efforts have helped to remove over 21 tons 
of contaminants, and treated nearly 350,000 acre-feet of groundwater.
    For example, with the completion of four major groundwater cleanup 
projects developed and implemented through the Water Quality Authority 
with the cooperation of local water suppliers, participating 
Responsible Parties, and the U.S. EPA, we remove perchlorate and other 
toxic chemicals from groundwater at the rate of 24,000 gallons per 
minute on a 24/7 year-round basis. These projects will continue to 
provide safe drinking water to residents and businesses in Baldwin 
Park, La Puente, West Covina, the City of Industry, and surrounding 
areas for decades to come without burdening the public with higher 
water bills. Even so, a great deal more effort and cleanup is still 
required.
    Early last year, in recognition of the tremendous success of the 
Restoration Fund and the need to continue the local cleanup efforts, 
Congressman David Dreier and his colleagues in the San Gabriel Valley 
Congressional Delegation introduced HR 123. This legislation would 
increase the authorization ceiling on the Restoration Fund by $62.5 
million from its current level of $85 million. This additional funding 
would allow us to continue the progress we've made and avoid costly 
litigation that only serves to slow down the cleanup.
    Without future Federal assistance for the treatment facilities, 
local water suppliers would be forced to shut down water wells due to 
migrating contamination. The closures would force purveyors to become 
reliant on imported water, which would come mainly from the Colorado 
River and the State Water Project. Water from wells in the San Gabriel 
Valley is relatively inexpensive to pump and supply to homes and 
businesses in comparison to imported supplies from the Colorado River 
or northern California. The current price for an acre-foot of treated, 
ready-to-drink Colorado River water in the high-demand summer period is 
$549, subject, of course, to its availability. The typical cost to pump 
and treat an acre-foot of local San Gabriel Basin groundwater is $65 to 
$250 depending on the levels and types of contamination being treated. 
And as you may know, California's water allotment from the Colorado 
River is being cut back, and deliveries from the State Water Project 
are seriously restricted. This would severely impair our ability to 
provide water for the residents and businesses in the San Gabriel 
Basin. With your help we have the opportunity today to make certain 
these closures don't occur, while ensuring our water suppliers have a 
safe, abundant, and sustainable water supply to draw from in the years 
to come.
    The Federal assistance provided by the Restoration Fund allows us 
to carry out our mission of facilitating groundwater cleanup and 
providing a clean, reliable, drinking water supply for the over one 
million residents of the San Gabriel Basin. Although the Administration 
has failed to budget for the San Gabriel Basin Restoration Fund since 
its enactment, it is vital that we continue our efforts to restore the 
San Gabriel Basin aquifer. Removing harmful contaminants from our 
communities' groundwater supply should remain a priority of local, 
state and federal officials. A continued commitment by all parties will 
allow our local water suppliers to better meet the needs of local 
residents at affordable rates and make certain that the Basin is able 
to meet the water supply needs of future generations. Once we are able 
to remediate the contamination, it is our belief that the local 
groundwater basin will be able to meet all of the San Gabriel Valley's 
water needs.
    Thank you for allowing me to testify on the successes and on-going 
progress of the cleanup of the San Gabriel Basin today and the 
importance of HR 123 to our future.
                                 ______
                                 
 Statement of the Lake County Colorado Board of County Commissioners, 
                               on S. 2680
    The Lake County Board of County Commissioners in Lake County, 
Colorado would like to thank the Subcommittee for the opportunity to 
present Lake County's views on S. 2680, known as ``The Leadville Mine 
Drainage Tunnel Remediation Act of 2008.''
    On behalf of Lake County and its citizens, we wish to express 
support for this bill. We also wish to impress upon you today the 
importance of a comprehensive federal solution to reduce the threat 
posed by the growing mine pool associated with blockages behind the 
Leadville Mine Drainage Tunnel. Such a solution is critical to protect 
the local residents of Lake County as well as the eco-system of the 
Arkansas River and the drinking water supply of the Arkansas Valley 
Watershed.
    Leadville and its historic mining district sit in the highest 
valley of the Arkansas River in the heart of the Rocky Mountains. 
Leadville is the site of mining activities that have produced gold, 
silver, lead and zinc. Mining began in the Leadville area in 1859 when 
prospectors working the channels of the Arkansas River tributaries 
discovered gold at the mouth of California Gulch.
    Later, miners tunneled deep into the mountains resulting in 
extensive development of underground mines in the mining district. 
Eventually most of these mines were abandoned. The U.S. Bureau of Mines 
began driving the Leadville Mine Drainage Tunnel in 1943 to facilitate 
mine drainage in order for metals such as lead, zinc and manganese to 
be extracted for the World War II effort.
    In 1959, the Bureau of Mines transferred the LMDT to the Bureau of 
Reclamation. Since that time, the Bureau of Reclamation has declined to 
take responsibility for the upkeep and repair of the tunnel. It has 
only accepted responsibility for treating the contaminated water 
flowing out of the mine pool and into the blocked tunnel through 
construction of a water treatment plant in the late 1970's, built after 
a Sierra Club lawsuit against the Bureau of Reclamation.
    The lack of repair and upkeep of the tunnel have lead to a series 
of what appear to be collapses deep within the LMDT over time that have 
brought us to the situation we face today. Groundwater levels in the 
mining district are now at historic highs and blockages in the tunnel 
have contributed to the elevated mine pool water estimated now to be 
over one billion gallons.
    Lake County has experienced snow pack levels this winter of more 
than 146% of normal. With spring run off set to break loose at any 
moment, a large volume of water is about to be added to a mine pool 
already bursting at the seams. This historic build up of water behind 
the blockages in the tunnel presents a serious threat to the citizens 
of Lake County, public and private property, local domestic water 
supply, and the water quality of the Arkansas River Basin. 
Approximately 750,000 citizens in Colorado rely on the Arkansas River 
water quality for their drinking water supply.
    Based upon this threat, the Lake County Board of County 
Commissioners declared a State of Emergency on February 13, 2008. Since 
the Emergency Declaration, both the Environmental Protection Agency and 
the Bureau of Reclamation have quickly moved toward actions to begin 
dewatering the mine pool by pumping water at the Gaw Shaft. A pipeline 
is under construction by the EPA to by-pass the blockages in the LMDT 
and reconnect the mine pool to the LMDT treatment plant. However, this 
is only a temporary solution to the mine pool problem. A comprehensive 
long-term solution is needed to solve this problem once and for all.
    The solution is a multi-pronged approach that includes, preventing 
clean surface water from infiltrating the mine pool and implementation 
of the California Gulch Superfund Site Operable Unit 6 remedy. To date, 
however, both EPA and the Bureau of Reclamation will not take 
responsibility for the long-term fix of the mine pool problem. For 
decades, Lake County has experienced frustration with the inability of 
these agencies to sort out responsibilities. Both agencies continue to 
say to the long-term fix, ``This is not my job!''
    In fact, we are still basically in the same place with the Bureau 
of Reclamation as we were when previous hearings were held on Capitol 
Hill in June 1976 to discuss a bill to authorize stabilization and 
rehabilitation of the Leadville Mine Drainage Tunnel. We refer you to 
the transcript of the Hearing Before the Subcommittee on Energy 
Research and Water Resources of the Committee on Interior and Insular 
Affairs United States Senate on S. 3394, June 7, 1976. A copy of the 
transcript* from those hearings is attached as a supplement to this 
written statement.
---------------------------------------------------------------------------
    * Document has been retained in subcommittee files.
---------------------------------------------------------------------------
    At that time, the Assistant Commissioner of the Bureau of 
Reclamation, Department of the Interior, testified that ``As stated in 
the Department's letter of June 7, 1976 to the committee, the 
Department recommends that the committee defer action on the bill at 
this time pending further review by the Department . . . of various 
alternative solutions.'' The Assistant Commissioner went on to say, 
``Appropriate action needs to be taken with respect to the public 
safety and water quality problems associated with the tunnel. As 
already indicated, the administration has not completed its review of 
the available data, and, therefore, does not yet have a position as to 
what action should be taken.''
    During these same hearings in 1976, the Colorado Department of 
Natural Resources submitted testimony regarding the tunnel, ``Finally, 
there is the ever present danger of the loose blockage material being 
breached by water which is pushing against it at a pressure of more 
than two tons per square foot. This is a serious threat to property and 
human life, particularly because of the mobile home park adjacent to 
the tunnel portal.'' Yet, here we are today still facing basically the 
same threat as we were in 1976, with the added years of additional 
tunnel deterioration. Yet again, the Bureau of Reclamation still wants 
to study the problem.
    We note that during the April 24, 2008 hearing on S. 2680 before 
this subcommittee, Reclamation Commissioner Robert W. Johnson testified 
that ``The Administration cannot support S. 2680 at present because we 
have not yet determined what further actions are needed to provide a 
long-term solution.'' Mr. Johnson further states ``Reclamation is 
working to assess the threat level to public safety through a detailed 
risk analysis.''
    Yet, the Bureau of Reclamation has nearly 40 years of studies in 
which over and over its own experts have concluded that if water were 
allowed to back up in the LMDT three things could happen: 1) 
catastrophic blowout, 2) contamination of public drinking water 
supplies, or 3) mine pool groundwater could report to California Gulch 
in turn contaminating the Arkansas River. We do not understand how 
further studies are justified to again delay legislation that will 
finally lead to a permanent fix after all this time.
    The U.S. Environmental Protection Agency has recently studied this 
situation in-depth and determined that implementation of the remedy for 
Operable Unit 6 of the California Gulch Superfund site is an important 
part of the long-term solution. The Colorado Department of Public 
Health and Environment testified at the April 24, 2008 hearing about 
the importance of the OU6 remedy as a long-term solution necessary to 
fix the mine pool problem.
    S. 2680 presents an opportunity for Congress to finally tell the 
Bureau of Reclamation that it is their job to maintain the tunnel and 
to implement the remedy for Operable Unit 6. S. 2680 provides the 
Bureau with the necessary authority and funding to participate in the 
implementation of the Operable Unit 6 remedy by treating water behind 
the blockage. It also directs the Bureau of Reclamation to take 
necessary steps to maintain the LMDT in a manner that protects human 
health and the environment.
    Lake County and its citizens support the intent of this bill. We 
have high hopes that, finally, the question of which agency bears the 
responsibility to address the rising mine pool problem in Lake County 
will be answered by Congress. By directing the Bureau of Reclamation to 
take responsibility and action, the people of Lake County and the 
downstream Arkansas River basin water users will not have to bear a 
terrible price for the inability of federal government agencies to take 
responsibility to fix this serious problem.
    We appreciate the opportunity to present the local community 
perspective about this very important matter.
                                 ______
                                 
  Joint Statement of Jerry Sanders, Mayor, City of San Diego, and R. 
  Mitchel Beauchamp, Board Chairperson, Sweetwater Authority, on H.R. 
                                  1803
    Chairman Johnson, Ranking Member Corker, and members of the 
Subcommittee, thank you for the opportunity to submit joint written 
testimony for the record for the legislative hearing on H.R. 1803, the 
San Diego Water Storage and Efficiency Act of 2007. As the potential 
local partners for the proposed four-reservoir intertie project in the 
San Diego region, we strongly support this legislation authorizing a 
Federal feasibility study for the project through the Bureau of 
Reclamation.
    The City of San Diego Water Department (SDWD) provides potable 
water to more than 1.3 million residents with an average of 210 million 
gallons of treated and delivered water per day. With a service 
territory of over 403 square miles, the SDWD operates a system that 
includes more than 3,460 miles of pipeline in the potable distribution 
system and management of nine raw-water reservoirs with total storage 
capacity of 415,000 acrefeet.\1\ Water is pumped across 104 different 
pressure zones with the assistance of 47 pump stations. SDWD has 
274,000 metered service connections. Treated water is also provided to 
the City of Del Mar, and the California-American Water Company which 
delivers water to Coronado, Imperial Beach, and portions of southern 
San Diego.
---------------------------------------------------------------------------
    \1\ An acre-foot of water is equal to 325,851 gallons and is 
approximately equal to the amount of water used by two Southern 
California families in a year.
---------------------------------------------------------------------------
    The Sweetwater Authority is a joint powers, publicly owned, water 
agency that provides drinking water to approximately 177,000 people in 
National City, Bonita and portions of Chula Vista, California. 
Sweetwater Authority owns and operates Loveland Reservoir, Sweetwater 
Reservoir, a brackish groundwater desalination facility and deep 
freshwater wells. Water obtained in each of these areas is influenced 
by the 230-square-mile Sweetwater River Watershed, a land stretching 
from the Cleveland National Forest to San Diego Bay.
    Together, the City of San Diego and the Sweetwater Authority 
strongly support H.R. 1803, which would authorize the Bureau of 
Reclamation to conduct a study of the feasibility of an Intertie System 
in the San Diego region to improve water storage capabilities and water 
supply reliability. We are joined in this support by the Metropolitan 
Water District of Southern California, San Diego County Water 
Authority, and several other water districts.
    The history of the San Diego region includes an ongoing search for 
safe, reliable water supplies in a semi-arid climate. Our county 
typically imports 90 percent of its water from northern California and 
the Colorado River. For many years, the region has aggressively 
developed a diverse supply of local water to add reliability. This 
includes programs and projects to expand water conservation 
initiatives, increase the use of recycled water, investigate ocean 
water desalination, ``conjunctive use'' activities that store water in 
underground aquifers for later use, and seeking regionally important 
agriculture-to-urban water transfers. These activities are significant 
to improving water supply reliability of both the City of San Diego and 
Southern California as a whole.
    The prospect of long-term drought in Southern California is of 
greater concern today than ever before. Last season was the driest in 
California since record keeping was established, and the Sierra Nevada 
snow-pack was at 30% of normal content. While this season's snowpack 
has improved, the region anticipates water delivery cutbacks of 30% or 
more due to recent court-ordered mandates from the San Francisco / San 
Joaquin Bay-Delta to protect the endangered Delta Smelt and Chinook 
Salmon during spawning season.
    Compounding Southern California's water supply outlook are the 
anticipated impacts of climate change. The California Department of 
Water Resources (DWR) recently published a report\2\ on the matter and 
concluded that snowpack in the Sierra Nevada mountains will gradually 
melt earlier each year and additional storage is needed in order to 
capture the melted snow. Otherwise, California is at risk of losing 
hundreds of thousands of acre-feet of potable water supplies.
---------------------------------------------------------------------------
    \2\ July 2006, California Department of Water Resources, ``Progress 
on Incorporating Climate Change into Management of California's Water 
Resources. http://baydeltaoffice.water.ca.gov/climatechange.cfm
---------------------------------------------------------------------------
    The San Diego region has few groundwater basins as compared to 
other regions in Southern California. As such, the region has invested 
significantly in surface storage in order to capture and store as much 
rainfall as possible. Many of the region's reservoirs have never been 
connected to the imported water system nor have undersized conveyance 
connections. Even with aggressive water recycling and conservation 
programs, the region is approximately 90% dependent on imported water 
from the Colorado River and State Water Project to meet current 
demands.
    The Intertie System envisioned by H.R. 1803 has the potential to 
significantly enhance these local efforts by providing new drinking 
water storage to the San Diego region utilizing existing infrastructure 
with minimal, if any, negative impacts to the environment or private 
property, in an economically efficient manner.
                            intertie system
    The feasibility study authorized by H.R. 1803 would advance a 
project to tie together four existing water storage facilities--San 
Vicente, El Capitan, Loveland and Murray Reservoirs--to increase the 
capability to store and manage imported water, making the region more 
resistant to drought and water delivery service interruptions. (Please 
see the attached Figure.)*
---------------------------------------------------------------------------
    * Figure has been retained in subcommittee files.
---------------------------------------------------------------------------
    Currently, some reservoirs in the proposed system are significantly 
underutilized. Loveland Reservoir receives only local runoff from the 
Sweetwater River. El Capitan Reservoir currently receives local runoff 
and imported water, however due to pipeline limitations the full 
capacity of the reservoir cannot be utilized. Local rainfall in the 
watersheds to these reservoirs is inadequate to fill the reservoirs 
except on an infrequent basis, typically only twice in ten years. This 
``unused'' capacity is a significant water storage volume that could be 
put to beneficial use if imported water was piped to the reservoirs.
    We estimate that the increase in storage capacity from the Intertie 
System to be about 100,000 acre-feet. This increase in capacity would 
not occur by the laborious, expensive, and difficult process of siting 
of new reservoirs, but by increasing the ability to annually store 
imported water from the Colorado River and/or the State Water Project 
in existing facilities. Each year, more winter water could be stored 
for summer use. In addition, storage could be designated for multiple 
year carry-over to reduce exposures to drought. This improved 
capability to store imported water serves a Federal interest by 
reducing impacts on environmentally sensitive resources and the 
importation of water during times of relative scarcity.
    The Intertie System would not create new water supply, but rather 
provides the opportunity to move and store water during times of 
relative excess or periods when environmentally appropriate. It would 
not increase the amount of water imported, only the time of year that 
importation occurs. At the current time, for example, both the SDWD and 
Sweetwater Authority have agreements with the Metropolitan Water 
District of Southern California and San Diego County Water Authority to 
place water in storage at Sweetwater Reservoir during ``offpeak'' 
months for use during summer months when demand is highest. This 
approach improves the efficiency and effectiveness of existing 
infrastructure but can only be used when reservoirs are connected to 
the imported water system.
                description of reservoirs to be enhanced
    San Vicente Reservoir: the start of the Intertie System, is owned 
and operated by the City of San Diego and is currently capable of 
storing up to 90,230 acre-feet of water. A current project sponsored by 
the San Diego County Water Authority to raise the San Vicente Dam by 
100 feet would provide an additional capacity to supplement emergency 
storage in the region. This action supports the logic of making the 
reservoir a part of the Intertie System.
    El Capitan Reservoir: is the destination of the First Link of the 
Intertie System. Built in 1934, it is located about six miles north of 
Loveland and has a capacity of 112,000 acrefeet of water. This isolated 
facility which receives only local seasonal runoff and limited imported 
water has filled to capacity only 11 times in 68 years.
    Loveland Reservoir: at the end of the Second Link, is located in 
the foothills of the Cuyamaca Mountains, 21 miles upstream of the San 
Diego Bay. Built in 1945, Loveland Reservoir impounds water from the 
Sweetwater River and is capable of storing 26,000 acre-feet. Loveland 
is also filled by local runoff only, and in the 57 years since it was 
constructed has filled to capacity only 12 times.
    Murray Reservoir: the destination of Link Three, is comparatively 
small at 4,800-acre feet capacity, but is the site of the Alvarado 
Water Treatment Plant. Water from Alvarado serves a large central 
portion of San Diego, the City of Coronado and all of Navy Military 
Bases in the City of San Diego's service territory.
                            project benefits
    Although these four reservoirs are owned and operated by the City 
of San Diego and the Sweetwater Authority, the benefits of this project 
are important to the entire region. In the event of drought, or any 
other event that would interrupt the ability of the region to import 
drinking water, the additional storage provided by this project could 
supply the constituents of other purveyors in the region, including the 
Helix, Padre Dam and Otay Water Districts. Increasing water supply 
reliability in San Diego also benefits the Southern California region 
as a whole because it reduces the burden on already-stressed water 
supplies for others.
    Water agencies in California have long recognized there is a 
limited supply of water for an increasing population, and have 
encouraged the development of local sources of supply to ease impacts 
on the Bay-Delta and the Colorado River. Connecting the San Vicente, El 
Capitan, Loveland and Murray Reservoirs would allow for an efficient 
use of existing reservoirs, increase the region's water supply 
reliability, minimize environmental impacts at both the water's source 
and in our region, increase water storage capability, and increase the 
ability to efficiently provide water at the lowest possible cost.
    As one example of how the project will help us better manage local 
water resources, we would like to highlight that when the Lake Hodges 
Dam spilled in 2005, the City of San Diego lost 68,000 acre-feet of 
potable water supplies. Since Hodges is linked to the regional system, 
a significant portion of that water could have been utilized locally if 
the Intertie System were in place by allowing transfer of water to 
other reservoirs as the water level at Hodges began to rise.
    The improved ability to capture and store water, whether local or 
imported, would also enhance the protection of the Bay-Delta. It is 
simply much better to store this water when it is plentiful than when 
water shortages already cause increased pressure on the sensitive Delta 
environment.
    The project has the potential of benefiting approximately 1.5 
million residents in San Diego County, and military bases in San Diego. 
In addition, the Intertie System would complement California's 2005 
Water Plan, which promotes the implementation of regional integrated 
management of California's water to promote the reliability of water 
supplies by maximizing the use of available storage in ways that 
protect the environment.
    The City of San Diego and Sweetwater Authority are prepared to 
partner with the Bureau of Reclamation to conduct the feasibility study 
of the Intertie System. This study would help document the costs and 
the benefits of constructing the project, as well as identifying design 
and implementation issues that would need to be addressed. Connecting 
the San Vicente, El Capitan, Loveland and Murray Reservoirs would 
benefit the San Diego region and our military by more efficiently using 
existing reservoirs. It would create an enhanced and integrated 
reservoir system with the result of increased water supply reliability. 
The benefits of increased water storage capability without negative 
impacts possibly associated with new reservoirs or new storage capacity 
would be an especially wise investment in arid Southern California 
significantly dependent on imported water supplies.
    We appreciate the opportunity to present this testimony and for the 
Subcommittee's consideration of H.R. 1803. This concludes our joint 
statement.
                                 ______
                                 
    Statement of John D' Antonio Jr., New Mexico State Engineer and 
  Secretary of the New Mexico Interstate Stream Commission, on S. 2814
    Chairman Johnson, Senator Bingaman and Senator Domenici, I am 
pleased to offer testimony for the record in support of S. 2814, the 
Eastern New Mexico Rural Water System Authorization Act. I am the New 
Mexico State Engineer and the Secretary of the New Mexico Interstate 
Stream Commission. Ute Reservoir is a valuable asset of the State of 
New Mexico and the Eastern New Mexico Rural Water System Project is an 
important water supply project for eastern New Mexico communities. The 
State of New Mexico supports the Eastern New Mexico Rural Water System 
Project and has invested funding and staff support toward the planning 
for this project for several years.
    Anticipating the potential water needs in eastern New Mexico and in 
the interest of maximizing New Mexico's use of water from the Canadian 
River stream system, the New Mexico Interstate Stream Commission 
completed construction of Ute Dam and Reservoir in 1962 at a present 
day cost of over $140 million. The reservoir was constructed for the 
specific purpose of providing a sustainable drinking water supply to 
the people of eastern New Mexico. The Interstate Stream Commission owns 
and operates the dam and reservoir for the benefit of New Mexico. 
Pursuant to the Canadian River Compact and subject to the requirements 
of the Stipulated Judgment and Decree entered by the U.S. Supreme Court 
in Oklahoma v. New Mexico, 501 U.S. 126 (1993), New Mexico is allowed 
to store up to 200,000 acre feet of water for use in New Mexico from 
the Canadian River system below Conchas dam. Ute Reservoir stores 
approximately 200,000 acre-feet of water pursuant to a permit issued by 
the State Engineer in 1962. New Mexico is committed to maintaining the 
safety of Ute Dam and beneficially utilizing the waters within Ute 
Reservoir.
    In 1987, the communities of Clovis, Tucumcari, Portales, San Jon, 
Logan, Texico, Melrose, Elida and Grady and the Counties of Curry, 
Roosevelt and Quay, entered into a Joint Powers Agreement forming the 
Ute Water Commission. In 1997, the Interstate Stream Commission entered 
into a contract with the Ute Water Commission to sell 24,000 acre-feet 
per year of water from Ute Reservoir to the Ute Water Commission's 
member communities. Since that time, the Ute Water Commission has paid 
an option payment of $36,000 per year to the Interstate Stream 
Commission to preserve its contractual allocation of water.
    The Eastern New Mexico Rural Water Authority, (the Authority), 
members of Clovis, Portales, Texico, Melrose, Elida and Grady and Curry 
and Roosevelt Counties should be commended for the efforts they have 
put forth over the last few years in cooperation with the Interstate 
Stream Commission toward advancing the Eastern New Mexico Rural Water 
System Project. The development and conveyance of Ute Reservoir water 
to eastern New Mexico communities is critical to addressing the future 
water needs of those communities. Most of eastern New Mexico now relies 
on non-renewable ground water from the Entrada and Southern High 
Plains/Ogallala aquifers. Consistent groundwater pumping in the area 
has caused water level declines that have exceeded 100 feet. At current 
pumping rates, a recent study by CH2M Hill indicates the remaining 
saturated thickness of the aquifer near Clovis and Portales will not 
sustain the existing demand for more than 40 years, much less meet 
additional demand for future development. The water quality in both 
aquifers is also deteriorating.
    The rapid depletion and deterioration of these aquifers places the 
economic viability of eastern New Mexico communities at risk. In my 
capacity as State Engineer, I have been asked about the availability of 
water rights for economic development projects in eastern New Mexico. 
On recent occasions, companies have been unwilling to locate in the 
area because of a lack of a sustainable water supply. Ute Reservoir 
provides the only reliable source of renewable water in the region, and 
the pipeline project is necessary to enable communities to utilize that 
water resource.
    Much deeper, brackish aquifers have been considered--and rejected--
as potential, future water supply sources. A study by the engineering 
firm, CH2M Hill, in 2005, determined that the brackish water aquifers 
in the project area are up to 1000 feet deep with low ground water 
yields. The conclusion of this investigation was that reliable, cost-
effective treatment and development of these saline aquifers is decades 
away and, in any event, would not provide a renewable water supply.
    In 2003, the Authority prepared a Conceptual Design Report of the 
pipeline project, and in December 2003, the ISC obtained an independent 
peer review of that report. In 2003, the ISC also completed a 
sedimentation study of the reservoir indicating that the future 
capacity of the reservoir will allow the pipeline project to be viable 
for at least eighty years. In December 2006, the Authority completed a 
Preliminary Engineering Report for the project. The Interstate Stream 
Commission and the Bureau of Reclamation reviewed the Preliminary 
Engineering Report and concurred that the pipeline project was the most 
economic, environmentally benign, and technologically reasonable 
solution to eastern New Mexico's water supply problems. Since 2006, the 
Interstate Stream Commission staff has been working with the Bureau of 
Reclamation and the Authority to continue progress on the project.
    Since 2002, the State of New Mexico has provided funding to the 
Eastern New Mexico Rural Water System project in excess of $11 million. 
Most recently, on April 23, 2008, the New Mexico Water Trust Board 
allocated $4,525,828 to the Authority that will be used to complete the 
30% design phase for the project and move into the final design and 
construction phases. New Mexico supports the cost-share provisions in 
S.2814 and concurrent with federal expenditures, New Mexico will 
support additional state and other non-federal funding sources to 
ensure that the project can be completed in a timely manner. New Mexico 
commends the local communities for their work developing plans to 
finance the local obligations.
    In addition to work relating to evaluation of the engineering 
aspects of the project, work has begun on an Environmental Assessment 
for the project that builds off of preliminary ecological surveys 
developed by the Interstate Stream Commission. The initial studies 
revealed no significant environmental concerns, and the Interstate 
Stream Commission is confident that progress on the current activities 
will continue expeditiously in order that the Bureau of Reclamation can 
complete the Environmental Assessment by February 2009. In addition, in 
2006, the Interstate Stream Commission joined with the State of Texas, 
the US Fish and Wildlife Service, and other stakeholders in an Arkansas 
River Shiner Management Plan for the reach of the Canadian River from 
Ute Reservoir in New Mexico downstream to Lake Meredith in the Texas 
panhandle. This plan will provide benefits to the Arkansas River Shiner 
and has allowed the US Fish and Wildlife Service to exclude certain 
areas of land from a designation of critical habitat for the fish in 
the two states. New Mexico supports such continued, cooperative 
efforts.
    New Mexico also supports the continued efforts toward conservation 
and the reuse programs in the area, and commends the local communities 
on their progress. But, even with additional conservation, completion 
of this project is necessary to provide the eastern New Mexico 
communities in Curry and Roosevelt counties a reliable and renewable 
source of water to support economic development and current and future 
needs.
    In conclusion, the State of New Mexico, the Office of the State 
Engineer, and the Interstate Stream Commission support S.2814 and the 
development of the Eastern New Mexico Rural Water System and request 
that you fully support and fund this worthy project, without which we 
will not be able to fully meet the present and future water needs of 
the citizens of eastern New Mexico.
                                 ______
                                 
                  Statement of Taos Pueblo, on S. 2805
    Taos Pueblo is pleased to submit this statement in support of the 
Rio Grande Pueblo Irrigation Infrastructure Improvement Act, S. 2805. 
We commend Senator Jeff Bingaman for his leadership and vision in 
sponsoring this legislation.
    Taos Pueblo has a centuries-old tradition and culture of 
agriculture and irrigation as attested by early Spanish chronicles, 
archeological evidence and continuing use of the traditional irrigation 
ditches from both the Bah-bah-til bah-ahna or Rio Lucero, Tuahtah-bah-
ahna or Rio Pueblo, and other creeks and springs. There are more than 
5,713 acres of historically irrigated lands and more than 5,220 acres 
of pre-historically irrigated lands at Taos Pueblo.
    There are 24 ditches totaling approximately 100 miles of length on 
Taos Pueblo. Traditional ditches, in use for centuries, are hand-dug 
earthen conveyance systems that are cleaned by hand with community 
labor. In more recent times, some necessary mechanized rehabilitation 
has been done on some of these ditches.
    In later years, more ``modern'' irrigation ditches and systems were 
constructed by the federal government with good intentions, but without 
provision of the resources necessary for the operation, maintenance, 
rehabilitation and repair of these facilities. As a result, many of 
these modern ditches and structures fell into disrepair. Some diversion 
structures were replaced over the years, but without the necessary 
resources they, too, fell into disrepair. The deterioration of this 
infrastructure has been exacerbated by ash and debris-laden runoff 
following the 2003 Encebado Fire.
    The traditional diversions constructed of rock, brush and logs, are 
referred to as ``non-engineered diversion structures'' in the Pueblo 
Irrigation Facilities Rehabilitation Report prepared jointly by the 
Bureau of Indian Affairs and the Bureau of Reclamation in 2000. As 
described in the Congressional findings for S. 2805, this report 
identified a serious need for the rehabilitation and repair of 
irrigation infrastructure of the Rio Grande Pueblos. The report relies 
heavily on investigation of infrastructure on Taos Pueblo, as well as 
several other Pueblos, to document the problems requiring federal 
assistance:

          Non-engineered diversion structures are either rock-and-brush 
        structures or simple berms or ditches built across a river or 
        creek as shown in Photos 1 through 12 [of sites on Taos 
        Pueblo]. These structures are inefficient and unreliable. A 
        typical structure is constructed of tree branches and 6-inch to 
        18-inch size rocks placed across the full width of the creek 
        bed, usually at an angle to the flow. Sandbags, plywood boards, 
        or plastic sheet are used to plug gaps between larger rocks. 
        These diversions are highly unstable and easily wash out after 
        every spring runoff or thunderstorm event. Reconstruction is 
        necessary after each washout.

    Pueblo Irrigation Infrastructure Facilities Rehabilitation Report 
at 2.
    The 12 photos* referenced in the above discussion from the Report 
and the accompanying photo captions illustrate the problems at multiple 
sites on Taos Pueblo, including for example:
---------------------------------------------------------------------------
    * Photos have been retained in subcommittee files.

          Photo No. 1--Mirabal Acequia (Taos Pueblo) ``The structure 
        washes out after every spring runoff or summer thunderstorm.''
          Photo No. 2--Mirabal Acequia (Taos Pueblo) ``Ditch alignment 
        is . . . often plugged by sediment after moderate runoffs. A 
        permanent diversion structure is recommended.''
          Photo No. 3--Mexican Ditch (Taos Pueblo) ``Sediment and 
        debris deposit is evident downstream, making this a maintenance 
        intensive site. Construction of a permanent diversion is 
        recommended.''

    Other examples in the Report include Photo No. 13--Rio Lucero 
Diversion (Taos Pueblo). The description notes it is a ``Typical radial 
gate with deteriorated seals and severely abraded concrete crest'' and 
notes ``the severe leakage.'' More recent photos illustrating the 
condition of irrigation infrastructure at Taos Pueblo appear at the end 
of this statement.
    Although problems such as these have long been well-known and 
documented, repairs and rehabilitation under BIA Northern Pueblos 
Agency responsibility were not being done due to funding cutbacks. 
Funding in small amounts has been secured from BOR in recent years to 
do drought relief projects such as a well for stock water and headgate 
fabrication. However, these funds have been grossly insufficient. The 
funding situation has not improved since Taos Pueblo recently compacted 
for self-governance. Taos Pueblo's experience with funding for 
irrigation infrastructure rehabilitation as a self-governance tribe has 
been similar to the experience of Santa Clara Pueblo as reported by 
Santa Clara Governor Joseph Michael Chavarria in his testimony to the 
Subcommittee. Significant federal funding is needed to redress the long 
history of under-funding and neglect.
    This funding need must be weighed in the context of the fact that 
water is one of the most precious resources for Taos Pueblo and the 
other Rio Grande Pueblos. Taos Pueblo is blessed with a homeland at the 
headwaters of Bah-bah-til bah-ahna or Rio Lucero, and the Tuahtah-bah-
ahna or Rio Pueblo, and other creeks and springs. The centuries-old 
culture of ditch irrigation is, and will continue to be, critically 
important to the culture of Taos Pueblo that is recognized through our 
World Heritage Site designation. Repair and rehabilitation of the 
infrastructure to enable the Pueblo to continue these practices is 
critical. The Pueblo respectfully requests that Congress begin to 
redress this situation through enactment of the Rio Grande Pueblos 
Irrigation Infrastructure Improvements Act and appropriation of the 
necessary funds.
                                 ______
                                 
                                          Pueblo of Laguna,
                                           Laguna, NM, May 7, 2008.
Hon. Jeff Bingaman,
Chair, U.S. Senate, Energy and Natural Resources Committee, 304 Dirksen 
        Senate Building, Washington, DC.
RE: S. 2805 Rio Grande Pueblos Irrigation Infrastructure Improvement 
Act

    Dear Senator Bingaman: On behalf of the Pueblo of Laguna, I am 
writing to express the Pueblo's support for S. 2805, which you 
introduced in April. I am aware that Governor Michael Chavarria 
testified before the Subcommittee on Water and Power on April 22, 2008. 
We concur with the testimony provided by Governor Chavarria.
    The Pueblo of Laguna shares the concerns expressed by Governor 
Chavarria's testimony in that it is plagued with irrigation 
infrastructure problems in all its six villages, and always challenged 
by the lack of funding to address this issue. We have also been subject 
to a ``zero'' budget for Irrigation Maintenance in the BIA budget for 
our agency for years. The 2000 BIA/BOR Pueblo Irrigation Facilities 
Rehabilitation Report also identified numerous irrigation system 
repairs needed by the Pueblo of Laguna.
    Thanks again for your continued support of New Mexico Pueblos and 
our efforts to maintain our irrigation systems. We appreciate the 
efforts of Subcommittee Chairman Johnson and hope you will convey our 
support to the rest of the Committee. Please also include this letter 
in the hearing record for S.2805.
            Sincerely,
                                      John E. Antonio, Sr.,
                                                          Governor.
                                 ______
                                 
                               State of New Mexico,
                              Office of the State Engineer,
                                         Santa Fe, NM, May 7, 2008.
Hon. Jeff Bingaman,
U.S. Senate, 703 Hart Senate Office Building, Washington, DC.
Hon. Pete V. Domenici,
U.S. Senate, 328 Hart Senate Office Building, Washington, DC.
Re: S. 2805 The Rio Grande Pueblos Irrigation Infrastructure 
Improvement Act
    Dear Senators Bingaman and Domenici: On behalf of the New Mexico 
Office of the State Engineer and the Interstate Stream Commission, I 
would like to express support for S. 2805, the Rio Grande Pueblos 
Irrigation Infrastructure Improvement Act. In general, our agency 
supports infrastructure improvement projects that result in more 
efficient irrigation operations and thus conserve water.
    Specifically, we support Section 4(b) that requires projects to be 
prioritized in accordance with detailed factors and other criteria to 
ensure the best use of limited funding. We also strongly support the 
criteria and limitations specified in Section 5 relating to irrigation 
infrastructure grants and the limitation on improvements associated 
with lands that have not been historically irrigated.
    The Office of the State Engineer and Interstate Stream Commission 
support continued efforts at developing better tools for the 
measurement and monitoring of water uses and for planning and 
construction that leads to more efficient water uses within the State 
of New Mexico.
            Very truly yours,
                              John R. D'Antonio, Jr., P.E.,
                                                    State Engineer.





</pre></body></html>
